<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Mikulski, Murray, 
Stevens, Cochran, Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE ARMY

                        Office of the Secretary

STATEMENT OF HON. PETE GEREN, ACTING SECRETARY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Pete Geren, 
Acting Secretary of the Army along with the Army Chief of 
Staff, General Peter Schoomaker. Gentlemen, thank you for being 
here today to review the Army's budget for fiscal year 2008.
    General Schoomaker, I presume that this is your last 
appearance before this subcommittee and you once again head off 
to retirement. On behalf of the subcommittee, I thank you for 
your service to our Nation over the past four decades and in 
particular for answering the call 4 years ago when your Nation 
needed you once more. We wish you well in your second 
retirement.
    The Army's fiscal year 2008 base budget request is $130 
billion, an increase of $20 billion over the last year's 
budget. And to put this into perspective, when you consider the 
terror attacks of September 11, 2001, at that time, the Army's 
budget was approximately $92 billion in today's dollars.
    As we review this budget request, we are mindful that the 
Army remains a force at war, executing operations at a pace 
which places high stress on the soldiers and equipment while 
simultaneously continuing on its path to modernization. This 
creates an inherent tension between meeting demands for 
resources in support of current forces and funding future 
requirements. Finding the right balance is extremely difficult 
and it is our hope that today's hearing will amplify how the 
Army is addressing today's needs while positioning itself for 
the future.
    For instance, the Army is investing heavily in a future 
combat system (FCS), a very complex, integrated transformation 
initiative to equip the future force. However, once fielded, 
this capability will only equip a fraction of the Army's combat 
brigades and so this raises the questions as to how the Army 
will transform its remaining combat brigades on which you rely 
so heavily. Many of these units are still utilizing systems 
that were first fielded over 20 years ago, such as the Abrams 
tank and the Bradley fighting vehicle and compounding this 
challenge is the Army's plan to grow its force by almost 80,000 
troops over the next 5 years. These troops will have to be 
recruited, trained, and equipped and this will add to the 
Army's challenge but also presents opportunities. So we look 
forward to hearing how the Army plans to absorb and utilize 
these additional forces.
    One concern that comes to mind is the Army's ability to 
recruit and retain additional soldiers required to maintain and 
expand this all-volunteer force and as bonuses have facilitated 
this effort over the past few years but there are questions as 
to whether the Army will be able to continue to attract the 
quality men and women it needs without the emergency 
supplemental funds which cover these significant bonus pays.
    The Army is facing further challenges, such as the global 
repositioning of its forces, maintaining readiness, and 
equipping the Guard and Reserves. Addressing each of these 
fighting the global war on terror and simultaneously 
transforming the Army requires us all to be mindful of how you 
are allocating your resources. And gentlemen, we look forward 
to working with you to ensure that our Army is appropriately 
resourced to meet each of these tasks and I'm certain the 
subcommittee agrees with me because I sincerely appreciate your 
service to our Nation and the dedication and sacrifice that is 
made daily by the men and women in our Army. We could not be 
more grateful for what they do.
    Your full statements will be made part of the record and if 
I may now turn to the co-chairman of this subcommittee, Senator 
Stevens, for his opening remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Secretary Geren, General Schoomaker, it's 
nice to see you. I think this is your first time before us, Mr. 
Secretary and we're happy to have you here. I'll just ask you 
to put my statement in the record in full, if you will. It's a 
very short statement anyway.
    [The statement follows:]

               Prepared Statement of Senator Ted Stevens

    Thank you, Mr. Chairman.
    Secretary Geren, we welcome you in your first appearance before 
this committee. You have a challenging assignment and we look forward 
to working with you in meeting the needs of the Department of the Army.
    General Schoomaker, we welcome you back to the committee. I 
understand this will be your last hearing with us as you plan to retire 
next month. We must congratulate you and commend you for your service 
to this committee and our Nation. We wish you well in your future 
endeavors.
    Again, welcome to the committee. We look forward to your testimony.

    Senator Inouye. Mr. Secretary.
    Mr. Geren. Thank you, Mr. Chairman, Senator Stevens, 
members of the subcommittee. It's truly an honor to be before 
you as Acting Secretary of the Army. I want to thank you all 
for the extraordinary support you give to the United States 
Army and I know I speak for every----
    Senator Stevens. Pull that microphone toward you, Mr. 
Secretary.
    Mr. Geren. Yes, sir. Pardon me? Better now? Thank you for 
the support that this subcommittee and the Congress has given 
to the Army over the years, over the decades. I know I speak 
for every uniform and civilian member of the United States Army 
when I say thank you to what you do and the support you give 
us.

                    WALTER REED ARMY MEDICAL CENTER

    Mr. Chairman, if I could just take a moment because of the 
concern the Congress has and members of the subcommittee have 
expressed about the situation at Walter Reed. I would like to 
touch briefly on some of the steps we've taken there before I 
talk about the budget, if I may.
    We have been working very hard as an Army to meet the needs 
of our wounded warriors. What happened at Walter Reed recently, 
we did not live up to our obligation to them and we've been 
taking steps to correct the problems that we've identified 
there and I'd like to just touch briefly on some of the things 
that have happened so you're aware of the steps we've taken and 
what our way ahead is.
    In thinking about Walter Reed, you really need to think of 
two different issues. One is the issue that came to light in 
the press report, having to do with the facilities and how 
those outpatients, medical hold, and medical holdovers were 
treated at Walter Reed and then look at the bigger issue, the 
rest of the medical care system in the United States Army and 
some of the steps we're taking to address these issues across 
the force and do a better job of preparing for the needs of 
particularly the outpatients and the wounded warriors in the 
future.
    As far as the facility that was at issue, Building 18, 
there are no more soldiers in that building. We've moved every 
single soldier out of that building. We've moved them into 
appropriate quarters, to the Abrams Barracks on the Walter Reed 
campus. These barracks, I have personally inspected them. 
They've got computers, they've got Internet connection, they've 
got telephones, televisions. They are quarters that are 
appropriate and the kind of quarters that these soldiers 
deserve to be in.
    We have--the future of Building 18 is still up in the air. 
We're going to put a new roof on it. We're not sure what the 
future of Building 18 is. We're going to look at it and decide 
whether or not it's something we need to renovate in order to 
meet surge capacity in the future but that's still undone, a 
decision unmade.
    As far as immediate improvements we've made at Walter Reed 
though, to address this long term--I think the most important 
thing we've done is leadership changes. Major General Eric 
Schoomaker was assigned as Commander at Walter Reed the Friday 
before last and within hours, he was on the job with his 
command sergeant major. He had his command sergeant major walk 
through every single room we were putting those soldiers in.
    We have created a new position there, a deputy commanding 
general, which we have not had before. It's a one star. It's 
combat veteran Brigadier General Tucker and he will be the 
bureaucracy buster. He will be there working on behalf of the 
soldiers.
    We have created a Wounded Warrior Brigade under the 
leadership of a colonel who is also a combat veteran and he has 
a command sergeant major whose responsibility it is to take 
care of the needs of those soldiers. He is on the ground. He is 
working with them. He has already built trust and he is their 
advocate and I'm confident that he is going to do what it takes 
to make sure that those soldiers get what they need.
    We have done other things that are going to improve the 
quality of service for those soldiers and across the system. 
We're creating, and it's going to go online in a week, a 
hotline, an 800 number. It's initially going to be answered 12 
hours a day then move to 24 once we get the folks prepared to 
do, but a hotline that will come into the Army Operations 
Center so if there are issues, they'll get right up to Army 
leadership soon and not be allowed to percolate at low level 
without being addressed. We have created a one-stop Soldier and 
Family Assistance Center at Walter Reed. We've launched a Tiger 
Team under General Dick Cody. The Vice Chief of Staff is going 
to every major medical center in the country over the next 30 
days and he is going to report back to the Chief and to me. 
We're also sending a similar team to all the community-based 
healthcare organizations that serve our Reserve community and 
the Vice Chief is meeting regularly by video teleconference 
with every hospital commander in the system. We have the Army 
Wounded Warrior program, which you all are familiar with and 
we're working to improve that.
    Sir, we also released an inspector general report this 
week, which has been in the works for 1 year and it has 
identified some additional initiatives that we can take and are 
underway. In fact, many of them we corrected as we went along, 
to make sure that we address this issue.

              FISCAL YEAR 2008 ARMY APPROPRIATIONS REQUEST

    Now let me turn to my posture statement and talk about the 
budget that is before you. Sir, for the Army and I know for 
this subcommittee, our number one priority is the soldiers and 
their families. Seldom has our Nation asked as much of our 
soldiers and their families as we're asking right now, not just 
those we have in combat but it's a tremendously busy time for 
the Army all the way from combat into the transformation we 
have underway in bases all across the country. We want to thank 
this Congress and thank this subcommittee for your support of 
the soldiers. This budget represents a commitment to soldiers 
and their families, to improving barracks, to improve housing, 
childcare services, healthcare as well as the maintenance of 
the facilities.
    Our top focus has to be our soldiers at war. We've got 
130,000 soldiers in combat, soon to grow to 150,000 and our 
commitment is to ensure that they are best trained, best led, 
best equipped force in the world. They are today and this 
budget is going to help us ensure that they remain that way. 
We've got to take care of the soldiers and their families. It's 
a moral obligation we have to their families and we've got to 
provide them a quality life that matches their quality of 
service. I believe that this budget lives up to that 
commitment.
    It has a 3-percent pay raise for our soldiers. It funds the 
maintenance and operations of our facilities at 90 percent, 90/
90 BOS/SRM, which is a major step forward as far as our budget 
request and we have also made additional investments through 
the Milcon and through the base realignment and closure (BRAC) 
that are going to improve the quality of life of our soldiers.

                      RESERVE COMPONENT EQUIPMENT

    Sir, this we have said for a long time, we are one Army, 
active, Guard, and Reserve. This budget puts our money where 
our mouth is. We are one Army. We train as one, we fight as 
one, and we have seen the Guard and Reserve move from a 
strategic Reserve to a part of the operational force. You'll 
see in this budget and over the next 5 years that we're going 
to invest up to $38 billion in Guard equipment. We're going to 
modernize the Guard's tank and Bradley fleet. About 2011, we're 
going to finish before we finish the active component. We make 
an investment in Army modernization for the Guard and Reserve. 
About 40 percent of all the new helicopters we're buying over 
the next 5 years are going to the Guard and Reserve.
    We are making sure that the Guard is in a position to meet 
the obligations that we are putting upon them. They have 
carried a heavy burden in the war. A third of our soldiers that 
are deployed have come from the Guard and Reserve and we're 
going to continue to look to them as part of the front line 
force.

                           SOLDIER PROTECTION

    We'll make investment in other soldier protection measures 
here, body armor, up-armored humvees and the new V-hulled MRAP. 
Sir, we've got a mission in front of us and this budget helps 
us fulfill it. It's bigger than the war on terror. We are 
deterring aggression around the world. We have 150,000 soldiers 
deployed in countries other than Iraq and Afghanistan, 76 
countries around the world and we've got to build strategic 
depth and full-spectrum readiness.

                              ARMY GROWTH

    This budget will help us manage the stress on the force, 
will provide us the resources to begin the process of growing 
the Army and building the Army of the future through 
transformation and modernization. BRAC funding is critically 
important to us. We need it in April and we need the 
supplemental in April so that we don't have to start disrupting 
things and start doing reprogramming.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. I appreciate the opportunity to 
appear before you today and represent the United States Army. I 
look forward to answering your questions.
    [The statement follows:]
Prepared Statement of the Honorable Francis J. Harvey and General Peter 
                             J. Schoomaker
                                                 February 14, 2007.
    America remains at war. This is one of the most dangerous times in 
our history. We retain the confidence of the Nation as we engage in a 
long struggle against global terrorism and the conditions that give it 
life and sustain it. Since 9/11, well over 700,000 active and reserve 
soldiers have deployed overseas in support of the war on terror.
    Today, almost 600,000 soldiers are on active duty, serving in 
nearly 80 countries worldwide. While fighting, we are continuing to 
prepare our soldiers, leaders, families, civilians, and forces for the 
challenges they will face. Our commitment to current and future 
readiness in the face of uncertainty is driving how we are 
transforming; modernizing; and realigning our entire global 
infrastructure of bases, depots, arsenals, and equipment sets.
    To fulfill the central role that will be demanded of landpower in 
the 21st century, we are becoming a strategically agile, expeditionary 
force reliant on modular brigades. These modular brigades are designed 
to deal with the full spectrum of challenges our Nation will face. 
Their effectiveness in current theaters of operation today validates 
that we are moving in the right strategic direction.
    The recent decision to expand the size of the Armed Forces--
specifically our ground forces--reflects clear recognition on the part 
of the President, the Congress, and the Secretary of Defense of the 
dangers we face, the importance of our mission, and the increasing 
level of stress that our soldiers and families are weathering as a 
result of unprecedented levels of strategic demand over the past 5 
years.
    To continue to accomplish our mission in service to the Nation, we 
require support to:
  --Ensure full, timely, and sustained funding to be ready for current 
        and future challenges;
  --expand the size of the Army to build strategic depth and to enhance 
        readiness across all components of the force;
  --implement new policies to assure recurrent, predictable access to 
        Army National Guard and Army Reserve units in order to meet 
        sustained global demand for Army forces;
  --enhance wartime authorities to improve commanders' ability to deal 
        with emerging, in-theater operational demands and to build the 
        capabilities of strategic partners; and
  --support to sustain our all-volunteer soldiers, their families, and 
        our Army civilians and to maintain the trust of the American 
        people, whom we serve in this time of war and uncertainty.
    We have received considerable support to execute current 
operations, to reset our forces, and to build a modular Army. We will 
need additional support to close the gap between requirements and 
resources, particularly as we maintain an extraordinarily high 
operational pace and grow the Army. This support must not be provided 
at the expense of our future readiness. To break our historic cycle of 
national unpreparedness, America must invest prudently and predictably 
in defense, which it can afford to do.
    To meet the needs of the Combatant Commanders and the Nation, the 
Army will require the full level of the resources requested in the base 
budget and in supplemental appropriations.
                                       Peter J. Schoomaker,
                       General, United States Army, Chief of Staff.
                                         Francis J. Harvey,
                                             Secretary of the Army.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           executive summary
    Soldiers are serving today in one of the most dangerous periods in 
our history. They are making enormous contributions and sacrifices at 
the forefront of the global war on terror. Their ``boots on the 
ground'' have enabled historic elections in Afghanistan and Iraq and 
will be required for democratic institutions to take hold. Operating as 
part of the Joint Team, our soldiers are preventing attacks on the 
Nation, responding to natural disasters at home and abroad, helping to 
secure our borders, and underwriting our Nation's commitment to defend 
its interests.
    In light of the growing threats to the Nation posed by States and 
non-State movements and organizations, the environment in which our 
soldiers will operate will remain extraordinarily dangerous for the 
foreseeable future. Our mission within this environment will remain 
largely unchanged. The Army, as a vital ground component of the Joint 
Team, will be required to conduct prompt, sustained combat and 
stability operations. We will continue to provide the forces and 
capabilities to the Combatant Commanders needed to sustain the full 
range of U.S. global commitments in the face of growing challenges.
    As U.S. ground forces have demonstrated so vividly since 9/11, the 
ability to operate in the ``human dimension''--to directly confront, to 
defeat, or to otherwise influence our adversaries--can only be provided 
by putting ``boots on the ground.'' Ground forces will play a central 
role in countering the spread of radical ideologies, influencing 
people, and bringing order and stability to troubled areas worldwide. 
This capability will become increasingly important for the Nation and 
its friends, allies, and coalition partners.
    To prepare our soldiers for the challenges they will face today and 
tomorrow, and to sustain anticipated levels of demand for Army forces 
which far exceed deployments to current theaters of operation, we seek 
to accelerate critical aspects of our transformation.

    ----------------------------------------------------------------

                       Guiding Our Transformation
    Whole Cohesive Units
    Adaptive Leaders and Soldiers
    National Commitment
    Holes in the Force

    ----------------------------------------------------------------

    Recent decisions to expand the size of the Armed Forces--
specifically our ground forces--reflect clear recognition on the part 
of the President, the Congress, and the Secretary of Defense of the 
dangers we face, the importance of our mission, and the increasing 
level of stress our soldiers and families are weathering as a result of 
unprecedented levels of strategic demand over the past 5 years.
    This recognition must be matched by commensurate levels of national 
commitment that result in timely, adequate, and predictable resourcing 
and support. These resources are required to sustain the capacity to 
wage war and to transform--to build our force in a balanced, 
coordinated fashion, while providing adequately for the needs of our 
all-volunteer soldiers and their families, across our active and 
reserve components.
    The purpose for our expansion is to build readiness for current and 
future challenges. We know from our national experience that this is a 
time consuming process--that depends not only on manning and equipping, 
but also on training and caring for our people. Likewise, our capacity 
to grow military forces depends on our capacity to grow and maintain 
the infrastructure needed to train and sustain these forces.
    As we move to expand the size of our force, we will adhere to the 
four key ideas which have guided our transformation in recent years:
  --Whole Cohesive Units.--First, we remain committed to producing 
        units that are ready for the challenges they will face and to 
        overcoming years of underfunding prior to 9/11. We have 
        received unprecedented support to ``buy back'' much needed 
        capability. We cannot, however, fool ourselves by maintaining 
        large numbers of forces on paper that, in reality, lack the 
        people, equipment, training, and support needed to accomplish 
        the missions that they will be assigned.
  --Adaptive Leaders and Soldiers.--Second, we recognize that 
        intellectual change precedes physical change. For this reason, 
        we are developing qualities in our leaders, our people, our 
        forces--and the institutions which generate and sustain them--
        that will enable them to operate effectively amidst uncertainty 
        and unpredictability. We describe the leaders we are creating 
        as ``pentathletes,'' whose versatility and agility--qualities 
        that reflect the essence of our Army--will enable them to learn 
        and to adapt to new situations in a constantly evolving 
        environment. To ensure that our soldiers are well led, we are 
        now actively implementing the findings of a comprehensive 
        review focused on how we train, educate, assign, and develop 
        our officers, noncommissioned officers, and civilian leaders.
  --National Commitment.--Third, reinforced by American military 
        experience, we believe that our soldiers' effectiveness depends 
        upon a national commitment to recruit, to train, and to support 
        them properly. This commitment demands consistent investment in 
        their equipment and supporting infrastructure. We are acutely 
        aware of fiscal constraints; however, we remain firm and 
        unwavering in our determination to fulfill our duty to do what 
        is right for our soldiers, their families, and the Nation. We 
        are equally determined to improve support for our soldiers and 
        their families. Our objective is to provide a quality of life 
        that matches the quality of service they perform for America.
  --Holes in the Force.--Fourth, we remain mindful of our position at 
        the start of the long struggle in which we are now engaged. 
        After years of insufficient investment in the Army, many of our 
        units were under-equipped and not ready for deployment, 
        especially in our reserve units. To meet Combatant Commanders' 
        immediate wartime needs, we pooled equipment from across the 
        force to equip those soldiers deploying into harm's way--a 
        practice that we are continuing today to meet current 
        operational demands. This practice increases risk in our 
        ability to perform other critical missions, as observed in our 
        Army National Guard during Hurricanes Katrina and Rita, and in 
        our assessment of our ability to respond to other strategic 
        contingencies.
      With help from the President, the Secretary of Defense, and the 
        Congress--through base and supplemental appropriations--we have 
        addressed many of our equipment shortfalls. Supplemental 
        appropriations, however, have not enabled the Army to ``get 
        well,'' as they are intended to pay for the costs of war, 
        principally through the purchase of consumable supplies and the 
        replacement of battle losses. Even with full resourcing, we 
        would still have much to accomplish to mitigate risk as 
        currently assessed (by the Department of Defense and the 
        Chairman of the Joint Chiefs).

    ----------------------------------------------------------------

                       Reducing Risk To The Force
    Obtain Full, Timely, and Predictable Funding
    Grow the All-Volunteer Force
    Reset the Force
    Improve Wartime Authorities and Resources
    Transform the Force
    Modernize by Accelerating the Fielding of Advanced Technologies
    Station the Force to Meet Emerging Strategic Demands
    Transform Business Practices

    ----------------------------------------------------------------

    Our need to build readiness to sustain the current mission, to 
remain relevant and ready to meet future challenges, and to maintain 
risk at acceptable wartime levels, translates into a set of core 
objectives which the Army must achieve:
  --Obtain Full, Timely, and Predictable Funding to Sustain the Army's 
        Global Commitment.--Full, timely, and predictable funding of 
        the Army's Fiscal Year 2008 President's Budget request and 
        supplemental appropriations is required to build readiness 
        needed to execute the National Defense Strategy and to pay for 
        the costs of war. Full funding will enable the Army to provide 
        adequately for soldiers, families, and Army civilians; to 
        accelerate key aspects of our transformation; and to maintain 
        the momentum of vital training programs, modernization, and 
        critical stationing initiatives.
  --Grow the All-Volunteer Force to Sustain the Long War.--Support and 
        full funding is needed to continue to achieve our goals for 
        attracting and retaining high quality people in each of our 
        active and reserve components. This funding will facilitate the 
        expansion of our operational, deployable force pool--which is 
        vital to sustaining the effectiveness and health of the all-
        volunteer force, now being tested for the first time in a long 
        war.
  --Improve Wartime Authorities and Resources for Soldiers and 
        Commanders in Combat.--Changes are needed to eliminate 
        unintended constraints on programs such as the Commander's 
        Emergency Response Program, the Logistics Civil Augmentation 
        Program, and in administering security cooperation and 
        assistance programs, as well as furnishing humanitarian 
        assistance. In addition, continued congressional leadership 
        will be required to support programs and initiatives to protect 
        soldiers (to counter improvised explosive devices, to provide 
        up-armored vehicles, to field individual body armor, etc.) and 
        to better equip Iraqi and Afghan police, security, and military 
        forces.
  --Reset the Force to Ensure Readiness for Current and Future 
        Challenges.--Full funding is needed to restore units--a process 
        with both materiel and human dimensions--to required levels of 
        readiness to execute projected operational deployments, while 
        remaining prepared for likely future contingencies and homeland 
        defense missions. To be ready, we must not only ensure that 
        battle damaged items are repaired, recapitalized, or replaced; 
        we must also enable our soldiers and families to recover from 
        the stress of combat and prolonged separation. Resetting the 
        force will require sustained, predictable funding for several 
        years beyond major deployments.
  --Transform the Force to Sustain the Full Range of our Global 
        Commitments.--Full funding for Army transformation is needed to 
        create an operational, deployable pool of 76 modular brigade 
        combat teams and approximately 225 support brigades. Our 
        transformation is improving our ability to execute and support 
        protracted campaigns by increasing the depth and breadth of our 
        overall capacity. We are converting to more capable modular 
        formations, balancing the size and capabilities of our active 
        and reserve components, and stabilizing our force.
      Our transformation will be reinforced by an Army-wide readiness 
        model to support expeditionary, rotational deployment. This 
        system is designed to: improve the readiness of our non-
        deployed forces across all components; reduce stress on 
        soldiers, families, and equipment; improve predictability for 
        employers of reserve component soldiers; end the need to extend 
        deployments in theater to provide active component soldiers at 
        least 1 year at home before redeploying them; and manage the 
        force to achieve our goal of 1 year deployed with 2 years at 
        home station for these soldiers.
      This system requires recurrent, assured, and predictable access 
        to our reserve component units who--because of strategic 
        decisions and operational necessity--have become a vital part 
        of our deployable force pool.
  --Modernize by Accelerating the Fielding of Advanced Technologies to 
        our Soldiers Today.--Full funding of the Army's modernization 
        program is needed to accelerate aspects of future combat 
        systems (FCS) development, aviation programs, and over 300 
        other key modernization initiatives. FCS is our first major 
        modernization program in several decades and is our most 
        critical investment program. In 2008, to enhance combat 
        effectiveness today, FCS will begin to ``spin out'' key 
        technologies to our current forces--a process projected to 
        continue in roughly 2-year intervals. FCS is enabling 
        soldiers--from our active and reserve components, all U.S. 
        ground forces, and our allies that support ground campaigns--to 
        deal with the full spectrum of challenges they will face.
  --Station the Force to Meet Emerging Strategic Demands While 
        Providing Infrastructure and Services to Enable Mission 
        Accomplishment.--Full funding and timely passage of key 
        appropriations is needed to achieve the framework of a new 
        global basing posture by 2011 and to enable our installations 
        to deliver a quality of life for our soldiers, families, and 
        Army civilians that matches the quality of the service they 
        provide to the Nation. Our plan will improve our ability to 
        fulfill national strategic requirements and to do so far more 
        efficiently than today. Moreover, the funding provided to the 
        Army will enable us to allocate significantly greater levels of 
        resources to improve the quality and effectiveness of the 
        facilities we depend on to: train, maintain equipment; house 
        and care for our soldiers, and provide safe, modern working 
        conditions for our Army civilians.
      Our capability to meet current force requirements and to grow our 
        forces, depends on adhering to an extremely complex, intricate 
        schedule to realign our entire global infrastructure of bases, 
        depots, arsenals, and other facilities. Our ability to remain 
        on schedule depends on timely execution of a diverse range of 
        military construction projects and supporting activities (e.g., 
        environmental assessment studies and remediation projects). 
        Timely passage of military construction appropriations is 
        needed to prevent the effects of delays from cascading into 
        other areas of Army activity that put at risk our ability to 
        accomplish our mission--to provide trained, ready forces to 
        meet the Combatant Commanders' needs.
      The resources provided in 2007 and 2008, through base and 
        supplemental appropriations, are needed to enable the Army to 
        adhere to the schedule established by law, and to sustain our 
        all-volunteer soldiers and their families, now bearing the 
        stress of more than 5 years of war.
  --Transform Business Practices to Better Enable Army 
        Transformation.--Continued support is needed to execute Army 
        business transformation and achieve targeted efficiencies 
        through: management reform; acquisition reform; comprehensive 
        redesign of the organizations and business processes that 
        generate, deploy, and reset forces; consolidation of bases and 
        activities; military to civilian conversion programs; and 
        performance measurement enhancements.
    This remains a pivotal time for the Army. We will continue 
worldwide operations to support the war on terror and to sustain the 
full range of our global commitments. At the same time, we will 
maintain our focus on transforming the force, our global 
infrastructure, and our supporting business processes.
    Four overarching, interrelated strategies form the core of our 
plan--which we call The Army Plan. This plan is enabling us to 
accomplish our mission today and to realize our vision over time: to 
remain the preeminent landpower on Earth--the ultimate instrument of 
national resolve--that is both relevant to, and ready for, the 
challenges of the dangerous, complex 21st century security environment.
    Our strategies are summarized in figure 1. Our compelling needs--
expressed in terms of the resources and support we require to execute 
these strategies--are summarized in figure 2.
    These strategies are driving change at an unprecedented pace. We 
are making enormous progress in ``shifting the weight'' of our 
intellectual and organizational focus from traditional challenges to be 
better prepared for irregular, disruptive, and catastrophic challenges.
    We are developing a broad set of capabilities to deal with, and 
quickly adapt to, the full spectrum of challenges we will face. Our 
forces are becoming more powerful, more flexible, and more deployable. 
We are improving our ability to operate with our joint and coalition 
partners. We are also working, while at war, to relieve stress on our 
soldiers, families, and Army civilians to sustain the viability of our 
all-volunteer force--which is perhaps our greatest strategic challenge.
    The resources and support provided to the Army in 2007, 2008, and 
beyond will enable us to maintain the momentum of key programs and to 
accelerate critical aspects of our transformation. Moreover, this 
funding will determine our ability to continue to accomplish our 
mission, to complete the shifting of our weight, and to prepare our 
soldiers to deal with the challenges they will face today and tomorrow.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     21st century security environment: an era of uncertainty and 
                            unpredictability
    In the 5 years since 9/11, the international security environment 
has become increasingly dangerous. Military commitments--requiring 
ground and Special Operations Forces--have increased on a global scale. 
Sustained levels of force deployment have stressed our soldiers, their 
equipment, and the institutions that generate them. The likelihood of 
sustained strategic demand for Army forces underscores the need to 
improve our readiness for both current and future challenges.
    We need sustained support and timely, predictable funding to keep 
requirements and resources in balance--in the face of growing threats 
to the Nation. We will continue to conduct operations to prevail in the 
war on terror and to execute a range of initiatives designed to improve 
our strategic posture to deal with the challenges we will face.
    We are increasing our capabilities to deal with the challenges we 
face today. In light of the clearly foreseeable challenges now 
emerging, we must accelerate our preparation for those we will face 
tomorrow. We remain steadfast in our determination to:
  --Transform and modernize to build a far more capable, relevant Army;
  --realign our global infrastructure of bases, depots, arsenals, and 
        equipment sets; and
  --sustain our all-volunteer soldiers, their families, and our Army 
        civilians.
    Recent decisions to expand the size of U.S. ground forces reflect 
clear recognition on the part of the President, the Congress, and the 
Secretary of Defense of the dangers America faces, the importance of 
our mission, the central role that ground forces will perform to defend 
the Nation, and the stress that our all-volunteer force is weathering.
    This decision puts us on a path to greatly enhance the depth and 
breadth of Army capabilities, yet will require several years, 
considerable resources, and a sustained national commitment to bring to 
fruition. Over time, this decision will alleviate strategic risk. To 
implement the changes required to prepare for the future, while 
continuing our current pace of operations, we require timely, 
sufficient resources, and rapid implementation of policies designed to 
assure recurrent, predictable access to all of our components.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Complexity and Uncertainty
    The National Defense Strategy identifies an array of traditional, 
irregular, catastrophic, and disruptive challenges that pose distinct 
threats to our Nation (figure 3). These threats are growing 
increasingly more complex due to:
  --The decline in the military primacy of States, resulting from the 
        rise of non-State extremist movements and organizations;
  --the corresponding deterioration in our adversaries' adherence to 
        international law and norms, intended to govern the character 
        and conduct of warfare;
  --the rise of globalization, which is creating both opportunity and 
        vulnerability due to the growing interdependence of 
        international financial, commercial, information, and 
        transportation systems;
  --the diffusion of technology, which is increasing the availability 
        and killing power of weaponry, while creating new challenges 
        for space and communications systems;
  --the dramatic growth of the internet and cellular communications, 
        which is creating low-cost, effective means to rapidly move 
        information, transmit instructions, shift resources, and shape 
        perceptions in unprecedented ways; and
  --growing disparities among ``haves'' and ``have nots'' in the 
        international order, compounded by feelings of hopelessness and 
        despair, which are creating fertile ground to sow the seeds of 
        hatred and radicalism.
    We will be confronted with increasing threats posed by a growing 
number of transnational organizations and movements, who will wage 
irregular warfare. We will continue to face threats, posed by nation-
states that will involve large scale conventional military forces in 
more regular forms of warfare.
    Fueled by ideologies that oppose our Nation's bedrock values, 
extremist groups like al-Qaeda and other enemies, supported by the 
states and groups who sponsor them, are committed to reducing America's 
global presence--and to destroying American society. They will seek to 
oppose the United States asymmetrically--by employing terror, 
information warfare, and the most deadly, casualty-producing weapons 
available. Al-Qaeda's goal is clear: to gain control in the Islamic 
world by establishing a unified caliphate, stretching from North Africa 
to Indonesia, and to expand its influence well beyond these regions.
    Enemies like al-Qaeda are ruthless, unconstrained, and expert in 
distorting and exploiting the power of religion to further their ends. 
Ongoing counter-terrorism and counter-insurgency operations in Iraq, 
Afghanistan, and elsewhere reflect the tough challenges involved in 
confronting savage, extremist adversaries in highly complex 
environments. We are fighting smart, adaptive opponents who are 
leveraging the opportunities presented by globalization to conduct 
brutal, indiscriminate, and unprecedented attacks.
    These adversaries will be neither deterred by nuclear or 
conventional forces nor defeated in battles with decisive outcomes. 
Previous concepts for intelligence and warning do not adequately 
address the threats we now face. To prevail in this struggle, the 
Nation must remain vigilant, improve interagency cooperation, and 
employ all instruments of national power--diplomatic, informational, 
military, and economic--in a rapid, concerted, and fully integrated 
manner.
    Military conflict will be waged increasingly in the human 
dimension--which underscores the need to be able to directly confront, 
to defeat, or to otherwise influence adversaries on the ground. This 
need can only be met with ``boots on the ground,'' as U.S. ground 
forces have demonstrated so vividly since 9/11. Ground forces, able to 
conduct sustained operations, will be required to counter the spread of 
radical ideologies, to influence people, and to bring order and 
stability to troubled areas.
    The security environment in which our soldiers will operate is 
becoming increasingly uncertain and unpredictable. Their environment 
will be influenced by:
  --International progress in the war on terror;
  --the commitment and stability of key international institutions and 
        the governments of allies and partners in the war on terror;
  --the actions of states and non-state extremist movements and 
        organizations who oppose democratic reform in the Middle East 
        and elsewhere, particularly in Iraq, in Afghanistan, and in the 
        emerging Palestinian State;
  --the ability of existing governments to perform traditional state 
        functions--and to deny safe haven for terrorist organizations--
        amidst increasing economic pressures and demands for energy, 
        water, and other natural resources;
  --progress in controlling the proliferation of nuclear weapons and 
        other weapons of mass destruction;
  --the nature and outcome of military competition (on land, sea, air, 
        and space) at both regional and global levels;
  --the potential for adversaries to disrupt critical land based and 
        space based communications systems; and
  --decisions in key areas which include: defense priorities amidst 
        growing national fiscal pressures and the pace and level of 
        resourcing for both base realignment and closure and global 
        defense posture realignment initiatives.
Competing Fiscal Priorities
    The Army will remain engaged around the globe, while operating in a 
constrained fiscal environment. This will continue to limit the 
resources available for both current and future challenges.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Budget Trends
    The Office of the Secretary of Defense, Comptroller, projects 2007 
Defense spending will be 3.9 percent of Gross Domestic Product (GDP), 
continuing a downward trend (figure 4). Defense resources have not kept 
pace with growth in GDP. GDP increased over 300 percent between 1968 
and 2005, from $3.7 to $11 trillion. Defense spending, however, 
increased only 62 percent, from $358 to $523 billion.
Defense Budget Trends
    The allocation of Defense resources has changed little over time 
(figure 5), despite changes in the focus and emphasis of the National 
Defense Strategy. Today, while providing the largest number of forces 
for the war on terror, the Army receives the smallest share of 
programmed Defense resources. The Army is the most manpower intensive 
Service. Unlike the other Departments, who are able to reduce manpower 
to offset rising personnel costs, the Army must add soldiers to meet 
its commitments. Rising fuel, health care, and other costs--on top of 
steadily increasing costs to man the force--will continue to erode the 
Army's purchasing power.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Army Budget Trends
    The bulk of the Army's funds are committed to sustaining people, 
maintaining vital infrastructure, and preparing equipment for combat 
deployment. People accounts--including salaries for soldiers and Army 
civilians as well as the labor costs incurred in contracts and in 
procurement--amount to more than 80 percent of the Army's budget. As a 
result, our ability to fund investment accounts today is extremely 
limited (figure 6)--and has diminished steadily over time. In 1984, for 
example, procurement and research, development, test, and evaluation 
amounted to 31 percent of the Army's budget, which by 2005 had 
diminished to only 17.5 percent. Caused in large part by rising 
manpower costs--to attract, to retain, and to provide for a competitive 
quality of life for an increasingly married force--this trend is 
indicative of the Army's continuing tension between current and future 
demands.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Army Investment Trends
    Since 1990, the Army's share of investment dollars has been 
considerably smaller than that of the other Departments (figure 7). The 
Army has received less than one-fifth, while the other Departments have 
each received approximately one-third. Consequently, the Army has been 
unable to invest in the capabilities needed to sustain a rising 
operational tempo and to prepare for emerging threats. Supplemental 
funds have enabled the Army to replace essential weapons and equipment 
lost or worn out during battle. They have sustained our capability to 
meet the operational demands of the war on terror. Supplemental funds 
have not, however, enabled the research and procurement required to be 
prepared for the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Implications for the Army
    The implications of the 21st century security environment for the 
Army are clear:
  --An Era of Uncertainty and Unpredictability.--The Nation will remain 
        engaged in a long struggle of continuous, evolving conflict. As 
        in Iraq and Afghanistan today, this conflict will manifest 
        itself in both traditional and irregular settings involving 
        conflict in the human dimension--necessitating the presence of 
        forces on the ground. We will face adaptive adversaries (now 
        carefully observing United States and allied forces) who will 
        present unprecedented threats to our military establishment. We 
        must prepare for disruptive challenges including cyberspace 
        attack and attempts to disable national and international 
        communications systems.
  --Need for Relevant Forces.--Landpower will perform an enduring, 
        central role to underwrite U.S. commitment and resolve. More 
        than ever before, we will rely on our ability to project power 
        and to deploy rapidly across strategic distances--with relevant 
        forces that are able to conduct combat operations immediately 
        upon arrival in theater. Relevant forces will enhance our 
        national strategic agility--and enable our leaders to create 
        favorable strategic situations by foreclosing, and potentially 
        preempting, enemy options. As described in the Army's capstone 
        concept for the future force, the Army in joint operations, 
        these forces must be able to operate effectively as part of 
        joint, interagency, multinational, and coalition teams and to 
        do so with little or no warning.
  --Trained and Equipped to be Ready in the Face of Uncertainty.--We 
        must maintain the capacity to deploy trained, ready forces in 
        response to emerging strategic contingencies as required by the 
        National Defense Strategy, the National Military Strategy, and 
        Combatant Commanders' plans. For this reason, our soldiers, 
        from all components, must be ready to conduct the full spectrum 
        of operations needed to defeat the threats they will face--and 
        to strengthen the capacity of friends, allies, and partners. We 
        can no longer accept the risks associated with partially 
        manning, equipping, or training our units. We will not be able 
        to depend on significant warning to provide the time needed to 
        mobilize, to train, and to prepare for deployment. Instead, our 
        units designated for deployment will require their full 
        complement of soldiers and equipment. They must also be trained 
        to conduct the full spectrum of likely operations: from 
        engagement with friends, allies, and partners . . . to 
        irregular warfare . . . to major combat operations.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  --Capacity to Sustain the All-Volunteer Force.--Sustaining the 
        overall viability of the all-volunteer concept may well be our 
        greatest strategic challenge. Our installations play a vital 
        role in this effort--by providing homes and communities for our 
        soldiers and families as well as safe, modern workplaces for 
        the many civilians who support our Army. To continue to attract 
        and to retain the highest quality of soldiers and civilians, we 
        must provide a quality of life for our soldiers, families, and 
        Army civilians that matches the quality of service that they 
        provide to the Nation.
  --Infrastructure and Capacity to Project Power.--To prepare, to 
        generate, and to sustain forces, we will demand more from our 
        global infrastructure of bases, depots, arsenals, equipment 
        sets, and the network which connects them. Our installations 
        provide the foundation of our ability to execute the National 
        Defense Strategy. They enable us to project power and to train 
        our soldiers, leaders, and units. As such, we must invest in 
        them accordingly to develop the strategic capabilities we need, 
        and to overcome decades of underfunding. In addition, our Armed 
        Forces must maintain a proper mix of airlift, sealift, and 
        properly maintained equipment sets, positioned on land and 
        afloat.
    To remain relevant to the threats now clearly emerging, we must 
continue to ``shift our weight'' from our traditional focus to become 
more versatile across the full range of irregular, disruptive, and 
catastrophic challenges we will face. We must accelerate the ongoing 
adaptation of our leader development, training, and modernization 
programs, which is already well under way. Likewise, we must also 
continue our efforts to improve our strategic responsiveness and 
agility--as well as the overall effectiveness of our operating and 
generating forces. In addition, we must continue our initiatives to 
create improvements in critical areas which include:
    --Joint interdependence;
    --operational agility;
    --intelligence for our commanders and soldiers that is timely, 
            actionable, and draws upon all sources available;
    --lethality;
    --soldier and unit protection;
    --networks to improve common situational awareness and 
            understanding needed for battle command;
    --information assurance and information security; and
    --cultural awareness and foreign language proficiency, and the 
            ability to operate with the militaries and governments of 
            other nations.
    Building the capabilities required to execute the full spectrum of 
likely operations amidst increasing threats to the Nation will require 
prudent investment today. This level of investment must be sustained at 
predictable levels over time to reduce risk for our soldiers, the Army, 
the Joint Team, and the Nation.
    Investing in defense in this manner would reflect a significant 
departure from historic patterns of spending--that have resulted in 
corresponding cycles of unpreparedness--which have increased America's 
vulnerability at the outset of the major conflicts of the 20th century 
and those occurring in the early stages of the 21st century.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 the army vision: relevant and ready landpower in service to the nation
    The challenges posed by the 21st century security environment drive 
our vision of the force we must become to continue to accomplish our 
mission, to preserve peace and freedom for the Nation. Maintaining our 
focus on soldiers--who are well led and organized into flexible, 
adaptive formations in our operating force, and properly supported by 
our generating force--we will ensure that our Army continues to be 
relevant, in terms of its design, and ready, in terms of its 
capabilities, for whatever the Nation demands. America has entrusted us 
to preserve peace, maintain freedom, and defend democracy--a role we 
have performed for over 230 years. Today, because of our soldiers and 
our record of accomplishment, the American people regard the Army as 
one of the Nation's most respected institutions. We will maintain this 
trust.

               MISSION: PROVIDING FORCES AND CAPABILITIES

    The Army exists to serve the American people, to defend the Nation, 
to protect vital national interests, and to fulfill national military 
responsibilities. Our mission is enduring: to provide necessary forces 
and capabilities to the Combatant Commanders in support of the National 
Security and Defense Strategies. The Army recruits, organizes, trains, 
and equips soldiers who, as vital members of their units and the Joint 
Team, conduct prompt, sustained combat and stability operations on 
land. The Army is also charged with providing logistics and support to 
enable the other Services to accomplish their missions, and supporting 
civil authorities in time of emergency, when directed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Accomplishing the Mission Today: Sustaining Global Commitments
    Almost 600,000 soldiers are on active duty today (currently 507,000 
active component, 46,000 Army National Guard and 28,000 Army Reserve). 
Over 40 percent (243,000) of them are deployed or forward stationed, 
serving in 76 countries worldwide. More than 4,600 Army civilians are 
serving side-by-side with them in the field, performing a variety of 
missions vital to America's national defense. At home, over 8,000 
soldiers are on duty in support of the war on terror. The Army's 
operational pace remains high, continuing the trend established during 
the post-Cold War era. Whenever and wherever needed, soldiers are 
continuing to answer the call to duty, enabling America's ability to 
put ``boots on the ground''--as demonstrated so vividly by the recent 
national decisions to reinforce our forces in Iraq and Afghanistan.
    The Army continues to provide Combatant Commanders with a wide 
range of forces and capabilities to prevail in the war on terror, to 
sustain our global commitments, and to build effective multinational 
coalitions. First and foremost are the forces required for Operation 
Iraqi Freedom and Operation Enduring Freedom, which include forward-
stationed units and those based in the United States. The Army's 
requirements, however, are far greater than those needed to support the 
war on terror.
    They include support for:
  --Multinational exercises which reflect our longstanding leadership 
        of, and commitment to, an expanding North Atlantic Treaty 
        Organization and many other alliances;
  --the defense of South Korea, Japan, and many other friends, allies, 
        and partners;
  --ongoing peacekeeping operations in the Sinai Peninsula, the 
        Balkans, and elsewhere;
  --the security of our borders, as evidenced most vividly by the major 
        deployment of reserve component soldiers to our Southwest 
        Border this past year;
  --operations and equipment to counter the flow of illegal drugs; and
  --civil authorities in response to disasters and threats at home and 
        abroad.
    As a result of the dramatic changes in the security environment 
since 9/11 and the enduring requirements of the global war on terror, 
we are also engaged in South America, the Philippines, Africa, the 
Caucasus, Central Asia, and many other places. These operations, which 
depend on our soldiers to put ``boots on the ground,'' include a wide 
range of combat and non-combat missions: from counter-insurgency, to 
humanitarian and civic assistance, to large scale reconstruction 
operations.
    Our soldiers are also working to accomplish a vital U.S. national 
objective--to build partnerships with foreign militaries and preserve 
the coalition formed to counter terror--by training and advising the 
military forces of many nations. In addition, through various forms of 
military to military exchanges, and other forms of assistance and 
cooperation, our soldiers are helping to enhance the military 
capabilities of our international partners. Through international 
education programs, such as the Army War College, the Command and 
General Staff College, the Western Hemisphere Institute for Security 
Cooperation, and a variety of other cooperative studies initiatives, 
our soldiers are helping to shape the strategic environment in 
favorable ways by building enduring security relationships and 
improving interoperability. In addition, the presence of U.S. forces 
assures friends and allies of our national commitment, while 
encouraging them to contribute their national resources to 
international efforts.
    In the 5 years since 9/11, the Army National Guard has mobilized 
more than 610,000 soldiers to perform both State and Federal missions. 
On any given day, the Army National Guard provides vital capabilities 
in virtually every mission area. Today, more than 46,000 soldiers from 
the National Guard are on active duty.
    Besides their commitments in Iraq and Afghanistan, and in troubled 
regions around the world, National Guard soldiers are protecting the 
homeland, performing key missions in support of U.S. Northern Command. 
They are helping the Department of Homeland Security to protect 
critical infrastructure and to patrol our southern borders (with nearly 
5,000 soldiers deployed). They are also continuing their service in 
areas ravaged by Hurricane Katrina and performing vital State-directed 
missions under the command of the Governors. Our current levels of 
operational commitment have created intense demand for National Guard 
soldiers. Despite sustained levels of high operational tempo, Army 
National Guard soldiers are performing superbly, accomplishing every 
one of their missions and serving with distinction worldwide.
    Since 9/11, the Army Reserve has mobilized more than 164,000 
soldiers, who are also performing superbly. Today more than 28,000 Army 
Reserve soldiers are serving on active duty, with more than 16,000--
almost half of them--deployed to serve in 18 countries worldwide. The 
Army Reserve provides vital capabilities across a diverse range of 
mission areas which include 88 unique skill sets. Our Army Reserve 
provides over 90 percent of the Army's civil affairs capability, and 
more than 50 percent of the Army's medical capability.
    The unique skills resident in our Army Reserve are in great demand 
by Joint and Army commanders. The commitment to mission accomplishment 
and the values demonstrated by our Reserve soldiers, coupled with their 
inherent capabilities, enable our Army Reserve to make an absolutely 
vital, essential contribution to the Joint Force. They are meeting 
every requirement for their special skills, accomplishing every one of 
their missions, and underwriting our capability as a Nation to put 
``boots on the ground.''
Major Decisions in 2006-2007
    During 2006 and 2007, the Army continued its efforts to ``shift the 
weight'' of its intellectual and organizational activities to be better 
prepared for both current and future challenges. Five key areas 
highlight the Army's efforts to accelerate change.
  --Accelerated the Pace of Modular Conversion of Operating Force.--To 
        improve our capacity to meet global demand for Army forces and 
        capabilities, the Army received support and initiated plans to 
        convert two active component brigade combat teams to modular 
        designs far sooner than planned. Two brigade combat teams will 
        now become available for worldwide deployment, in their new 
        modular designs, a year or more earlier than planned.
      We are also developing plans to accelerate the availability of 
        other brigade combat teams. Accelerating modular conversion 
        will help to reduce stress on the force by increasing the time 
        that soldiers will be able to remain at their home stations 
        prior to redeploying.
  --Received Approval to Grow Army Capabilities and for New Policies to 
        Assure Access to All Components of Our Force.--In recognition 
        of current levels of stress on the force, and the need to 
        sustain high levels of force deployment for the foreseeable 
        future, the Army has been directed to increase in size. During 
        2007, the Army will begin to execute a plan to field six 
        additional brigade combat teams by 2012 in the active component 
        and a diverse range of supporting organizations in our active 
        component, Army National Guard, and Army Reserve. We will 
        expand our rotational pool to 76 brigade combat teams and 
        approximately 225 support brigades. This decision will enable 
        the Army to meet an anticipated demand for brigade combat teams 
        and vital supporting units from our active and reserve 
        components.
      While this plan will greatly improve the Army's ability to meet 
        strategic demand, it will not reduce current levels of stress 
        on the force, since it will take several years to accomplish. 
        The recent changes to policy governing reserve component 
        mobilization will help to fulfill sustained high levels of 
        strategic demand for Army forces, and to better manage stress 
        across the force. Growing the Army and improving access to all 
        components of the forces are vital strategic initiatives, which 
        will accelerate the momentum the Army has established to 
        improve its capacity to execute the National Defense Strategy, 
        today and tomorrow. All of the initiatives now underway--to 
        reset the force, to improve readiness of non-deployed forces, 
        to expand the size and condition of our operational force, to 
        modernize the force, to realign and improve the condition of 
        the bases and installations which comprise our global 
        infrastructure, and many others--still require full financial 
        support.
  --Reinforced the Concept of Full Spectrum Operations.--The National 
        Defense Strategy, updated as part of the 2006 Quadrennial 
        Defense Review, requires the Armed Forces to be able to conduct 
        joint, multinational operations anywhere across the spectrum of 
        conflict. This spectrum ranges from the low end--emphasizing 
        stability and civil support operations--to the high end--
        emphasizing major combat operations (which focus on more 
        familiar offensive or defensive operations).
      The change in the National Defense Strategy reflects the reality 
        of the strategic environment: that due to the complexity of 
        stability operations, the Armed Forces must develop readiness 
        for these operations, in addition to developing readiness for 
        combat operations, their more traditional focus. This change, 
        is wholly consistent with the doctrine which has guided our 
        transformation--and how we prepare soldiers and leaders--since 
        9/11. It has also created unique, additional requirements for 
        manning, training, educating, and equipping our operating 
        forces and the forces and institutions that generate them. Put 
        simply, we must plan for stability operations to be an 
        integral, enduring component of any and all joint campaigns; 
        therefore, we must organize, prepare, and provide resources for 
        this aspect of our mission accordingly.
  --Restructured Our Approach to Fielding Future Combat Systems.--The 
        Army is transitioning continuously from the current to the 
        future force through the combined effects of transformation and 
        modernization. The main focus of our transformation is modular 
        conversion. Converting to a force that is built around brigade 
        level modules is enabling the Army to become more capable, more 
        flexible, more deployable, and ultimately, more relevant to 
        current and future challenges. This transformation has already 
        improved our ability to meet Combatant Commanders' needs and to 
        conduct joint, expeditionary warfare.
      Our transformation is complemented by our modernization 
        initiatives, which center on future combat systems (FCS), 
        aviation modernization, and more than 300 other advanced 
        technologies and systems. Future combat systems will reflect 
        the Army's first comprehensive modernization in decades. We 
        have cancelled well over 100 programs in recent years to free 
        resources for our modernization. FCS is generating, or 
        ``spinning out,'' technologies to protect soldiers, enhance 
        battlefield understanding, and provide other tactical 
        advantages for our soldiers fighting in irregular environments 
        today. FCS will produce fully equipped brigades that will begin 
        to enter the force in 2015.
      FCS will provide significant tactical and operational advantages 
        for our soldiers and commanders in pre-insurgency environments 
        and to counter insurgencies if they occur. It will also improve 
        our ability to support civil authorities and to meet all 
        anticipated operational requirements. In recognition of the 
        importance of this initiative to the Army's current and future 
        readiness, we activated and manned a special Army Evaluation 
        Task Force and a supporting headquarters during 2006 to test, 
        refine, and validate FCS technologies.
      As a result of the combined effects of budget cuts over the past 
        3 years, and fiscal guidance that will reduce resources 
        programmed for future years, we will reduce the scope and delay 
        the schedule of FCS fielding. We will continue to develop the 
        core operational capability envisioned for FCS, yet will do so 
        with 14 instead of 18 interconnected systems. We will defer 
        plans to develop two classes of unmanned aerial vehicles, one 
        class of unmanned ground vehicles, and a whole class of 
        intelligent munitions (except for the Korean Peninsula).
      These projected reductions will put at risk our ability to reach 
        the full tactical and operational potential envisioned for FCS. 
        It will also delay our target date to field the first of 15 
        projected FCS equipped brigade combat teams by 5 months, to 
        2015, and slow the rate of procurement to one per year. These 
        adjustments will cause us to take 5 years longer, until 2030, 
        to be able to field and employ all 15 brigade combat teams. 
        These program adjustments will decrease capabilities available 
        to the Joint Force and therefore, increase levels of future 
        challenges risk, as described in the National Defense Strategy.
  --Expanded the Scope of Army Business Transformation.--As we change 
        the way in which we operate militarily, we are also changing 
        the way in which we do business. As a parallel effort to the 
        transformation of Army warfighting forces, we are transforming 
        the business processes and functions to better support our 
        forces--improving both effectiveness and efficiency. The scope 
        of the effort is immense, touching every facet of Army 
        activity.
      The goal of our effort is to free human and financial resources 
        for more compelling operational needs. Realizing this goal 
        depends upon improving processes, developing tools to enhance 
        enterprise-wide situational awareness and decision-making, and 
        reducing organizational redundancy and overhead.
      We are now well underway in deploying the Lean Six Sigma 
        methodology as a vehicle to seek continuous process 
        improvement, eliminate waste, and improve quality across the 
        force. This methodology is the foundation of the comprehensive 
        review of all of our major commands and organizations, now in 
        progress. The award of the coveted Shingo prize to four 
        activities within our Army Materiel Command for improvements in 
        business processes and manufacturing is but one example of our 
        progress in this regard.

             THE ARMY PLAN TO ENABLE MISSION ACCOMPLISHMENT

    We are executing The Army Plan, which centers on our four 
overarching, interrelated strategies, to enable mission accomplishment 
and to achieve the Army vision over time. This plan accelerates the 
redesign of the forces, support structures, and headquarters that are 
accomplishing our mission today. This plan also guides our initiatives 
to provide Combatant Commanders with the capabilities needed to protect 
the Nation today and tomorrow.
    The Army is continuing to:
  --Provide relevant and ready landpower for the 21st century security 
        environment;
  --train and equip soldiers to serve as warriors and grow adaptive 
        leaders;
  --sustain an all-volunteer force composed of highly competent 
        soldiers that are provided an equally high quality of life; and
  --provide infrastructure and support to enable the force to fulfill 
        its strategic roles and missions.
    We are transforming to create a future force with a broad set of 
capabilities to enable our Army to address strategic problems the 
Nation will face (see figure 11). The benefits of our approach are 
clearly evident in the attitudes and levels of commitment we see in our 
soldiers, as well as the attributes of our combat formations, the 
forces that sustain them, and the facilities and processes that 
generate them from their home stations.
    The combined effects of transformation, modernization, innovation, 
and improvement--reinforced by positive change in the attitudes and 
behaviors that create the culture of our service--are helping us to 
become the force the Nation will need to safeguard its peace and 
freedom in the 21st century. The Army plan is continuously improving 
our ability to operate as part of the Joint Team, while ensuring our 
ability to dominate in any environment against current, emerging, and 
unforeseen threats. We believe that every dollar spent to build 
capability for our current force is an investment in our future force.
    Our initiatives are guiding our efforts to:
  --Increase soldier and unit effectiveness and protection;
  --grow innovative, adaptive soldiers and leaders through training and 
        education programs that rapidly incorporate lessons learned 
        from combat and prepare them to serve as warriors;
  --adapt the doctrine which guides how we fight, how we sustain our 
        forces, how we train our soldiers, and how we work to 
        strengthen the capacity of friends, allies, and partners;
  --create far more capable, strategically deployable brigades designed 
        to receive new technologies and equipment as soon as they 
        become available; and
  --apply better business practices to free resources to use for our 
        most pressing operational requirements.
    Our ongoing intellectual and cultural transformation is 
dramatically improving how our leaders, soldiers, civilian workforce, 
and families are adapting to the reality of protracted conflict. This 
transformation is reinforcing the commitment to continuous improvement 
that has taken hold across the Army.

    ----------------------------------------------------------------

 Examples of Unique Army Capabilities to Support Joint, Combined, and 
                         Interagency Operations
Countering Terrorism
    Assist friends, allies, or partners to conduct military operations 
by providing logistics, command and control, intelligence, protection, 
and other support to the Joint Force.
    Train military and security forces to counter extremist, radical, 
or insurgent elements.
    Provide ground forces (conventional and special operations) to 
sustain large-scale counter-terror and counter-insurgency operations.
    Rapidly deploy substantial numbers of ground forces from strategic 
distances to meet Combatant Commanders' requirements for counter-terror 
or combat operations.
    Conduct extended stability operations.
Defending the Homeland
    Detect and prevent hostile actions against the homeland through the 
presence of the National Guard and the Army Reserve within States and 
communities.
    Support civil authorities in consequence management, disaster 
relief, and other roles including: executing the National Response 
Plan, reinforcing public safety, and providing logistics, 
transportation, communications, utilities management, engineering, and 
other services.
Shaping Choices of Countries at Crossroads
    In support of Combatant Commanders, establish relationships with 
foreign leaders, forces, and people through: security cooperation, 
training, humanitarian and civil assistance, medical, engineering, 
exercises, and other national and international programs.
    Seize control and defend key facilities or terrain to preclude 
actions by potential adversaries.
    Conduct expeditionary operations to deter, destroy, or defeat 
potential adversaries.
    Conduct extended campaigns to deter or prevent potential 
adversaries from engaging in protracted conflict with joint or U.S. led 
coalitions of forces.
Preventing Acquisition of Weapons of Mass Destruction
    Conduct irregular or unconventional warfare in support of the Joint 
Force.
    Deny sanctuary and safe haven for terrorist groups.
    Assist the forces of other nations to conduct operations against 
adversaries seeking to possess or transfer control of weapons of mass 
destruction.
    While the problems we face will evolve, soldiers' ``boots on the 
ground'' will remain vital to our solutions.

    Source: Strategic Problems drawn from 2006 Quadrennial Defense 
Review, Office of the Secretary of Defense, February 2006.
                               Figure 11

    ----------------------------------------------------------------

     BALANCING RISK: THE TENSION BETWEEN CURRENT AND FUTURE DEMANDS

    To be able to execute the National Defense Strategy (which includes 
the military requirements of the National Military Strategy), the Army 
must maintain readiness to deal with current challenges, while 
developing the capabilities to be ready for future challenges. Now 5 
years after 9/11, the Army continues to fight the long war with high 
levels of force deployment.
    This sustained demand for Army forces continues to exceed the 
demand envisioned in the National Defense Strategy established during 
the 2006 Quadrennial Defense Review. This level of demand is placing 
enormous strain on the Army's all-volunteer force. Time between 
deployments for our active component has been steadily decreasing over 
the last 5 years, and is now approaching less than 1 year, on average.
    The Army is incapable of generating and sustaining the forces 
required to wage the global war on terror, to respond to emerging 
challenges, and to sustain the full range of U.S. global commitments 
without all of its components--active, National Guard, and Army 
Reserve--fully available to deploy together. At current levels of 
demand, without recurrent, assured, and predictable access to our 
reserve components, we will be unable to manage current and projected 
requirements for Army forces.
    The recent decisions by the President and the Secretary of 
Defense--to assure access to all components of the force--will fully 
enable our reserve components to perform their new role as an integral 
part of our operationally deployable force. In addition, these new 
policies will facilitate the deployment of our best led, and best 
equipped reserve units--as whole cohesive units. We are working rapidly 
to implement these changes and will require continued congressional 
support to do so.
    The decision to expand the size of the Nation's ground forces 
reflects clear recognition on the part of the President, the Congress, 
and the Secretary of Defense of the dangers we face, the importance of 
our mission, and the stress our soldiers, families, and Army civilians 
are enduring. This decision will enhance the depth and breadth of Army 
capabilities, yet will require several years and considerable resources 
to bring to fruition. Over time, this decision will alleviate strategic 
risk, as we assess it today.

    ----------------------------------------------------------------

                 Army Actions to Mitigate Risk in 2006
Operational Risk
    Completed transformation of 31 of 42 AC brigade combat teams (BCTs) 
to modular designs and initiated the conversion of an additional four 
AC BCTs and 16 ARNG BCTs (based on fiscal year 2005 baseline).
    Funded reset program to repair over 4,100 tracked and wheeled 
vehicles and over 540 helicopters.
    Continued Army Force Generation (ARFORGEN) implementation to 
generate a continuous level of forces--BCTs augmented by all enabling 
organizations--and to deploy additional, fully enabled BCTs, if 
required.
Future Challenges Risk
    Transitioned effort to develop future combat systems--which are on 
cost, on schedule, and meeting performance parameters--to system 
development and demonstration phase, moving us closer to fielding 
future combat systems.
    Manned and activated Army Evaluation Task Force to facilitate 
``spinning out'' advanced technologies and systems to the current 
force.
    Developed new Army Prepositioned Stock strategy to meet global 
requirements for agile, flexible forces.
    Established Army Asymmetric Warfare Office to work with the Joint 
Improvised Explosive Device Defeat Organization to better understand 
and defeat asymmetric threats.
Force Management Risk
    Implemented improvements to ARFORGEN to better manage our forces, 
and improve predictability for soldiers and families.
    Increased number of rebalancing actions to approximately 57,000--
reducing overstructure in certain areas, and increasing the 
availability of skills in greatest demand, such as Military Police, 
civil affairs, infantry, and others.
    Increased number of military-to-civilian conversions to 
approximately 7,170--moving soldier positions from our generating force 
to better structure and man our operating force.
    Established reserve component transient, trainee, holder and 
student (TTHS) account to improve readiness, deployability, training, 
and education opportunities.
Institutional Risk
    Maintained focus on business transformation which is helping us to 
improve efficiency and effectiveness, to decrease cycletime, to lower 
the cost of doing business and to increase quality, productivity, and 
morale.
    Implemented Lean Six Sigma methodology within all Army commands, 
direct reporting units, Army service components of joint commands, and 
across headquarters, Department of the Army.
    Developed facilities support strategy to meet the target dates 
established by base realignment and closure law, global defense posture 
realignment, and building the Army Modular Forces which requires the 
execution of approximately $38 billion in military construction and 
related projects between 2007 and 2013.
    Initiated consolidation of information technology services world-
wide and implemented a range of initiatives to assure the availability 
of information to ensure network security.
    Completed technology demonstration for General Fund Enterprise 
Business System to enable better financial management and 
decisionmaking.

    ----------------------------------------------------------------

    In recent years, we have received considerable support to improve 
our capabilities; yet we still have much to accomplish to establish the 
levels of readiness--across all components of the force--needed to 
maintain risk at acceptable levels in wartime.
    Since 9/11, we have used our resources carefully, making numerous 
decisions to allocate resources to immediate wartime needs, and to 
better prepare and protect our soldiers. We have drawn upon the entire 
Army to meet requirements for forces and equipment. We have cancelled 
countless investment programs and deferred both maintenance and 
required investment in our infrastructure. To free human and financial 
resources for our most compelling operational needs, we have undertaken 
major Army-wide business transformation initiatives. We have also 
received the support needed to accelerate our schedule for modular 
conversion that will enable two brigade combat teams to deploy much 
earlier than planned.
    The combined effects of continuing high levels of strategic demand 
for Army forces, at home and abroad, compounded by longstanding 
deficits in equipment, modernization, and infrastructure investment 
place current and future readiness at risk. In addition, our capacity 
to meet current force requirements, and to grow our forces, depends on 
adhering to an extremely complex, intricate schedule to realign our 
entire global infrastructure of bases, depots, arsenals, and other 
facilities. Our ability to remain on schedule is jeopardized by our 
inability to execute a diverse range of military construction projects 
and supporting activities (e.g., environmental assessment studies and 
remediation projects). Timely passage of military construction 
appropriations is required to stay on schedule and to prevent the 
effects of construction delays from cascading into many other areas of 
Army activity that will unintentionally put at risk our ability to 
accomplish our mission--to provide trained, ready forces to meet the 
Combatant Commanders' needs.
    The Army will require additional base and supplemental 
appropriations to achieve the levels of readiness needed to fulfill the 
requirements of the National Defense Strategy. Without sufficient 
resources, the Army cannot continue its current pace of operations and 
implement the changes required to prepare for the future--in the face 
of growing threats to the Nation posed by State and non-State extremist 
movements and organizations.
    To build readiness to sustain the current mission, to remain 
relevant and ready to meet future challenges, and to maintain risk at 
acceptable wartime levels the Army needs to:
  --Obtain Full, Timely, and Predictable Funding to Sustain the Army's 
        Global Commitments.--Full, timely, and predictable funding of 
        the Army's Fiscal Year 2008 President's Budget request and 
        supplemental appropriations is required to build readiness 
        needed to execute the National Defense Strategy and to pay for 
        the costs of war. Full funding is needed for the Army to 
        fulfill its global responsibilities in the face of traditional, 
        irregular, catastrophic, and disruptive challenges; to provide 
        adequately for soldiers, families, and Army civilians; to 
        accelerate key aspects of our transformation; and to maintain 
        the momentum of vital training programs, modernization, and 
        stationing initiatives..
  --Grow the All-Volunteer Force to Sustain the Long War.--Support and 
        full funding is needed to continue to achieve our goals for 
        attracting and retaining high quality people in each of our 
        active and reserve components. This funding is enabling the 
        expansion of our operational, deployable force pool, which is 
        vital to sustaining the effectiveness and health of the all-
        volunteer force, now being tested for the first time in a long 
        war.
  --Improve Wartime Authorities and Resources for Soldiers and 
        Commanders in Combat.--Changes are needed to eliminate 
        unintended constraints on programs such as the Commanders' 
        Emergency Response Program, the Logistics Civil Augmentation 
        Program, and in administering security cooperation and 
        assistance programs, as well as furnishing humanitarian 
        assistance. Sufficient funding for programs to enhance security 
        cooperation and provide assistance to friends and allies is 
        required to build partner capacity and institutions that prove 
        to be cooperative and enduring. In addition, continued 
        congressional leadership will be required to support programs 
        and initiatives to protect soldiers (to counter improvised 
        explosive devices, to provide up-armored vehicles, to field 
        individual body armor, etc.) and to better equip Iraqi and 
        Afghan police, security, and military forces.
  --Reset the Force to Ensure Readiness for Current and Future 
        Challenges.--Full funding is needed to restore units--a process 
        with both materiel and human dimensions--to required levels of 
        readiness to execute projected operational deployments, while 
        remaining prepared for likely future contingencies and homeland 
        defense missions. To be ready, we must not only ensure that 
        battle damaged items are repaired, recapitalized, or replaced; 
        we must also enable our soldiers and families to recover from 
        the stress of combat and prolonged separation. The requirement 
        to reset our units will not be satisfied with a one-time 
        infusion of funds; it will require a sustained, predictable 
        commitment of funds for several years beyond major deployments.
  --Transform the Force to Sustain the Full Range of our Global 
        Commitments.--Full funding for Army transformation is needed to 
        create an operational, deployable pool of 76 modular brigade 
        combat teams and approximately 225 support brigades. By 
        increasing the depth and breadth of our overall capacity, 
        through conversion to more capable modular formations, our 
        transformation is improving our ability to execute and support 
        protracted campaigns. Our ability to meet the levels of force 
        availability envisioned in the National Defense Strategy 
        depends upon an Army-wide readiness model to support 
        expeditionary deployment on a rotational basis. It is designed 
        to improve the readiness of our non-deployed forces across all 
        components; reduce stress on soldiers, families, and equipment; 
        improve predictability for employers; end the need to extend 
        deployments in theater to provide active component soldiers at 
        least 1 year at home before redeploying them; and manage the 
        force to achieve our goal of 1 year deployed with 2 years at 
        home station for these soldiers. This model depends upon 
        assured, predictable access to our reserve component units 
        who--because of strategic decisions and operational necessity--
        have become a vital part of our deployable force pool.
  --Modernize by Accelerating the Fielding of Advanced Technologies to 
        our Soldiers Today.--Full funding of the Army's modernization 
        program is needed to accelerate aspects of future combat 
        systems (FCS) development, aviation programs, and over 300 
        other key modernization initiatives. FCS is our first major 
        modernization program in several decades and is our most 
        critical investment program. In 2008, to enhance combat 
        effectiveness today, FCS will begin to ``spin out'' key 
        technologies to our current forces--a process projected to 
        continue in roughly 2-year intervals. FCS is enabling 
        soldiers--from our active and reserve components, all U.S. 
        ground forces, and our allies that support ground campaigns--to 
        understand battlefield conditions in unprecedented ways. These 
        improvements are better preparing them to deal with the full 
        spectrum of traditional irregular, catastrophic, and disruptive 
        challenges they will face for the foreseeable future. Despite 
        the benefits FCS will provide, as a result of the combined 
        effects of budget cuts over the past 3 years, and fiscal 
        guidance that will reduce resources programmed for future 
        years, we will adjust the scope and schedule for fielding FCS. 
        We will continue to develop the core operational capability 
        envisioned for FCS, yet will do so with 14 instead of 18 
        interconnected systems. These adjustments will result in 
        delaying development, acquisition, and delivery of this much 
        needed capability to our soldiers and the Nation.
  --Station the Force to Meet Emerging Strategic Demands While 
        Providing Infrastructure and Services to Enable Mission 
        Accomplishment.--Full funding is needed to achieve the 
        framework of a new global basing posture by 2011 and to enable 
        our installations to deliver a quality of life for our 
        soldiers, families, and civilians that matches the quality of 
        the service they provide to the Nation. Our plan will improve 
        our ability to fulfill national strategic requirements in an 
        uncertain environment. Due to extensive streamlining and 
        consolidation of facilities and activities, it will also 
        improve our overall efficiency. Moreover, the funding provided 
        to the Army will enable us to allocate significantly greater 
        levels of resources to improve the quality and effectiveness of 
        the facilities we depend on to: train, maintain equipment; 
        house and care for our soldiers, and provide safe, modern 
        working conditions for our Army civilians. The resources and 
        support provided to the Army will have a pivotal outcome on our 
        ability to execute our stationing plan, to meet the schedule 
        established by law, and to sustain our all-volunteer soldiers 
        and their families, now bearing the prolonged stress of more 
        than 5 years of war.
  --Transform Business Practices to Better Enable Army 
        Transformation.--Continued support is needed to execute Army 
        business transformation to achieve targeted efficiencies 
        through management reform; acquisition reform; comprehensive 
        redesign of the organizations and business processes that 
        generate, deploy, and reset forces; consolidation of bases and 
        activities; military to civilian conversion programs; 
        performance measurement enhancements, and more.
              preserving peace and freedom for the nation
    We remain resolute in our determination to preserve peace and 
freedom for America. Guided by the Army Vision, we are accomplishing 
our mission today while building the future force--of soldiers, 
leaders, Army civilians, operating and generating forces, and the 
infrastructure that serves as our foundation--to ensure our ability to 
do so tomorrow.
    We remain focused on tough questions that will remain at the center 
of the defense debate:
  --What are the strategic requirements of the 21st century? What 
        decisions must we make now to fulfill our title 10 obligation 
        to ensure that the Army, as a vital component of America's 
        Armed Forces, is best prepared to defend U.S. interests in the 
        face of traditional, irregular, catastrophic, and disruptive 
        challenges?
  --Are joint ground forces (Army, Marines, and Special Operations 
        Forces) properly sized and structured to provide the 
        capabilities needed to perform the missions the nations will 
        require?
  --What additional actions are required to ensure that our forces are 
        organized, manned, trained, and equipped to be relevant to, and 
        ready for, the challenges they will face?
  --How can we best prepare our leaders to become multi-skilled 
        pentathletes able to operate with confidence amidst complexity 
        and uncertainty?
  --What will be the impact of protracted conflict on the all-volunteer 
        force? What combination of quality of life, compensation, 
        incentives, service options, family programs, and other tools 
        will be required to recruit, retain, and sustain the concept of 
        the all-volunteer force for the future?
  --How do we ensure that our physical infrastructure (of 
        installations, depots, arsenals, and the network which connects 
        them) best supports our mission?
  --How do we balance our resources to: provide quality of life to 
        sustain our volunteers; maintain deployment facilities (air, 
        ground, sea, rail, cargo, and other facilities) to support 
        Combatant Commanders' timelines; and establish a training and 
        education base to prepare our soldiers, leaders, and Army 
        civilians for the challenge they will face?
  --How can we best leverage the human and financial resources we have 
        been provided to ensure that we remain the world's preeminent 
        landpower?
  --How can we accelerate the momentum we have established in recent 
        years, in all of these areas, to properly position our force 
        for the future?
    Our continued effectiveness depends upon a national commitment to 
properly recruit, train, equip, and support the Army. We have received 
considerable support to execute current operations and to reset our 
forces. To provide for future readiness and to break our historic cycle 
of national unpreparedness, the Nation must invest prudently and 
predictably in defense, which it can afford to do.
addendum a.--provide relevant and ready landpower for the 21st century 

                          SECURITY ENVIRONMENT

    We are improving our capabilities to prevail in the war on terror 
and sustain all of our global commitments. While fighting, we are:
  --Accelerating our efforts to transform and to modernize.
    --Transforming to create an active and reserve component pool of 76 
            modular brigade combat teams and approximately 225 support 
            brigades.
    --Modernizing--for the time in decades--to develop future combat 
            systems, new aviation systems, and over 300 advanced 
            technologies and systems.
  --Building a modular force in which brigades--not divisions--can 
        ``plug into'' joint and coalition task forces in expeditionary 
        and campaign settings.
  --Improving readiness to deal with traditional, irregular, 
        catastrophic, and disruptive challenges.
  --Building depth (more) and breadth (more kinds) of capability to 
        ensure soldiers and units can adapt to these challenges.
    --Growing the Army and accelerating our schedule to field more 
            brigades, to increase our strategic depth and to relieve 
            stress on soldiers and equipment.
    --Developing more kinds of capability by making our brigades more 
            powerful, versatile, deployable, and relevant to new 
            challenges.
    --Transforming our supporting organizations to better support 
            combat and logistics operations.
  --Creating improvements in: Sustaining the force, actionable 
        intelligence, stability operations, homeland defense, operating 
        in complex environments, and more.
  --Ensuring that every investment in our current force benefits our 
        future force.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Soldiers helped to overthrow two terrorist regimes, rescue two 
nations from oppression, enable vital elections, train and equip Iraqi 
and Afghan security forces, and liberate over 50 million people.
    More than 360,000 Army National Guard (ARNG); 167,000 United States 
Army Reserve (USAR); and 498,000 Active Component (AC) soldiers 
supported Combatant Commanders in Iraq, Afghanistan, Guantanamo Bay, 
the Balkans, the Sinai, and elsewhere.
    More than 150,000 ARNG, USAR, and AC soldiers helped to secure the 
homeland by providing security augmentation for key assets, airports, 
special events, and Air Force bases.
    Began 51 of 70 planned Brigade Combat Team (BCT) modular 
conversions; 31 of these 51 conversions completed. Completed 131 of the 
over 200 planned multi-functional and functional support brigade 
conversions.
    Significantly increased depot output to refurbish and reset 
vehicles and equipment for future deployments.
    More than 52,800 soldiers from all components, supported by a 
diverse range of Army civilians and Army aviation, transportation, 
military police, medical, and other units, provided hurricane relief 
support (including support for Katrina and Rita).
    Soldiers also deployed to South Asia and Southwest Asia to provide 
tsunami and earthquake relief.
    Initiated $2.2 billion contract to procure 368 Armed Reconnaissance 
Helicopters--the Army's new manned helicopter acquisition since 1983.
2006
    Completed conversion of 13 AC BCTs; initiated conversion of an 
additional 13 BCTs (4 AC,9 ARNG). Completed conversion of 19 multi-
functional and functional support brigades (4 AC, 12 ARNG, 3 USAR).
    Created an intelligence, surveillance, reconnaissance (ISR) 
integration and synchronization office to improve quick reaction 
capabilities and optimize ISR support to current global war on terror 
(GWOT) operations.
    Integrated space technology to guide munitions, track forces, 
protect against fratricide, and stream real-time battlefield video.
    Continued the transformation of Army pre-positioned stocks (APS) of 
equipment, ammunition, and general support items worldwide to support 
operational deployments.
    Developed and fielded an unprecedented capability to identify 
individuals through an automated biometric identification system.
    Developed and fielded the operational headquarters to perform 
weapons of mass destruction elimination missions at the Joint Task 
Force level.
    Fielded unprecedented intelligence fusion and analysis capability 
to 11 brigades and 73 battalions deployed in support of GWOT.

    ----------------------------------------------------------------

Support Current Global Operations with Relevant and Ready Landpower
    The Army is transforming and modernizing to build a more capable 
and relevant force for the 21st century, while fully engaged in the war 
on terror and sustaining the range of our global commitments. The 
combined effects of our transformation and modernization are improving 
our readiness to deal with traditional, irregular, catastrophic, and 
disruptive challenges, as a vital member of the Joint Force.
    Modular conversion is the main effort of our transformation. To 
sustain a steadily increasing demand for military forces, we are 
building a modular force centered on brigade combat teams as the basic 
building block of our fighting capability. Our modular conversion of 
active and reserve components is designed to create brigade based 
modules able to ``plug into'' joint and coalition task forces in 
expeditionary and campaign settings. These forces will be better 
organized to accept advanced new capabilities and technology in order 
to meet the demands of the current war, sustain other global 
commitments, establish the organizational structure needed to 
accelerate modernization, and support a new global basing posture that 
will rely more heavily on rotational presence.
    Our plan is creating a rotational pool of 76 BCTs: 48 in the active 
component and 28 in the Army National Guard. These BCTs are organized 
into one of three standard designs: Infantry, heavy, or stryker. We 
will support these BCTs with approximately 225 support brigades. Our 
BCTs require the capabilities of our support brigades to accomplish the 
missions they are assigned. Our support brigades also provide essential 
capabilities to other Services, as well as to civil authorities in 
homeland defense missions, which include consequence management and 
disaster relief.
    Our support brigades are organized into two categories: Multi-
functional support brigades and functional support brigades. Multi-
functional brigades perform operational roles including: Combat 
aviation, combat support (maneuver enhancement), sustainment, fires, 
and battlefield surveillance. Functional brigades perform broad support 
roles on a theater-wide basis including: Air defense, engineer, 
chemical, military police, signal, medical, logistics, and 
intelligence.
    Like our theater commands, our corps and division-level operational 
command posts and headquarters, support brigades are also converting to 
modular designs. They will be trained, manned, and equipped to work 
directly for each of these headquarters without augmentation of people 
or equipment.
    We are improving the readiness of our reserve forces that are 
making vital contributions on a daily basis--and have transitioned them 
from a strategic reserve to an operational force as our global 
commitments have increased. We are also working to improve access to 
these forces in order to support our strategic requirements. Strength 
reporting, educational opportunities and special skills training 
opportunities have been improved by reducing overstructure. These 
improvements, coupled with modular conversion, are enhancing the Army's 
overall ability to provide ready forces and capabilities to the 
Combatant Commanders and to civil authorities in a timely manner.
    In addition, to make best use of our resources, we are both 
rebalancing and redistributing our forces. We are rebalancing to create 
the right mix of high demand units and to assign soldiers with critical 
and high demand skills in each of our active and reserve components. At 
the same time, we are redistributing soldiers to create the right mix 
between our operating force and our generating force.
  --To assure timely access to the right types of units and soldiers, 
        we are rebalancing skills within our three components. We have 
        determined the types of units and skills that are in greatest 
        demand in today's environment--including infantry, engineer, 
        military police, military intelligence, logistics, Special 
        Forces, chemical, civil affairs, and psychological operations 
        units--and have identified approximately 116,000 positions to 
        rebalance. We have accomplished more than half of this 
        rebalancing and project to be completed by 2013.
  --We are redistributing skills from our generating force to increase 
        the size of the active component of our operating force. We are 
        continuing military-to-civilian conversions (that have already 
        returned approximately 7,200 soldiers to our operating force) 
        and improving management of our individual soldier assignment 
        processes to ensure full manning of our operational units and 
        command posts.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The combined effect of rebalancing, redistributing, and increasing 
our operating force is improving our overall effectiveness. We are 
improving our ability to provide trained soldiers in cohesive 
formations to the Combatant Commanders and to support civil 
authorities, while reducing stress on soldiers and families.
    To support global operations while transforming, we are preparing 
our forces for war--or resetting them--as quickly and efficiently as we 
can. Our reset program links other Army programs together through 
replacement, repair, and recapitalization. This program is restoring 
units returning from war to required levels of readiness to prepare 
them for future missions. As we reset our units, we are simultaneously 
converting many of them to their new modular designs. Several of these 
units have already returned to theaters of war in their new 
configurations.
    The Army's readiness model, Army Force Generation (ARFORGEN), is 
used to manage the force and ensure the ability to support demands for 
Army forces. ARFORGEN sequences activities for all active and reserve 
Army units to include:
  --Reset;
  --modular conversion;
  --modernization;
  --manning adjustments;
  --soldier and leader training and education programs;
  --unit training;
  --employment; and
  --stationing decisions.
    To sustain global commitments, we will transition units through a 
progression of three sequential readiness pools: Reset and train 
(recovering from deployments, resetting equipment and other 
activities), ready (eligible for deployment and exercises), and 
available (immediately available for world-wide employment).
    ARFORGEN establishes a basis to schedule deployments on an Army-
wide scale. Our planning objective is to be able to generate a 
continuous output of trained and ready forces that will be ready to 
support one operational deployment and 2 years at home station for the 
active component. The planning objective for involuntary mobilization 
of the Army National Guard and Army Reserve units is 1 year mobilized 
and 5 years demobilized. This goal will be achievable only after 
completion of all projected modular conversions.
    Current levels of operational demand--to include the Balkans, the 
Sinai, and other global commitments in addition to Iraq and 
Afghanistan--exceed the levels which had been projected. To meet 
sustained global demand for Army forces, we require timely 
implementation of policies intended to ensure recurrent, assured, and 
predictable access to our Army National Guard and our Army Reserve 
units. Without full access to our reserve component units, our active 
component units will continue to deploy for a year, return home for a 
year, and then redeploy--a situation which is creating unsustainable 
levels of stress on the force.
    When fully operational, ARFORGEN will enable the development of a 
schedule to bring units to full readiness--with people, equipment, and 
training--before they are scheduled to deploy. It is also designed to 
enable the following critical objectives:
  --Reduce uncertainty for soldiers, families, and the communities that 
        support installations;
  --improve availability of forces for Combatant Commanders;
  --generate a continuous level of BCTs, augmented by all required 
        supporting organizations (given appropriate mobilization 
        authority); and
  --surge additional BCTs, augmented by all required supporting 
        organizations (given appropriate mobilization authority).
Build A Campaign-Quality Modular Force with Joint and Expeditionary 
        Capabilities for Today and Tomorrow
    The war on terror and the changing paradigm for maintaining forward 
presence have created both the necessity and the opportunity to 
accelerate change from the current to the future force. Our conversion 
to a modular force--one that is carefully balanced between active and 
reserve component BCTs, support brigades, and division and corps-level 
operational command posts--is well under way. This conversion is 
transforming the Army into a more lethal, flexible, deployable, and 
sustainable force. It is enabling us to shift the center of gravity of 
our capabilities (previously focused primarily on traditional 
challenges) to better address the full spectrum of traditional, 
irregular, disruptive, and catastrophic challenges.
    The 21st century necessitates a highly versatile Army that can 
handle a diverse array of operations and missions. The combination of 
transformation, to build a modular Army, and continuous modernization, 
to field future combat systems (FCS) new aviation systems, and other 
advanced technologies and systems, is methodically producing the future 
force.
    FCS is a system of interconnected weapons, communications, and 
intelligence systems (which include sensors, manned and unmanned ground 
and aerial vehicles, as well as improved linkages to national and 
theater level surveillance and imagery systems) that will be 
immediately responsive to soldiers and commanders. When fielded, FCS 
will provide a persistent, ubiquitous intelligence, surveillance, and 
reconnaissance capability. In addition, it will create an integrated, 
distributed network to leverage the value of intelligence and 
facilitate the rapid employment of all weapons system available.
    FCS is the Army's first major step toward modernization in several 
decades and is our most critical investment. FCS, and Army 
modernization as a whole, is incorporating lessons learned from current 
operations, at home and abroad.
    The capabilities provided by FCS will directly benefit all U.S. 
ground forces, including the Marine Corps and the Special Operations 
Forces from all Services. These capabilities will fundamentally alter 
how we deploy, employ, and sustain our ground forces. They will greatly 
improve our ability to put ``boots on the ground,'' to stabilize 
contested zones, and to support joint, an interagency and multinational 
teams.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FCS capabilities are providing soldiers with significant tactical 
and operational advantages which are dramatically improving our ability 
to address the dilemma of irregular warfare and to conduct operations 
to prevent and to counter insurgencies.
    FCS provides enhanced awareness of friendly and enemy situations 
and improves the ability to operate across larger areas with fewer 
soldiers. FCS enables the ability to defeat weaponry which includes 
improvised explosive devices, anti-tank weapons, and small arms. 
Because of improved understanding of battlefield conditions and better 
protection, soldiers will be able to operate from extended distances, 
remote locations, and the protection of their vehicles for longer 
periods which will result in fewer casualties. They will also benefit 
from greater precision and responsiveness of their weapons, which will 
improve their ability to operate in urban terrain and other complex 
environments.
    By ``spinning-out'' FCS and advanced technologies into our 
formations--as soon as the capabilities are ready--we are strengthening 
our current forces and working to stay ahead of enemies who are 
constantly adapting their tactics and methods. Through ``spin outs,'' 
we are working to improve both our current and future capabilities.
  --The first ``spin out,'' on track for delivery in 2008, will 
        introduce unattended ground sensors, non-line-of-sight launch 
        systems, and the network. These capabilities will enhance 
        soldiers' understanding of their situation in dynamic, 
        battlefield conditions by promoting a common perspective of 
        enemy and friendly locations on digital maps. This improvement 
        will greatly increase the area that soldiers can influence and 
        control. The network will also provide soldiers with more 
        timely actionable intelligence.
  --The second and third ``spin outs,'' are on track for 2010 and 2012 
        respectively. These ``spin outs'' will introduce new unmanned 
        ground and air systems and to better support our soldiers. 
        These technologies will enable soldiers to employ greater 
        numbers of sensors to see and find their enemies first. These 
        ``spin outs'' will also enable robotic reconnaissance of 
        dangerous areas, mines, and booby traps. Together, they will 
        increase soldier protection, effectiveness, and enhance the 
        precision of their weapons.
  --The 2012 ``spin out'' includes the technologies required to 
        complete the fielding of the network. This improvement will 
        reinforce the comprehensive efforts now under way to improve 
        the accuracy and responsiveness of the joint weapons systems 
        designed to support soldiers, while providing unparalleled 
        connectivity and situational awareness.
    When BCTs are fielded with the full complement of FCS systems, 
these units will contain more fighting vehicles and more infantry 
squads than the units we field today. By leveraging technologies, and 
the power of the network, the number of soldiers in an FCS BCT will be 
significantly fewer than current formations, decreasing in size from 
about 3,850 today to 3,200 in the future. These BCTs will have double 
the amount of critical infantry soldiers, enabling these formations to 
operate far more effectively in irregular environments. Soldiers and 
commanders will enjoy far greater ability to see and to act first--
ahead of their adversaries--while dealing with the full spectrum of 
challenges they will face.
    FCS will produce numerous advantages in tactical and operational 
capability. It will:
  --Enable more efficient use of fuel and supplies, and reduce other 
        logistical requirements;
  --reduce costs associated with both manpower and procurement; and
  --improve the ability of modular brigades to operate as self-
        sufficient, independent formations over increasingly larger 
        areas in far more complex environments.
    Eventually, as key technologies are fielded across the force, 
battalions will be capable of similar levels of self-sufficiency--
dramatically increasing the capability and effectiveness of U.S. ground 
and special operations forces at lower levels than today.
    Despite the benefits FCS will provide, budget cuts and overall 
reductions to the scope of this initiative will delay the development 
and delivery of this much needed capability to our soldiers and the 
Nation.
    The future force comprises more than just FCS-enabled, modular 
BCTs. It includes all of the improvements in strategic agility found in 
the formations above the BCT and efficiencies that will result from 
implementing base realignment and closure and global defense posture 
realignment decisions. These decisions will enable the repositioning of 
forces to better respond to emerging strategic challenges. We will also 
be able to execute much of our enduring overseas presence mission with 
units that deploy from the United States for overseas duty, during 
rotational windows scheduled and managed as part of the ARFORGEN model.
    For both rotational duties and for contingencies, our units will 
rely on strategic mobility provided by airlift, sealift, and 
prepositioned equipment. To increase both strategic agility and 
efficiency, we began modernizing our prepositioned equipment sets to 
the extent that resources allowed. However, current operational demands 
require us to use prepositioned stocks to provide forces today.
    We lack sufficient funding to realign our prepositioned equipment 
sets to support the global footprint we need to achieve. Future agility 
and responsiveness will depend on establishing the right balance among 
forward stationed forces, prepositioned equipment, and strategic 
mobility. In addition, our need to rapidly move forces and equipment 
from home station and between theaters of operation will become an 
increasingly important determinant of our ability to execute the 
National Defense Strategy.
    Another key aspect of our plan for our future force is 
standardization. We are reducing the number of variants of our heavy 
combat vehicle fleet. This initiative will promote standardization, 
decrease the number of systems that we must train active and reserve 
soldiers to operate, and reduce maintenance costs.
    Our commitment to being a learning, adaptive organization is 
evident in our efforts to apply lessons learned from our operations 
both at home and abroad.
    We are working to develop a future force that is better able to 
fight as part of joint and coalition formations--in either protracted 
campaigns or in expeditionary operations and to serve the Nation--by 
examining how to best accomplish traditional and nontraditional 
missions such as:
  --Sustaining the force is paramount to the Army's success in 
        defeating our adversaries. It enables modular Army logistics 
        units to better anticipate requirements and provide rapid, 
        precise capability to Army, joint, and multinational partners. 
        We are creating 360 degree visibility of all the assets and 
        resources, both deployed and in-transit, and improving theater 
        wide distribution systems needed to support military 
        operations.
  --Actionable intelligence is providing soldiers and leaders with 
        expanded situational understanding by distributing intelligence 
        with more speed and accuracy, ultimately leading to successful 
        operations.
  --Improve capabilities for stability operations is developing and 
        improving our capability and capacity to conduct stability, 
        security, transition, and reconstruction operations within 
        joint and coalition operations and to support other U.S. 
        Government agencies while continuing to conduct combat 
        operations.
  --Improve contributions to homeland defense is focusing on balancing 
        capabilities in the active and reserve components to ensure the 
        right capabilities are available to address expanded homeland 
        defense requirements and broaden the options available to civil 
        authorities.
  --Increase Army capabilities to dominate in complex environments is 
        focusing on improving the Army's ability to operate in complex 
        human, informational, and physical environments by increasing 
        soldiers' and organizations' cultural awareness, regional 
        familiarity, and language skills.
    The combination of transformation and modernization, reinforced by 
our commitment to learn and adapt to traditional and nontraditional 
missions of this type, and continued improvements in training soldiers, 
developing leaders, and improving facilities is producing relevant and 
ready landpower for the 21st century.
    The following initiatives (found at Addendum G) reinforce our 
efforts to provide relevant and ready landpower:
  --Develop operational capabilities in LandWarNet.
  --Execute major acquisition programs.
  --Restructure Army aviation.
  --Enhance joint interdependence.
  --Stabilize soldiers and units to enhance cohesion and 
        predictability.
  --Leverage science and technology.

    ----------------------------------------------------------------

                            Compelling Needs

    Full, timely, and predictable funding of the Army's fiscal year 
2008 President's Budget request and supplemental appropriations are 
required to build readiness needed to execute the National Defense 
Strategy and to pay for the costs of war.
    Resource the Army's requirements for resetting the force. Full 
funding is needed to restore units--a process with both materiel and 
human dimensions--to required levels of readiness to execute projected 
operational deployments, while remaining prepared for likely future 
contingencies and homeland defense missions.
    Support the Army's efforts to grow our operational forces, and 
restructure our operating and generating forces in our active and 
reserve components, to meet global commitments now and in the future.
    Fully fund continuous modernization of the current force through 
future combat systems and key supporting programs including: increasing 
soldier protection, sustaining development of advanced technologies, 
transforming LandWarNet, transitioning Joint Network Node to Warrior 
Information Network--Tactical (WIN-T), and rebalancing active and 
reserve component units and skills.
    Accelerate momentum established in transforming the force through 
modular conversions scheduled in fiscal years 2007 and 2008, and 
support plans to grow our operating force, to meet current and future 
requirements:
  --Continue or complete conversion of 17 brigade combat teams (1 AC, 
        16 ARNG).
  --Continue or complete conversion of 27 multi-functional or 
        functional support brigades (12 AC, 8 ARNG, 7 USAR).
  --Begin conversion of 16 brigade combat teams (4 AC, 12 ARNG) and 2 
        ARNG Headquarters.

    ----------------------------------------------------------------

  addendum b.--train and equip soldiers to serve as warriors and grow 
                            adaptive leaders
    We are better preparing our soldiers for the rigors of war and 
developing our leaders to serve as multi-skilled pentathletes able to 
thrive amidst complexity and uncertainty. Recognizing that intellectual 
change precedes physical change, we are:
  --Producing soldiers armed with the mindset, values, and combat 
        skills to serve as competent, resilient warriors.
  --Reinforcing a commitment to our Warrior Ethos among all of our 
        soldiers and Army civilians.
  --Enhancing education and training programs throughout the Army: at 
        home stations, at our combat training centers, within our 
        schools, by leveraging distance learning methods--and by 
        increasing opportunities for graduate level education.
  --Growing innovative, adaptive leaders through training and education 
        programs that quickly apply lessons learned during combat, 
        stability operations, reconstruction, and in providing support 
        to civil authorities.
  --Enhancing our capabilities by providing the best possible training, 
        weapons, sensors, protection, and equipment to our soldiers.
  --Expanding our emphasis on language training and enhancing cultural 
        awareness in our military education programs.
  --Improving our soldiers' abilities to operate in complex 
        environments overseas and with other governments and militaries 
        to strengthen the capacity of partner nations.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Continued to adapt combat training centers to replicate current 
cultural and language environments, emphasizing urban operations, live-
fire convoy training, defeating improvised explosive devices, and 
working with joint and allied forces.
    Continued to enhance soldier protection by fielding flame resistant 
uniforms and improving individual body armor. Today, every soldier 
serving in Iraq and Afghanistan is issued improved body armor.
    Continued to meet Combatant Commanders' requirements for tactical 
vehicle armor, delivering over 14,000 up-armored HMMWVs to key theaters 
of operation.
    Equipped over 800,000 soldiers with mission enhancing equipment 
through the rapid fielding initiative.
2006
    Distributed and pre-positioned over 7,000 items of equipment to 
better posture the Army National Guard to respond to hurricanes and 
other missions.
    Applied combat lessons to continue improvements in training on 
essential warrior tasks and drills provided for all soldiers, in all 
specialties, during initial military training.
    Improved quantity and quality of language training. Soldiers and 
Army civilians can now study 30 languages available via the internet 
including Arabic, Chinese, and Tagalog. To date, more than 66,000 
personnel have completed over 85,000 units of instruction.
    Reduced combat vehicle fatalities by 71 percent from the previous 
year by using a composite risk management process in all plans and 
operations.
    Conducted over 1,700 different resident, non-resident, and distance 
learning training courses in fiscal year 2006 for soldiers and 
civilians across all Army components, other services, and many partner 
nations.
    Expanded our institutional training instruction--from training 
provided to soldiers entering the Army to the education provided to our 
most senior officers--to increase development opportunities for 
soldiers, military and civilian leaders, and students from partner 
nations.
    Added cultural awareness training to all professional military 
education courses, providing training for over 260,000 soldiers and 
leaders.
    Deployed a new joint precision airdrop system to reduce numbers of 
cargo trucks on the road and limit soldier exposure to enemy fire.

    ----------------------------------------------------------------

Reinforce Our Centerpiece: Soldiers as Warriors
    Soldiers are the Army. This idea is foremost in our thinking. It is 
the soldier--well trained, equipped, and led--who serves as the 
ultimate expression of the capabilities the Army provides to the Joint 
Force and the Nation. For this reason, soldiers are the centerpiece of 
our formations. Their ``boots on the ground'' provide capabilities that 
no technology could ever replace.
    Our soldiers operate in the human dimension--interacting with the 
populace, facing their enemies in close combat, while preserving the 
lives of innocent civilians around them. We reinforce these warriors by 
preparing them with the mindset, training, and equipment they need to 
accomplish their mission in an increasingly uncertain, unpredictable 
security environment.
    The warrior ethos, a set of principles we live by, is imbued and 
reinforced through adherence to Army values, and exemplary standards of 
conduct and discipline. Our warrior ethos serves as the bedrock to 
prepare soldiers and leaders to face danger and uncertainty, think 
critically, and solve the complex problems they face on today's 
battlefield. These values are reflected in three sets of guideposts for 
key groups within our Army: the soldier's creed, the Noncommissioned 
Officer's creed, and the civilian corps creed. To reinforce our 
commitment to values, we work aggressively, in our units and across the 
training base, to build pride in the Army's traditions and our record 
of service to the Nation.
    Our soldiers believe in their mission. They are making enormous 
sacrifices so that others may live in peace and freedom. Their 
continued honorable, selfless service against ruthless, adaptive 
enemies is a testament to our values-based Army. Our Nation must remain 
equally committed to them by providing the capabilities and support 
they need to succeed in their mission.
Train Soldiers
    To accomplish our mission, we are preparing our soldiers from all 
components to conduct the full spectrum of operations as part of joint, 
interagency, and coalition teams. This spectrum ranges from engaging 
with friends, allies, and partners to strengthen their capacity to 
conducting major combat operations.
    We are transforming how we train and educate our soldiers to better 
prepare them to deal with the challenges they will face today and 
tomorrow. We take a ``lifelong approach'' to enhancing knowledge and 
skills. We begin upon entry into service and furnish opportunities for 
professional growth and learning throughout their careers.
    To better prepare soldiers for combat, we have enhanced the rigor 
and relevance of training for newly enlisted soldiers and recently 
commissioned officers. Today, every soldier and officer, regardless of 
specialty, becomes a warrior first. A grouping of carefully selected 
warrior tasks and battle drills, developed from lessons learned on the 
battlefield, builds proficiency and confidence to function in today's 
operational environment. We conduct a biannual review of these tasks 
and drills to ensure continued relevance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through a program we call Operation Warrior Trainer, we are using 
the recent combat experiences of junior leaders from the Army National 
Guard and the Army Reserve to better prepare leaders for the challenges 
they will encounter. This program relies upon officers and 
noncommissioned officers who volunteer to serve in our training support 
brigades. They teach, coach, and mentor their fellow soldiers in the 
tactics, techniques, and procedures that were successful during their 
recent combat tours.
    We are increasing our investment in our soldiers to develop foreign 
language capability and to increase their appreciation, understanding, 
and respect for other cultures. These two areas establish the 
foundation for improving our soldiers' abilities to operate in complex 
environments overseas and to work closely with other governments and 
militaries to strengthen the capacity of partner nations.
    Our operations in recent years have underscored the important role 
that language proficiency plays in the execution of successful 
operations. It accelerates the process of building rapport with the 
local populace, partner nations, and other organizations. In addition 
to language training in our schoolhouses, we also provide training on 
30 languages to all soldiers and Army civilians through modern distance 
learning methods. Language proficiency, coupled with focused 
instruction, is helping to improve cultural awareness and enhance 
leader development. In addition, we are expanding opportunities for 
graduate level studies in all aspects of foreign cultures, which has 
the additional benefit of helping to retain our junior officers.
    In addition to these enhancements in training soldiers and leaders, 
we are improving how we develop the readiness of our units. Our 
combined arms training strategy is designed to provide trained and 
ready forces to meet the Combatant Commanders' operational 
requirements. This strategy features specific activities throughout 
what we refer to as multiple training domains: institutional, unit, and 
self-development. The cycles of Army Force Generation (ARFORGEN)--reset 
and train, ready, and available--allow commanders to optimize available 
training time in each of these domains, in a progressive manner, from 
individual training and education to more complex tasks in which whole 
units are involved. We carefully manage the flow of equipment 
throughout the cycles of ARFORGEN to ensure units have the tools they 
need to conduct demanding, realistic unit training. Applying the latest 
technology to use simulated training experiences and other tools is 
helping us to remain ahead of our adversaries and to quickly adapt our 
doctrine and training methods to prepare for a complex, dynamic 
environment.
    We are also expanding our distributed learning program to enhance 
opportunities to develop our soldiers and Army civilians. On an average 
day over 22,000 soldiers participate in one or more of the over 2,600 
available online courses, including foreign language and cultural 
awareness training, to improve job proficiency and to work toward 
civilian degrees. Army knowledge online, the largest and most mature of 
all Department of Defense (DOD) portals, is the model for development 
of defense knowledge online (DKO). Defense knowledge online will be 
established as the DOD portal for personnel from all services, and will 
be the interface for providing DOD users with the services needed to 
accomplish their mission.
Enhance the Combat Training Centers
    To better prepare our forces for the rigors of an increasingly 
uncertain, complex, and dangerous environment, we are continuing to 
enhance our combat training center program. We maintain three combat 
training centers (CTC) which support large scale training operations. A 
fourth center supports the execution of the battle command training 
program, which facilitates training through advanced simulation based 
exercises. We are adapting the settings, conditions, and scenarios used 
at all of our centers based on operational experience. To better 
prepare our soldiers, leaders, and units, our goal is to accurately 
reproduce the complex environments--terrain, culture, language, and 
information--in which they will operate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the CTCs, our brigade combat teams and other units conduct pre-
deployment training on their core mission skills. As units practice 
their missions at the CTCs, they will encounter nongovernmental 
organizations, media, coalition forces, hundreds of civilians, 
interagency organizations and often, special operations forces. This 
training is crucial to developing readiness for combat. It enables our 
units to hone their skills and to develop into effective, cohesive 
teams before they deploy to our theaters of operation.
    As we transform to a larger, more capable operational force, we 
require additional training capacity. In addition, our training centers 
are exceeding their capacity because of sustained high levels of 
strategic demand for Army forces. To meet the increasing need for 
world-class training to certify our units before they deploy, we are 
developing an exportable training capability. This capability is 
providing an experience that is close to what is provided at our actual 
centers at units' home stations. This initiative provides greater 
flexibility to meet the schedules established by the Combatant 
Commanders. It can also serve to reduce the time that our soldiers are 
away from their home stations.
    Our battle command training program provides realistic, stressful 
training, and leader development for corps, division, and brigade 
commanders and their staffs. We use the latest simulation technology 
and developments in operational scenarios to create the challenging, 
dynamic conditions these headquarters will encounter when deployed. 
This program prepares them to serve as joint and coalition task force 
operational headquarters in combat.
    The rigor and relevance of our CTC program is enhancing our 
capabilities across the full spectrum of operations. By improving pre-
deployment preparation, it is also reducing risk to our soldiers.
Grow Adaptive Leaders
    Today's security environment requires more of Army leaders at all 
levels. The evolving transition team mission that our officers and 
noncommissioned officers are performing--to train foreign nation's 
security forces--is but one example of the challenges our leaders are 
dealing with. As we have seen in Iraq, Afghanistan, Korea, Europe, 
across the Americas, in peace enforcement operations around the world, 
and while providing civil support, the actions of individual soldiers 
and leaders are vital to success and can have strategic consequences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To better prepare our leaders to develop creative solutions to the 
complex, ambiguous problems they will face, we formed a special task 
force to review education, training and assignments for leaders. We 
drew upon the ideas and experiences of the finest leaders inside and 
outside of the Army.
    The results of this task force's work are now being incorporated 
into Army leaders for the 21st century (AL21)--a comprehensive 
initiative designed to build leaders akin to pentathletes, skilled in 
many disciplines and able to rapidly transition between complex tasks 
with relative ease.
    We are evolving our training and education programs for our 
officers, noncommissioned officers, and civilians to grow military and 
civilian pentathletes. We are teaching our leaders critical thinking 
skills--emphasizing how to think, not what to think. Our focus is to 
develop highly adaptive leaders who have the intellectual agility 
needed to thrive in adverse, dynamic situations.
    For our newly commissioned officers we implemented the Basic 
Officer Leader Course (BOLC). Consistent with our warrior first 
approach, this tough, standardized, small-unit leadership experience 
ensures that all junior officers, in all of our branches, master the 
skills they will need to lead in combat. Our warrant officer and 
noncommissioned officer programs are experiencing similar improvements 
in the rigor and relevance of training and education.
    Guided by AL21, we are also overhauling our civilian education 
system. We are creating a progressive, sequential program to enhance 
leader development and provide structured education opportunities for 
our Army civilians throughout their careers. Our goal, is to create 
Army civilians who, as pentathletes, exemplify the civilian corps creed 
in dealing with the full range of challenges they will face in 
providing our soldiers with the resources, quality of life, 
infrastructure, and other support they will need to accomplish the 
Army's mission.
Equip Our Soldiers
    Providing our soldiers with the best possible equipment is our 
highest priority. The changed conditions of warfare necessitate that we 
can no longer accept risk in how we equip all of our soldiers. Since 
there are no front lines in today's battlefields, we must now equip all 
of our units with night vision goggles, crew served weapons, 
communications equipment, and other critical items they need to 
survive. We must also provide them with every means available to 
protect them and to minimize the risks to which they are exposed.
    One of the many programs we have designed to increase individual 
soldier capabilities is the rapid fielding initiative.
    This initiative accelerates the fielding of commercial, off-the-
shelf technologies to quickly deliver state-of-the-art equipment to our 
soldiers to enhance their performance. The rapid fielding initiative 
provides a specific set of equipment to every one of our deploying 
soldiers. We provide additional items of equipment to our soldiers 
assigned to brigade combat teams. Since its inception, this initiative 
has equipped nearly 800,000 soldiers.
    Recent experiences in operational theaters help us to determine the 
items we furnish to our soldiers. Key examples of rapid fielding 
initiative successes include: the advanced combat helmet, which 
enhances protection, comfort, and permits better hearing; and the 
improved first aid kit, which improves the ability to treat bleeding 
from wounds and remove airway obstructions. We plan to complete 
fielding these items to all operational forces by October 2007.
    Another key program, in which we restore battle losses and repair 
worn equipment, is our reset program. During ``reset,'' we restore 
soldier and unit capability by repairing or replacing key items of 
their equipment, or issuing whole new types of equipment to them. We 
also provide training on new equipment that our soldiers are issued.
    Like other aspects of support for an Army at war, our soldiers' 
effectiveness and protection depends upon a sustained national 
commitment to train and equip them properly. Since 2003, we have issued 
over 900,000 sets of improved body armor. We have delivered more than 
14,000 up-armored HMMWVs to our theaters of operation. In addition, we 
have deployed manned and unmanned systems to detect and to defeat 
improvised explosive devices (IEDs). We have also fielded new systems 
such as the armored security vehicle and the Buffalo Armored 
Reconnaissance Vehicle to better protect our convoy formations.
    The IED is the deadliest terrorist method being used against our 
soldiers. We are investing unprecedented resources to counter this 
threat. The Army Asymmetric Warfare Office is our focal point to 
integrate a diverse range of asymmetric warfare initiatives. These 
initiatives include countering IEDs and to provide specific training. 
This office also serves as our link to Defense Department initiatives 
in this area.
    Our rapid equipping force is another means we are using to better 
protect our soldiers. This force works in partnership with industry, 
academic, and military leaders to quickly support unit equipping needs. 
It furnishes commanders with readily employable solutions to enhance 
lethality and survivability, using both off-the-shelf and new 
technologies. The rapid equipping force is enabling us to remain ahead 
of adaptive enemies and save soldiers' lives. Examples of rapid 
equipping force successes include the deployment of language 
translators, vehicle scanning systems, and robots able to inspect 
possible IEDs.
    The following initiatives (Addendum G) reinforce our efforts to 
train and equip soldiers to serve as warriors and grow adaptive 
leaders:
  --Army initiatives to improve in irregular warfare capabilities;
  --expand cultural awareness and foreign language capabilities; and
  --support the joint national training capability.

    ----------------------------------------------------------------

                            Compelling Needs
    Full funding for Army operations and maintenance accounts to ensure 
readiness--of fully manned, trained, and equipped units--able to 
execute the full spectrum of operations.
    Full funding of equipment modernization programs to accelerate the 
delivery of advanced technologies to our soldiers to increase their 
combat effectiveness and protection.
    Continued support to reset unit equipment, needed to train soldiers 
and to develop readiness to meet current and future challenges and 
defend the homeland.
    Support to implement Army leader for the 21st century policies, 
programs, and initiatives designed to build pentathletes.
    Full funding of infrastructure improvements--new construction and 
upgrade of existing training facilities and ranges--to support our 
Combat Training Center Program and at our installations.
    Full funding to expand our capacity to train Soldiers and grow 
adaptive leaders at our Combat Training Centers, at home stations, and 
across our institutional training base to accommodate the expansion of 
the Army.
    Full funding to support the continued expansion of our language and 
cultural awareness programs in our schoolhouses and in our unit based 
activities.

    ----------------------------------------------------------------

    addendum c.--sustain an all-volunteer force composed of highly 
  competent soldiers that are provided an equally high quality of life
    Our continuing success in accomplishing the Army mission is 
directly attributed to the talented men and women of our Army who 
provide ``boots on the ground'' around the world. We are sustaining the 
all-volunteer force by:
  --Honoring our commitment to care for these versatile young Americans 
        and their families.
  --Enhancing numerous programs for housing, education, health care, 
        and other areas to improve how we support our soldiers and 
        their families.
  --Promoting a greater sense of belonging to units and communities to 
        build readiness and cohesion while reducing uncertainty.
  --Executing a full range of initiatives to recruit and retain 
        soldiers with the right aptitudes and attitudes.
  --Working to match the quality of life that our soldiers enjoy to the 
        quality of service they provide to the Nation.
Recruit and Retain the All-Volunteer Force
    Sustaining the all-volunteer force as an enduring institution is a 
fundamental strategic objective for the Army. It serves as a vital 
investment in the future security of our Nation.
    We enjoyed great success in manning the Army during 2006. More than 
184,000 qualified men and women answered the call to duty by choosing 
to serve. We exceeded our 80,000 total accession goal for the active 
component by 635 soldiers--the most we have accessed since 1997. Our 
Army National Guard met 98.6 percent of its total annual goal (69,042 
of 70,000)--achieving its highest number of accessions since 1993. Our 
Army Reserve finished the year at 95.4 percent of its total annual goal 
(34,379 of 36,032).
    The success we enjoyed during 2006 is significant in light of 
changing public attitudes toward the war and an improving economy and 
job market. Less than one-third of our primary recruiting market (17 to 
24 year old males) is fully qualified to serve in the Army (see figure 
C-1). We compete with the other Services for this relatively small pool 
of eligible candidates. Our challenge is perhaps the most difficult in 
the Armed Forces because we are the largest, most manpower-intensive 
Service. We recruit more new enlistees each year than all of the other 
Services combined.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Exceeded combined active and reserve retention goal each year.
    Built over 26,500 barracks spaces and modernized over 12,200 
existing spaces through our Barracks Modernization Program.
    Dramatically improved family housing by privatizing 73,000 sets of 
quarters at 34 different installations through the Residential 
Communities Initiative.
    Consistently improved care for injured and severely wounded 
soldiers upon their return from theater.
    Established a comprehensive well-being framework to integrate, 
resource, and measure quality-of-life programs for soldiers and 
families.
    Provided rest and recuperation opportunities for more than 400,000 
deployed soldiers and Army civilians.
2006
    Exceeded retention objectives in all three components.
    Achieved Active Component recruiting objective of 80,000 soldiers--
most soldiers recruited since 1997.
    Improved support to families by improving family support programs 
at installations.
    Increased command support for family readiness groups at all levels 
of organization.
    Expanded virtual family readiness groups to improve support for 
families in remote locations.
    Expanded community-based child and youth services programs for 
child care, youth outreach, and school transition to support more than 
200,000 Army children and youths.
    Expanded the Residential Communities Initiative to include 
construction of 392 apartments to house bachelors and unaccompanied 
soldiers.

    ----------------------------------------------------------------

    With the support of the Congress and the Department of Defense, we 
accomplished our objective in 2006. We attribute our success to 
improved advertising, an expanded recruiter base, and enlistment 
incentives program enhancements. New programs, such as the Army 
Referral Bonus and the Recruiter Incentive Pay Program, along with 
several recruitment policy changes and improved processes, also 
contributed to these successes. We will require continued resources and 
support in the coming year to attract and access the best possible 
soldiers to man our formations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In October, we announced a new Army recruitment advertising 
campaign: Army Strong. This campaign highlights the physical, mental, 
and emotional strength of soldiers. It draws from past successes the 
Army has achieved and underscores the strength and pride our soldiers 
demonstrate daily while serving the Nation, at home and abroad. We are 
optimistic that this campaign, reinforced by the support of the 
Congress and the American people, will enable our 2006 recruiting 
successes to continue during 2007.
    The Army continues to retain soldiers at tremendously high levels. 
While fighting the war on terror, we have surpassed our combined Army-
wide retention goals, each year, since 2002. In 2006, we exceeded our 
retention goals in the active component by 5 percent, in the Army 
National Guard by 18 percent, and in the Army Reserve by 3 percent.
    Our soldiers value the Army's tradition of service to the Nation. 
They appreciate the opportunity to contribute to national security in a 
meaningful way. We continue to reenlist two out of every three eligible 
soldiers who reach the end of their term of service. We are 
particularly proud that one out of every two first-term soldiers 
decides to reenlist. We believe that our success in retention results 
from the high quality of leadership that our soldiers experience in 
their units.
    The continued support of spouses, parents, and veterans, along with 
the employers of our reserve component soldiers, plays a huge role in 
recruiting and retaining our all-volunteer force. Their support 
directly affects the pride and morale of each of our soldiers. We have 
recognized over 800,000 of these key influencers through the Freedom 
Team Salute Program.
Care for Soldiers, Civilians, and Army Families
    Caring for Army families plays a vital role in sustaining the 
commitment of our soldiers and Army civilians. Our leaders concentrate 
on this critical aspect of their duties. We apply resources carefully 
to maintain and to improve the programs that are of the greatest 
concern to our family members. We constantly work to assure our 
soldiers, their families, and our civilian employees that they will be 
well taken care of and that their needs will be met.
    Army well-being programs provide leaders a variety of ways to care 
for our people. We have integrated numerous Army-wide quality of life 
functions into a comprehensive well-being framework to better enable us 
to focus resources, measure success, and address the needs of an Army 
at war. Our expanding morale, welfare, and recreation programs are a 
key part of this framework. These programs help to reduce the stress of 
daily challenges and enhance mental and physical fitness for our 
soldiers, their families, and our Army civilians.
    Family readiness groups, to include virtual family readiness 
groups, continue to be the centerpiece of our efforts to care for 
families before, during, and after soldier deployments. Our new Family 
Readiness Deployment Assistant Program, which provides administrative 
and logistical support to family readiness group leaders and rear 
detachment commanders, has been a great success. In 2006, The Army 
Chaplaincy's Strong Bonds Program reached more than 40,000 active and 
reserve soldiers. This program is designed to help our soldiers to 
maintain healthy family relationships.
    Other programs and initiatives designed to reduce the stress of war 
for our soldiers, families, and Army civilians include:
  --U.S. Central Command Rest and Recuperation Program.
  --Deployment Cycle Support Program.
  --Military One Source.
  --Multi-Component Family Network.
  --Child and Youth Services School Transition Services.
  --Spouse Employment Partnership.
  --Family First Household Goods Shipping Initiative.
    Health care is another critical aspect of caring for our soldiers 
and their families. The Army provides world-class health care for over 
3.5 million beneficiaries, on the battlefield, and at hospitals and 
clinics worldwide. To fulfill our obligation to care for soldiers and 
families, we continually look for ways to improve health and well-
being. The U.S. Army Wounded Warrior Program exemplifies our commitment 
to honor the soldier's creed by ``never leaving a fallen comrade.'' 
This program provides continuous, comprehensive transition and support 
services for our severely wounded soldiers. These services continue, 
even if a soldier is medically retired, to help our wounded warriors 
receive the support they have earned through their service to the 
Nation.
Improve Soldier and Family Housing
    Our commitment to providing quality housing for our soldiers is 
reflected in the progress we are making in our Barracks Modernization 
Program and in our Residential Communities Initiative. We have been 
working aggressively, over many years, to improve the quality of the 
barracks which house our soldiers. By the end of 2006, we had funded 85 
percent of our goal for Army-wide modernization. We expect to complete 
the funding of this vital initiative by the end of 2011. In addition, 
we are planning for 36 percent of our barracks for new soldiers 
entering the force to be modernized by 2013. We are continuing to 
modernize the barracks used by our Army National Guard and Army Reserve 
soldiers during their annual training.
    Through the Residential Communities Initiative, we are providing 
better family housing for our soldiers by employing an innovative 
privatization process. This program leverages private investment 
capital to improve housing at much faster rates than traditional 
methods of financing and contracting for military construction. When 
completed in 2010, over 98 percent of Army housing in the United States 
will have been privatized--over 86,000 units at 45 installations. We 
have also constructed more than 7,600 family homes and renovated over 
8,000 existing homes using traditional military construction.
    Improving housing is one of the most effective ways to provide our 
soldiers and families with a quality of life that recognizes their 
service to the Nation. Our programs in this area have a positive, 
enduring effect on morale, enable our soldiers to provide for their 
families, and contribute immeasurably to our ability to sustain our 
all-volunteer force.
    The following initiatives (found in Addendum G) reinforce our 
efforts to sustain an all-volunteer force:
  --Provide competitive compensation;
  --develop resilient Army families; and
  --provide a system that promotes continuous personal and professional 
        learning development.

    ----------------------------------------------------------------

                            Compelling Needs
    Support and full funding for critical recruiting and retention 
goals that enable the Army's effort to grow the Army by:
    --Achieving accession and retention goals across all components of 
            the Army by providing incentives, recruiters, advertising, 
            and other support.
    --Continuing support of Army initiatives to provide greater 
            predictability and stability for soldiers and their 
            families in both our active and reserve components.
  --Support and full funding for quality-of-life programs that sustain 
        the propensity to serve demonstrated by our soldiers, their 
        families, and our civilian employees and ensure a quality of 
        life that matches the quality of their service to the Nation 
        by:
    --Supporting housing initiatives to provide quality housing for 
            soldiers and families at installations impacted by current 
            operations, base realignment and closure, and the global 
            defense posture realignment.
    --Supporting initiatives to improve medical care in both active and 
            reserve components that attest to the Nation's concern for 
            soldier well-being.
    --Supporting construction of child development centers, youth 
            centers, fitness centers, recreational facilities, and 
            chapels.

    ----------------------------------------------------------------

addendum d.--provide infrastructure and support to enable the force to 
                fulfill its strategic roles and missions
    To better enable the force to fulfill its strategic roles and 
missions, we are:
  --Adjusting our global footprint to be better positioned for the 
        challenges of the 21st century and the long war on terror.
  --Transforming our installations, depots, and arsenals--and the 
        information network that connects them--to become more 
        efficient and better able to support the Army's mission, at 
        home and abroad.
  --Challenging the way we conduct the business of the Army--constantly 
        finding ways to improve, to increase productivity, and to 
        maximize the use of every dollar.
  --Transforming the Army's structure, systems, processes, and 
        logistics automation to enable soldiers to sustain the full 
        range of our global commitments.
Adjust Global Footprint to Create ``Flagships of Readiness''
    We are repositioning all of our bases and facilities in one of the 
most sweeping structural and basing changes in our history. Our plan 
directs, by 2013, the movement and consolidation of major elements of 
our operating and generating forces through over 1,800 individual 
moves. We are working now to establish the environmental foundation and 
to initiate the renovation and construction required to reposition many 
of our schoolhouses, headquarters, and major supporting activities.
    We are committed to creating ``Flagships of Readiness,'' a concept 
that is an imperative for our Amy and the Nation. To be ready to 
execute the National Defense Strategy, in wartime, we are working to 
dramatically improve our capacity to train soldiers and leaders and to 
generate combat power in time of war.

    ----------------------------------------------------------------

                            Accomplishments
Since 9/11
    Created the Installation Management Agency to unify the business 
structure of Army installations and to create uniformly high standards 
of quality for soldiers and their families.
    Developed a strategic stationing plan that synchronizes base 
realignment and closure, global defense posture realignment, Army 
modular force initiative, and the demands and realities of the global 
war on terror.
    Optimized Power Projection Platforms.--Enabling wartime 
mobilization and facilitating over 700,000 soldier deployments for the 
war on terror.
2006
    Developed facilities support strategy to meet the target dates 
established by base realignment and closure law, global defense posture 
realignment, and to build the Army modular forces which requires the 
execution of approximately $38 billion in military construction and 
related projects between 2007 and 2013.
    Implemented Lean Six Sigma methodology within all Army commands, 
direct reporting units, Army Service Components of Joint Commands, and 
across Headquarters, Department of the Army.
    Received four Shingo Prizes for the Public Sector for improving 
business practices at key Army Materiel Command depots.
    Activated the Army Sustainment Command to serve as our national 
logistics integrator.

    ----------------------------------------------------------------

    Our plan is guiding the overall transformation of our support 
infrastructure to better enable our ability to:
  --Furnish tough and realistic training;
  --prepare and deploy forces;
  --provide standards for quality of life that our soldiers and 
        families deserve;
  --establish modern working conditions for our Army civilians; and
  --establish the infrastructure needed to support and sustain the all-
        volunteer force.
    Our plan integrates base realignment and closure decisions, global 
defense posture realignment, and the actions required to build a 
modular Army--which will allow us to divest Cold War era bases and 
facilities to create the global infrastructure required for a new era. 
This plan depends on careful synchronization of our stationing, 
construction, and deployment schedules to support the war on terror and 
other missions. If done efficiently, this consolidation will yield 
tremendous savings over time--while posturing our forces, logistics 
activities, and power projection platforms to respond to the demands of 
the Nation as efficiently and as effectively as possible.

    ----------------------------------------------------------------

                     Major Stationing Moves in 2007
    1st Brigade, 1st Armored Division moves from Germany to Fort Bliss.
    2nd BCT, 4th Infantry Division moves to Fort Carson.
    17th Fires Brigade moves from Fort Sill to Fort Lewis.
    5th Brigade, 2nd Infantry Division (Stryker Brigade Combat Team 7) 
activates at Fort Lewis.
    Support Brigade (Maneuver Enhancement) activates at Fort Polk.
    3d COSCOM moves to CONUS and will reflag as the 3d Expeditionary 
Sustainment Command.

    ----------------------------------------------------------------

    In support of our plan, we have received significant support from 
the President, the Secretary of Defense, and Congress; however, we 
require significant resources to improve training, housing, and 
deployment facilities on our installations and infrastructure. We are 
continuing to assess the impact of budgetary challenges on the timing 
of our comprehensive global restationing plan. We started fiscal year 
2007 under a continuing resolution for the Military Construction, 
Quality of Life, and Veterans Affairs (VA) Bill. This measure kept 
dollars flowing, yet greatly affected the timing of our ability to 
construct vital facilities needed to house and to train our soldiers.
    We are at the forefront of an extraordinarily complex challenge, 
one that must be supported with timely funds to adhere to an intricate, 
complex schedule. Repositioning our forces worldwide impacts not only 
the lives of our soldiers and their families; but also, our overall 
ability to execute the National Defense Strategy. To execute our plan 
according to schedule, and to continue to meet strategic requirements 
for forces and capabilities, we require timely, sustained funding. 
Failure to underwrite this commitment with sustained and timely 
resources will increase risk for the Army and the Nation.
Implement Business Transformation
    As we are changing the way we operate militarily, we are also 
changing how we do business. We are aggressively transforming our 
business methods and our workforce culture to reflect best practices in 
civilian industry. These changes will enhance the Army's ability to 
deal with the challenges we will face today and tomorrow.
    Successful business transformation is essential to our long-term 
health. It is freeing human and financial resources that we are 
directing to our core warfighting missions. In addition, by ``taking 
work out'' of our processes--reducing waste in all its forms--we are 
accelerating the rate of our transformation.
    The centerpiece of our business transformation is continuous 
improvement. Through the application of Lean Six Sigma (LSS), we are 
critically analyzing how we do business. Using this methodology, now 
increasing its appeal throughout civilian industries, we are constantly 
identifying ways to increase productivity, reduce cycle time, and 
decrease our overall resource demands.
    The initial focus of our LSS deployment has been on processes used 
within our operating and generating forces. We currently have over 500 
active projects designed to improve efficiency across the Army. We have 
already enjoyed great success from completed projects in certain areas, 
as evidenced by continued improvement in manufacturing and repair 
processes at several depots and arsenals within our Army Materiel 
Command (AMC). During the past year, four of these AMC depots received 
the coveted Shingo Prize in 2006 for their efforts to improve 
manufacturing practices. We will continue to work toward full 
implementation throughout the Army and to replicate these successes in 
all our activities.
Develop the LandWarNet Institutional Infrastructure
    We continue to invest in information technology (IT) at our 
installations and reserve component facilities. We are working to 
establish the architecture to provide the foundation for LandWarNet, 
the Army's portion of the Global Information Grid. LandWarNet moves 
information through a seamless network to better support our combat 
forces and the infrastructure that generates and supports them. Our IT 
infrastructure will also enable operational forces to ``reach back'' 
for data in the form of high definition intelligence products, voice, 
video, and data.
    Consolidating IT network services is helping to increase 
LandWarNet's efficiency and effectiveness. LandWarNet is enabling us to 
establish area processing centers to better facilitate and consolidate 
support for operations in many diverse regions. LandWarNet is reducing 
vulnerabilities, while increasing both access to and security of our 
information. Our investment in LandWarNet is helping to improve the 
Army's ability to conduct joint, interagency, and multi-national 
operations. This capability will fully leverage the potential value of 
the network to promote common understanding, move data in real-time, 
and support operations, at home and abroad.
    We are improving how we manage our network. We are applying new 
technologies and implementing sound investment guidance. We are also 
dramatically improving the quality of available data by transforming 
the processes used to analyze and distribute it. While helping to avoid 
information overload, this initiative will enable the sharing of 
knowledge needed to optimize decisionmaking. It will also facilitate 
more effective and more efficient mission planning and performance 
across the Army.
Enhance Logistics Readiness
    While the global war on terror remains our top priority, we must 
also prepare the Army for future challenges. To be successful, we are 
transforming the Army's structure, equipment, and processes, while 
sustaining the Army's ability to fulfill the full range of its global 
commitments.
    The Army Force Generation (ARFORGEN) process identifies emerging 
equipment requirements and permits a complete corporate view of 
equipment readiness. Our reset program enables us to meet those 
requirements and quickly restore the capabilities of our units. 
Congress has funded this restoration process for this year and must 
continue to do so in future years. Our retrograde program enables us to 
account for and redistribute millions of dollars in excess equipment to 
meet warfighting requirements.
    We are ensuring that Logistics Transformation keeps pace with 
broader Army transformation initiatives by:
  --Providing commanders with transformed logistics organizations that 
        are fully embedded in their formations to provide more 
        immediate, more responsive support;
  --deploying logistics headquarters that are fully able to operate 
        with other members of the Joint Team and provide unified, 
        theater-wide command and control of logistics operations and 
        activities; and
  --improving home station and wartime accountability by implementing 
        an aggressive logistics automation governance strategy which is 
        rapidly creating and fielding an automation architecture to 
        better support and sustain our modular forces.
    The following initiatives (found at Addendum G) reinforce our 
efforts to provide infrastructure and support:
  --Execute base realignment and closure;
  --implement Army sustainability strategy; and
  --implement logistics automation governance strategy.

    ----------------------------------------------------------------

                            Compelling Needs
    Support to execute a carefully synchronized plan to achieve a new 
global basing posture, and grow the Army, while fulfilling the 
requirements of the National Defense Strategy. The requirements of this 
plan (for renovation, construction, environmental remediation, and 
other costs) will exceed the resources currently apportioned for base 
realignment and projected to be recouped through consolidation and 
closure (a situation that will require continuous reevaluations in 
future years).
    Support Army efforts to synchronize global defense posture 
realignment, base realignment and closure, and stationing of modular 
forces.
    Fund base operations and sustainment accounts to meet minimum 
support levels while providing a predictable spending level to Army 
installations.
    Fully fund sustainment, restoration, and modernization accounts to 
slow the rate of deterioration of Army infrastructure.
    Fully fund the Installation Information Infrastructure 
Modernization Program.

    ----------------------------------------------------------------

  addendum e.--data required by national defense authorization act of 
                                  1994
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 1994 require the information in this addendum. 
Section 517 requires a report relating to the implementation of the 
pilot program for active component support of the Reserves under 
section 414 of the NDAA for fiscal years 1992 and 1993. Section 521 
requires a detailed presentation concerning the Army National Guard, 
including information relating to the implementation of the Army 
National Guard Combat Readiness Reform Act of 1992 (title XI of Public 
Law 102-484, and referred in the addendum as ``ANGCRRA''). Section 521 
reporting was later amended by section 704, fiscal year 1996 NDAA. U.S. 
Army Reserve information is also presented using section 521 reporting 
criteria.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

------------------------------------------------------------------------
                                                           Army Average
                                           AC in RC \1\         \2\
------------------------------------------------------------------------
Fiscal year 2005:
    Major...............................            93.6            97.7
    Lieutenant Colonel..................            42.1            88.7
Fiscal year 2006:
    Major...............................            93.9            97.5
    Lieutenant Colonel..................            68.7            90.9
------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments
  at time of consideration. All figures represent percentages.
\2\ Active component officers not serving in reserve component
  assignments at the time of consideration. All figures represent
  percentages.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as active component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

------------------------------------------------------------------------
                                                           Army Average
                                           AC in RC \1\         \2\
------------------------------------------------------------------------
Fiscal year 2005:
    Major...............................             4.1             6.2
    Lieutenant Colonel..................             2.9             6.0
Fiscal year 2006:
    Major...............................             5.1             6.8
    Lieutenant Colonel..................             3.2             8.1
------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve
  component assignments at time of consideration.
\2\ Below the zone active component officers not serving in reserve
  component assignments at the time of consideration.

Section 521(b)
    The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
  --Army National Guard (ARNG) officers: 20,284 or 55.0 percent.
  --Army Reserve officers: 7,088 or 26.6 percent.
    The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
  --ARNG enlisted: 114,560 or 37.0 percent.
  --Army Reserve enlisted: 29,498 or 26.6 percent.
    The numbers of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2006, no officers were released to the Selective 
            Reserve to complete their obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2006, no waivers were granted by the Secretary of 
            the Army.
    The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2006, no distinguished Reserve Officers' Training 
            Corps (ROTC) graduates were released before completing 
            their active duty service obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2006, no waivers were granted by the Secretary of 
            the Army.
    The number of officers who are graduates of the Reserve Officers' 
Training Corps program and who are performing their minimum period of 
obligated service in accordance with section 1112(b) of ANGCRRA by a 
combination of (a) 2 years of active duty, and (b) such additional 
period of service as is necessary to complete the remainder of such 
obligation served in the National Guard and, of those officers, the 
number for whom permission to perform their minimum period of obligated 
service in accordance with that section was granted during the 
preceding fiscal year;
  --In fiscal year 2006, five ROTC graduates were released early from 
        their active duty obligation. Of this number, all five are 
        completing the remainder of their obligation through service in 
        the ARNG, and none through service in the Army Reserve.
    The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
  --1,960 ARNG officers from units were recommended for position 
        vacancy promotion and promoted.
  --89 Army Reserve officers from units were recommended for position 
        vacancy promotion. A total of 82 were favorably considered.
    The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver.
  --In fiscal year 2006, no waivers were granted by the Secretary of 
        the Army.
    The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the Army 
Reserve is also provided.)
  --In fiscal year 2006, the number of ARNG non-deployable personnel 
        was 63,839. The National Guard Bureau (NGB) maintains the 
        detailed information.
  --In fiscal year 2006, the Army Reserve had 20,080 soldiers that were 
        considered non-available for deployment for reasons outlined in 
        Army Regulation 220-1, Unit Status Reporting (i.e., pending 
        administrative/legal discharge or separation, medically non-
        available).
    The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported).
  --The number of ARNG soldiers discharged during the previous fiscal 
        year pursuant to section 11115(c)(1) of ARNGCRRA for not 
        completing the minimum training required for deployment within 
        24 months after entering the ARNG is 170 officers and 12,435 
        enlisted soldiers, which includes all 54 States and 
        Territories. The breakdown by each State is maintained by NGB.
  --The number of Army Reserve soldiers discharged during the previous 
        fiscal year for not completing the minimum training period 
        required for deployment within 24 months after entering the 
        Army Reserve is 173 officers and 547 enlisted soldiers. Those 
        soldiers who have not completed the required initial entry 
        training (IET) within the first 24 months are discharged from 
        the Army Reserve under AR 135-178, Separation of Enlisted 
        Personnel.
    The number of waivers, shown for each State, that were granted by 
the Secretary of the Army during the previous fiscal year under section 
1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) of 
ANGCRRA, together with the reason for each waiver.
  --In fiscal year 2006, no waivers were granted by the Secretary of 
        the Army.
    The number of Army National Guard members, shown for each State, 
(and the number of AR members), who were screened during the preceding 
fiscal year to determine whether they meet minimum physical profile 
standards required for deployment and, of those members: (a) the number 
and percentage that did not meet minimum physical profile standards for 
deployment; and (b) the number and percentage who were transferred 
pursuant to section 1116 of ANGCRRA to the personnel accounting 
category.
  --The number and percentage who did not meet minimum physical profile 
        standards required for deployment:
    --In fiscal year 2006, approximately 96,603 ARNG soldiers underwent 
            a physical. Of these personnel, 4,386, or 4.5 percent, did 
            not meet the minimum physical profile standards required 
            for deployment.
    --In fiscal year 2006, approximately 23,146 Army Reserve soldiers 
            underwent a retention physical. Of these personnel 3,214 or 
            13.8 percent were identified for review due to a profile-
            limiting condition or failure to meet retention standards.
  --The number and percentage that were transferred pursuant to section 
        1116 of ANGCRRA to the personnel accounting category.
    --In fiscal year 2006, 12,042 ARNG persons were transferred from a 
            deployable to a non-deployable status.
    --Fiscal year 2006, 2,474 Army Reserve soldiers were considered 
            non-available for deployment. This is a decrease of 1,748 
            from the beginning of fiscal year 2006 (21,828).
    The number of members and the percentage total membership of the 
Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of members and the percentage of the total membership of 
the Army National Guard shown for each State who underwent a dental 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of members and the percentage of the total membership of 
the Army National Guard shown for each State, over the age of 40 who 
underwent a full physical examination during the previous fiscal year 
for purposes of section 1117 of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    The number of units of the Army National Guard that are scheduled 
for early deployment in the event of a mobilization, and of those 
units, the number that are dentally ready for deployment in accordance 
with section 118 of ANGCRRA.
  --Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1118 of ANGCRRA.
    The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and Army 
Reserve units) in a post-mobilization period for purposes of section 
1119 of ANGCRRA.
  --Estimated time for post mobilization training is reported through 
        the Unit Status Report, is classified, and is maintained by the 
        Department of the Army, G-3, Operations, Readiness and 
        Mobilization Division.
  --Information on the type of training required by units during post-
        mobilization is maintained by the appropriate Army Command 
        (ARCOM) or Army Service Component Command (ASCC), i.e., 
        FORSCOM, USAREUR, and USARPAC).
  --During fiscal year 2006, the ARNG began transforming enhanced 
        separate brigades (ESBs) and divisional brigades to brigade 
        combat teams (BCT). To reduce post-mobilization training time, 
        ARNG BCTs will train in accordance with the Army force 
        generation model (ARFORGEN). This 6-year model, executed prior 
        to mobilization, culminates with ARNG BCTs achieving company 
        level training proficiency prior to arrival at the mobilization 
        station. The post-mobilization training for ARNG BCTs will then 
        focus on theater specific training requirements. Additionally, 
        ARNG BCTs will conduct collective training in order to attain 
        brigade level training proficiency. This training focuses on 
        combat tasks associated with attack, defend, and support/
        stability operations.
  --The Army Reserve no longer manages units through the force support 
        package (FSP) model, but is transitioning into the ARFORGEN. 
        The Army Reserve has 77 percent of their units integrated into 
        the ARFORGEN model. Post mobilization training for Army Reserve 
        units typically consists of common task testing, NBC defense, 
        force protection, sustainment, command and control, weapons 
        qualification, tactical communications training, and branch-
        specific technical training. Virtually all units require 
        branch-specific technical training to meet deployment 
        standards. Five additional days are required to conduct convoy 
        lane training (includes live fire and immediate action drill 
        training).
    A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
  --During fiscal year 2006, the ARNG synchronized the use of existing 
        and ongoing live, virtual, and constructive training aids, 
        devices, simulations and simulators (TADSS) programs with the 
        training requirements of the ARFORGEN. By synchronizing the use 
        of TADSS with the ARFORGEN, the ARNG will improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped BCT's the ARNG continued the fielding of the 
        advanced Bradley full-crew interactive simulation trainer (AB-
        FIST) which provides a full crew simulations trainer for M2A2 
        units and the conduct of fire trainer (COFT) XXI. When fully 
        fielded these devices in addition to the Abrams full-crew 
        interactive simulation trainer (AFIST) XXI will be the primary 
        simulations trainers to meet the virtual gunner requirement of 
        M1 and M2 crews. In order to meet the virtual maneuver training 
        requirements in the ARFORGEN, M1 and M2 units utilize the close 
        combat tactical trainer (CCTT) and the rehosted simulations 
        network (SIMNET).
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the virtual convoy operations trainer (VCOT). The VCOT, through 
        the use of geo-specific databases, also provides commanders 
        with a unique and critical mission rehearsal tool. Currently, 
        there are 21 VCOT systems positioned in the ARNG force to train 
        the fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the engagement skills 
        trainer (EST 2000). This system is the Army's approved 
        marksmanship training device. The EST 2000 is also used to 
        provide unit collective gunnery and tactical training for 
        dismounted Infantry, Special Operations Forces, Scouts, 
        Engineer, Military Police Squads, and Combat Support and Combat 
        Service Support elements. These systems also support units 
        conducting vital homeland defense missions. Additionally, in 
        order to more quickly provide critical marksmanship training 
        capability to ARNG units, the ARNG is using the fire arms 
        training system (FATS) as in lieu of training system for the 
        EST 2000.
  --The ARNG supplements its marksmanship training strategy with the 
        laser marksmanship training system (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the soldier's weapon without live ammunition. The 
        LMTS is utilized for developing and sustaining marksmanship 
        skills, diagnosing and correcting marksmanship problems, and 
        assessing basic and advanced skills.
  --Through the ARNG Distributed Battle Simulation Program, civilian 
        infrastructure commanders receive assistance from Commander's 
        Operational Training Assistants, TADSS facilitators, and Janus 
        Technical Team Exercise Support in the planning, preparation, 
        and execution of simulations-based battle staff training that 
        augments the support provided by training support XXI soldiers 
        and greatly enhances unit proficiency and readiness.
  --In order to provide the critical culminating training event of the 
        ARFORGEN, the ARNG has implemented the eXportable combat 
        training capability (XCTC). The XCTC program provides the 
        method to validate that ARNG combat units have achieved the 
        company level maneuver proficiency prior to mobilization. The 
        XCTC incorporates the use of advanced live, virtual, and 
        constructive training technologies to replicate the training 
        experience until now only found at one of the Army's combat 
        training centers. The centerpiece of the XCTC is the deployable 
        force-on-force instrumented range system (DFIRST). DFIRST 
        utilizes training technologies that allows for full 
        instrumentation of the training area from major combat systems 
        down to the individual soldier, role player and civilian on the 
        battlefield.
  --The most important part of every training exercise is the after 
        action review (AAR). By fully instrumenting the training area 
        units receive an AAR complete with two dimensional, three 
        dimensional and video playback of the actual training exercise. 
        This allows commanders and soldiers to see what occurred during 
        the training exercise from a different prospective further 
        enhancing the training experience.
  --The Army Reserve continues to focus on integrating simulations, 
        simulators, and TADSS into training plans. As part of the Army 
        Campaign Plan Decision Point 72, the Army Reserve has created 
        an entire battle command training division with simulations 
        brigades strategically placed throughout CONUS. These brigades 
        provide Army Reserve units train-up exercises which culminate 
        in participation in corps warfighter and battle command staff 
        training exercises to enhance training readiness.
  --The Army Reserve remains an active member of the Army's simulation 
        community by participating in the live, virtual, constructive 
        (LVC) training environment periodic review and as a member of 
        the LVC integration concept team. The Army Reserve continues to 
        press PEO-STRI and the National Simulation Center on the 
        priority for the development of combat support and combat 
        service support functionality within the Army Constructive 
        Training Federation to ensure training capabilities for the 
        entire spectrum. The Army Reserve has also identified the need 
        for increased digital equipment fielding for the Reserve 
        components. Current and future forces need digital capability 
        to train effectively in the contemporary operating environment 
        (COE) and the joint national training capability (JNTC) 
        environment of Army capabilities.
  --The Army Reserve continues to investigate alternative training 
        mechanisms to simulate urban terrain and potential terrorist 
        activities, including the virtual emergency response training 
        system (VERTS). The Army Reserve continues to develop the 
        simulations operations functional area assessment to ensure 
        that capabilities exist to support the DOD training 
        transformation goal of integrated live, virtual, and 
        constructive training in a joint environment.
  --At the tactical level, the Army Reserve is using paintball weaponry 
        to simulate conditions in battle. Convoy live-fire training, 
        using paintball technology, teaches valuable combat skill at 
        the cost of soldiers having to wash off paint stains rather 
        than blood. The Army Reserve continues to work on a joint 
        learning process that develops leaders who are agile and 
        adaptive, ready to participate in any theater of operation.
  --The Army Reserve is prepared to meet any challenge as we move 
        towards the future to combat persistent adversaries in the 
        global war on terror, homeland defense, and weapons of mass 
        destruction.
    Summary tables of unit readiness, shown for each State, (and for 
the Army Reserve), and drawn from the unit readiness rating system as 
required by section 1121 of ANGCRRA, including the personnel readiness 
rating information and the equipment readiness assessment information 
required by that section, together with:
  --Explanations of the information:
    --Readiness tables are classified. This information is maintained 
            by the Department of the Army, G-3.
  --Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the ARNG 
        (and Army Reserve), including a discussion of personnel 
        deficiencies and equipment shortfalls in accordance with such 
        section 1121:
    --Summary tables and overall assessments are classified. This 
            information is maintained by the Department of the Army G-
            3.
    Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of section 105 of title 32, together 
with explanations of the information shown in the tables, and including 
display of:
  --The number of such inspections;
  --identification of the entity conducting each inspection;
  --the number of units inspected; and
  --the overall results of such inspections, including the inspector's 
        determination for each inspected unit of whether the unit met 
        deployability standards and, for those units not meeting 
        deployability standards, the reasons for such failure and the 
        status of corrective actions.
    --During fiscal year 2006, ARNG State level inspectors general 
            conducted extensive inspections throughout the United 
            States. State level inspectors general (IG) conducted 
            approximately 1,410 inspections during the year, visiting 
            361 separate units. Because IG inspections focus on 
            findings and recommendations, the units involved in these 
            inspections were not provided with a pass/fail rating. 
            Results of inspections conducted by inspectors general may 
            be requested for release through the Inspector General of 
            the Army.
    --Operational readiness evaluation data for FSP and eSBs is 
            unavailable as these inspections were eliminated as 
            requirements in 1997. Data available under the training 
            assessment model (TAM) relates to readiness levels and is 
            generally not available in an unclassified format. TAM data 
            is maintained at the State level and is available upon 
            request from State level training readiness officials.
    --In accordance with AR1-201, Army Inspection Policy, the United 
            States Army Reserve Command (USARC) conducts inspections of 
            RRCs/DSUs within requirements of the USARC organizational 
            inspection program (OIP). Per the Army regulation, at 
            division levels and above, OIPs are comprised primarily of 
            staff inspections, staff assistance visits and IG 
            inspections. Staff inspections are only one aspect by which 
            the Commanding General can evaluate the readiness of their 
            command. The Inspector General conducts inspections and 
            special assessments based on systemic issues and trends 
            analysis; issues that may possibly impede the readiness of 
            the Army Reserve.
    --The Chief, Army Reserve directed the Inspector General to conduct 
            a special inspection in fiscal year 2006 derived from 
            concerns about a myriad of soldier support issues, such as 
            pay and promotions procedures, awards processing and 
            evaluations.This inspection also covered the particular 
            special interest item of motorcycle safety, an additional 
            concern due to increasing motorcycle accidents throughout 
            the command.
  --The Army Reserve is meeting regulatory requirements through a 
        combination of battle focused readiness reviews (BFRR) and 
        staff assistance visits, with the assistance visits conforming 
        to regulatory requirements listed in AR 1-201. The BFRR is the 
        tool used by major subordinate commanders to provide the Army 
        Reserve Commanding General a lay-down on the readiness and 
        resource status of their command, and resolve systemic issues/
        trends in order to achieve continuous improvements in 
        readiness. The Army Reserve conducted 16 BFFR in fiscal year 
        2006. BFRRs were halted until the new Deputy Commanding General 
        was selected and resumed in December 2006, with a review of the 
        104th Division (IT). The staff assistance visits are more 
        assistance oriented in nature.
    A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
  --There are no longer ground combat active component (AC/reserve 
        component (RC) associations due to operational mission 
        requirements and deployment tempo.
  --As forces command's executing agent, First Army executes the 
        legislated Active Duty Associate Unit responsibilities through 
        both their pre-mobilization and post-mobilization efforts with 
        RC units. When RC units are mobilized, the units are thoroughly 
        assessed in terms of manpower, equipment, and training 
        initially by the appropriate RC chain of command and that 
        assessment is approved by First Army.
  --Validation of the compatability of the RC units with the active 
        duty forces occurs through the mobilization functions with the 
        direct oversight of First Army and FORSCOM at the mobilization 
        centers.
  --The Army's transformation from a division-centric to brigade-
        centric organization under the ARFORGEN model, coupled with the 
        acceleration of the ARNG modularity and recognition of the 
        combat experience of deployed RC personnel and units; should 
        render the reporting requirement as specified in U.S. Code: 
        Title 10,10542. Army National Guard Combat Readiness Annual 
        Report as no longer appropriate.
    A specification of the active-duty personnel assigned to units of 
the Selected Reserve pursuant to section 414(c) of the National Defense 
Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 note), 
shown (a) by State for the Army National Guard (and for the U.S. Army 
Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.
    As of September 29, 2006, the Army had 3,327 active component 
soldiers assigned to title XI positions. In fiscal year 2006, the Army 
began reducing authorizations in accordance with the National Defense 
Authorization Act of fiscal year 2005 (Public Law 108-767, section 
515). The Army G-1 and U.S. Army Human Resources Command carefully 
manage the authorizations and fill of title XI positions.

                                   TITLE XI (FISCAL YEAR 2006) AUTHORIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                        OFF             ENL             WO             Total
----------------------------------------------------------------------------------------------------------------
Human Resources Command.........................  ..............               5  ..............               5
U.S. Army Reserve...............................              37             147  ..............             184
TRADOC..........................................              97             167  ..............             264
FORSCOM.........................................           1,358           2,318             129           3,805
ESGR............................................               1               3  ..............               4
USARPAC.........................................              30              58               1              89
                                                 ---------------------------------------------------------------
      Total.....................................           1,523           2,698             130           4,351
----------------------------------------------------------------------------------------------------------------

                   addendum p.--helpful army websites
    The following websites provide greater information on various 
topics:
    The Army Website. This site is the most visited military website in 
the world, averaging about 7 million visitors per month or 250 hits per 
second. It provides news, features, imagery, and references.
      http://www.army.mil
    The Army National Guard. Provides information about the Army 
National Guard.
      http://www.arng.army.mil
    The United States Army Reserve. Provides information about the Army 
Reserve.
      http://www.armyreserve.army.mil/usar/home
    Army Families Online. This site provides information and links to 
other support programs that support our soldiers and their families.
      http://www.aflo.org/skins/WBLO/home.aspx?AllowSSL=true
    U.S. Army Wounded Warrior Program. This site provides information 
on the Army's Wounded Warrior Program which provides support for 
severely wounded soldiers and their families.
      https://www.aw2.army.mil/
    Deputy Chief of Staff for Personnel, G-1. For information on 
personnel issues.
      http://www.armyg1.army.mil
    Deputy Chief of Staff for Intelligence, G-2. For information on 
intelligence issues.
      http://www.dami.army.pentagon.mil
    Deputy Chief of Staff for Operations, Plans, and Policy, G-3/5/7. 
For information on Army plans and operations.
      http://www.g357extranet.army.pentagon.mil/#
    Deputy Chief of Staff for Logistics, G-4. For information on Army 
logistics.
      http://www.hqda.army.mil/logweb/
    Chief Information Officer, CIO/G-6.
      http://www.army.mil/ciog6/
    Deputy Chief of Staff for Programs. For information on materiel 
integration.
      http://www.g8.army.mil
    Future Combat Systems. For information on the Future Combat Systems 
program.
      http://www.army.mil/fcs
    Army Logistics Transformation Agency. For information on Army 
logistics transformation.
      http://lta.army.mil
    Army Medicine. For information on Army medical programs.
      http://www.armymedicine.army.mil
    Army Posture Statement. For the web-based version of the Army 
Posture Statement which includes amplifying information not found in 
the print version.
      http://www.army.mil/aps
    Army Modernization Plan. Provides a detailed overview of the Army's 
organizational and materiel modernization efforts.
      http://www.army.mil/features/MODPlan/2006/
       addendum q.--additional information on army related topics
    We have provided additional information on the following topics in 
the CD-ROM and web-based versions of the 2007 Army Posture Statement. 
They are available as in-text links and may be accessed through this 
addendum either on the CD-ROM or the Web.
2006 Army Modernization Plan
Actionable Intelligence
Active Component/Reserve Component Rebalance
Adapting the Major Army Command Structure
Add-on Armor for Tactical Wheeled Vehicles
Army Barracks Modernization Program
Army Capabilities to Dominate in Complex Environments
Army Career Intern Program
Army Community Service
Army Energy Strategy for Installations
Army Environmental Programs
Army Equipping and Reuse Conference
Army Family Action Plan
Army Initiatives to Improve in Irregular Warfare Capabilities
Army Knowledge Online (AKO)/Defense Knowledge Online (DKO)
Army Leaders for the 21st Century
Army Leads Biometrics Integration
Army Prepositioned Stocks
Army Referral Bonus Pilot Program
Army Reserve: All-Volunteer Force and the Army Reserve
Army Reserve: Army Reserve Child and Youth Services Program
Army Reserve: Army Reserve Education Services
Army Reserve: Army Reserve Employer Relations
Army Reserve: Army Reserve Facility Management Transformation
Army Reserve: Army Reserve Family Programs
Army Reserve: Full-Time Support Revalidation
Army Reserve: Regional Personnel Service Centers
Army Reserve: Reserve Components Separate Competitive Categories for 
Officer Promotions
Army Reserve: Selected Reserve Incentive Program
Army Reserve: Sexual Assault Prevention and Response Program
Army Reserve: Trainees, Transients, Holdees and Students Account
Army Reserve: Voluntary Selective Continuation of Alerted and Mobilized 
Selected Reserve Lieutenant Colonels and Colonels
Army Retention Program
Army Sexual Assault Prevention and Response
Army Spouse Employment Partnership
Army Strong
Army Sustainability
Army Training Support System
Army Transferability of GI Bill Benefits to Spouses Program
Army Values
Asymmetric Warfare Group
Base Realignment and Closure Decisions for the Army
Basic Officer Leader Course
Battle Command (Annex)
Battle Command (as a Weapons System)
Battle Command (Equipping)
Building Partnership Capacity through Security Cooperation
Campaign Quality Force
Child and Youth Services
Child and Youth Services School Transition Support
Civilian Creed
Civilian Education System
Clinger-Cohen Act Title 40, Subtitle 3 Compliance and Certification
Combating Weapons of Mass Destruction (WMD)
Composite Risk Management
Concept Development and Experimentation
Consolidated IT Services
Core Enterprise Services
Cultural Awareness and Foreign Language Capabilities
Defense Integrated Military Human Resources System
Defense Support to Civil Authorities--(Annex)
Defense Support to Civil Authorities
Defense Support to Civil Authorities (Establishment of Army North)
Defense Support to Civil Authorities (Hurricane Katrina Response)
Defense Support to Civil Authorities (Pandemic Flu Preparation)
Defense Support to Civil Authorities (Special Events for 2006)
Deployment Cycle Support Process
Expeditionary Capabilities
Families First Program
Family Readiness Group Deployment Assistant Program
Family Readiness Group
Force Stabilization
Freedom Team Salute
Full Spectrum Operations in Army Capstone Doctrine
Global Force Posture
Information Assurance and Network Security
Installation Design Standards
Interceptor Body Armor
IT Interoperability Testing
IT Portfolio Management
Joint Interdependence
Joint Knowledge Development and Distribution Capability
Joint National Training Capabilities
Joint Tactical Radio System
LandWarNet and the Global Information Grid
Life Cycle Management Initiative
Live, Virtual, Constructive Training Environment Integration
Major Acquisition Programs: Armed Recon Helicopter
Major Acquisition Programs: Black Hawk Utility Helicopter
Major Acquisition Programs: CH47 Medium Lift Helicopter
Major Acquisition Programs: Future Combat Systems
Major Acquisition Programs: Light Utility Helicopter
Major Acquisition Programs: Longbow Apache Attack Helicopter
Major Acquisition Programs: Medium Extended Air Defense System
Major Acquisition Programs: Unmanned Aircraft Systems (Raven)
Major Acquisition Programs: Unmanned Aircraft Systems (Shadow)
Major Acquisition Programs: Unmanned Aircraft Systems (Warrior)
Medical and Dental Readiness
MILCON Transformation
Military Family Life Consultants Programs
Military One Source
Military-to-Civilian Conversions
Modular Force Conversion
Morale Welfare and Recreation (MWR)
Multi-Component Family Network
National Guard: Chemical, Biological, Radiological, Nuclear and High 
Yield Explosive Enhanced Response Force Package
National Guard: Counterdrug Program
National Guard: Education Support Center
National Guard: Every Soldier A Recruiter
National Guard: Exportable Combat Training Capability
National Guard: Family Assistance Centers
National Guard: Family Readiness Programs
National Guard: Recruiting Assistance Program
National Guard: Historical Armory Activities
National Guard: Homeland Defense
National Guard: Operational Support Airlift Agency
National Guard: Personnel Services Delivery Redesign
National Guard: State Partnership Program
National Guard: Strategic Reserve to Operational Force
National Guard: Weapons of Mass Destruction Civil Support Teams
National Security Personnel System
Non-Commissioned Officers Creed
Officer Retention
Rapid Equipping Force
Rapid Fielding Initiative
Recruiter Incentive Pay Pilot Program
Recruiting Incentive Program
Recruitment Policy Changes
Red Team Education and Training
Reset
Residential Communities Initiative
Restructuring Army Aviation
Retrograde Task Force
Review of Education, Training and Assignment for Leaders
Science and Technology
Soldier's Creed
Spiraling Technology into the Current Force
Stability Operations Capabilities
Stabilizing Soldiers and Units to Enhance Cohesion and Predictability
Strong Bonds Program
Sustainable Range Program
The Army Distributed Learning Program
The Digital Training Management System
U.S. Army Combat Training Center Program
U.S. Army Wounded Warrior Program
U.S. CENTCOM Rest and Recuperation Program
Unit Combined Arms Training Strategies
Up-Armored Vehicle Program
Utilities Privatization
War Reserve Secondary Items
Warfighter Information Network--Tactical
Warrant Officer Education System
Warrior Ethos
Warrior Tasks and Battle Drills
Western Hemisphere Institute for Security Cooperation
                         addendum r.--acronyms
    AC--Active Component
    ACOM--Army Command
    AMC--Army Materiel Command
    APOE--Aerial Port of Embarkation
    APS--Army Prepositioned Stocks
    ARFORGEN--Army Force Generation
    ARI--Army Research Institute
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    ASV--Armored Security Vehicle
    AW2--U.S. Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BfSB--Battlefield Surveillance Brigade
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    BT--Business Transformation
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives
    CES--Civilian Education System
    CM--Consequence Management
    COIN--Counterinsurgency
    CPI--Continuous Process Improvement
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorist
    CTC--Combat Training Center
    CWMD Combating Weapons of Mass Destruction
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DOD--Department of Defense
    ES2--Every Soldier a Sensor
    FCS--Future Combat Systems
    FTS--Full Time Support
    FY--Fiscal Year
    GBIAD--Ground Based Integrated Air Defense
    GCSC-A--Global Combat Service Support--Army
    GDP--Gross Domestic Product
    GDPR--Global Defense Posture Review
    GFEBS--General Fund Enterprise Business System
    GWOT--Global War on Terrorism
    HMMWV--High Mobility Multipurpose Wheeled Vehicle
    HSDG--High School Diploma Graduates
    HST--Home Station Training
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIOC-I--Joint Intelligence Operations Capability--Iraq
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    METL--Mission Essential Task List
    MFO--Multinational Force and Observers
    MI--Military Intelligence
    NCO--Non-Commissioned Officer
    NDAA--National Defense Authorization Act
    OA&D--Organizational Analysis and Design
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    PLM+--Product Lifecycle Management Plus
    QDR--Quadrennial Defense Review
    RC--Reserve Component
    RCI--Residential Communities Initiative
    RDA--Research, Development, and Acquisition
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SDDC--Surface Deployment and Distribution Command
    SIGINT--Signals Intelligence
    SMS--Strategic Management System
    TPFDD--Time Phased Force Deployment Data
    QOL--Quality of Life
    UAS--Unmanned Aerial Systems
    USAR--United States Army Reserve
    VA--Veterans Affairs
    WMD--Weapons of Mass Destruction

    Senator Inouye. Thank you very much, Mr. Secretary. General 
Schoomaker.
STATEMENT OF GENERAL PETER SCHOOMAKER, CHIEF OF STAFF, 
            UNITED STATES ARMY
    General Schoomaker. Well, Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thanks very much for 
the opportunity to appear today and also for your kind words. 
You know, I joked in the past about answering the cell phone on 
my pick-up truck and what a mistake it was but the reality is, 
it's been a tremendous honor to serve once again our great 
Nation and to serve with the young men and women, their 
families of all components and I really appreciate your kind 
words.

                        INTRODUCTION OF SOLDIERS

    As has been our tradition in the past, I've brought three 
soldiers again today that I would like to introduce to the 
subcommittee. They represent all three components of our Army 
and the thing that I like to remind everybody, as General Laten 
once said, the people aren't in the Army. The Army is people. 
So these great young people I'd like to introduce.
    The first is Sergeant Jonathon James from Tuscaloosa, 
Alabama. He's a member of the Alabama Army National Guard. He 
deployed to Iraq for Operation Iraqi Freedom III as an infantry 
team leader in Alpha Company First Battalion 167th Infantry, 
attached to the 48th Brigade Combat Team. Sergeant James 
participated in the capture of eight of the top insurgents or 
blacklisted personnel in his division area of operations. He 
led his four-man fire team on successive missions that engaged 
and disrupted three separate insurgent motor teams who were 
firing on U.S. and Iraqi army positions as well as on Iraqi 
civilians in the nearby town of Lutifiya.
    As a testament to his leadership, Sergeant James 
participated in the capture of the largest weapons cache in the 
division and led over 70 combat operations over the course of 
his year at FOB Roe, all without a single friendly casualty. He 
has been awarded the Bronze Star Medal, the Army Commendation 
Medal with V-Device for Valor and the Combat Infantryman Badge. 
Sergeant James.
    The second soldier I'd like to introduce is Sergeant Sandra 
or Sandy Kitzinger, a native of Heilbronn, Germany who joined 
the U.S. Army Reserve in August 2001. Due to the restrictions 
from the German government on her initial efforts to deploy to 
Afghanistan, they were denied because of those restrictions as 
a German citizen.
    Sandy became a U.S. citizen in June 2005, then immediately 
volunteered to deploy to OIF IV, with the 3rd Corp Support 
Command. A personnel specialist, she served as a 
noncommissioned officer in charge of the casualty-tracking cell 
in the logistics support area, Anaconda. On the morning of 
January 16, 2006, Sergeant Kitzinger was returning from her 
guard mount when the camp came under rocket propelled grenade 
(RPG) attack. Caught in the open along with one of her 
soldiers, Sergeant Kitzinger acted quickly and with total 
disregard for her own safety by pulling the soldier away from 
the direct impact area of an incoming RPG. In shielding the 
other soldier from the blast, Sergeant Kitzinger sustained 
hearing loss in her right ear, a severe concussion, and 
injuries to her face. The other soldier was unhurt.
    As a soldier on active Guard Reserve status, Sergeant 
Kitzinger also represents a critical aspect of what our Reserve 
component soldiers provide and that is full-time support to 
enable our Guard and Reserve units to sustain the high 
operational tempo and to support their mobilization activities.
    She is a recipient of the Purple Heart Medal, the 
Meritorious Service Medal and the Combat Action Badge. Sergeant 
Kitzinger.
    Finally, Corporal John Stewart of Huntington, West 
Virginia. He is an active duty soldier and combat medic from 
the 101st Airborne Division. Corporal Stewart was deployed with 
the 1st Brigade Combat Team during both OIF III and OIF IV as 
an infantry scout platoon medic. He participated in more than 
500 missions during those two tours, ranging from route 
clearance to raids on insurgents and strongholds.
    On the night of June 23, 2006, PFC Stewart accompanied his 
platoon in the back of a Bradley fighting vehicle when it was 
struck by an improvised explosive device or IED. The vehicle's 
fuel cell ruptured and flames quickly engulfed all six 
occupants. With clear and decisive thinking, PFC Stewart was 
able to extinguish himself, exit the burning vehicle and begin 
to direct the efforts of other platoon members to extinguish 
the other five occupants.
    After helping to move everyone away from the secondary 
explosions of the still-burning vehicle, he then began triage 
and administered initial aid to the severely burned, barely 
conscious crew members of the Bradley fighting vehicle. Despite 
the shock and concussion of the IED blast and after suffering 
second and third degree burns to his face and hands, PFC 
Stewart refused medical treatment for himself until all other 
casualties were safely aboard the medivac helicopter.
    For his valiant efforts, he earned a Purple Heart Medal, 
the Bronze Star Medal with V-Device for valor, an Army 
Commendation Medal with V-Device in the Combat Medic Badge. 
Corporal Stewart has since returned to his unit after more than 
7 months in Brooke Army Medical Center, where he was both a 
patient and finally served as a division liaison officer for 
the soldiers of the 101st Airborne Division.
    Now these soldiers are why I'm so proud of being associated 
with the United States Army and for having had the opportunity 
to serve.

                      FUTURE COMBAT SYSTEMS (FCS)

    What I'd like to do now--we have a few representations of 
the future combat system. So very briefly, what I'd like to 
show you are the kinds of things we're doing with your support 
and the money that you have given us to support these great 
soldiers with things that will help them do their job.
    First of all, if you look at the screen up here, this young 
man is going to operate a robotic vehicle. Got it going? Now we 
have several hundred of these deployed right now overseas, some 
of them in larger version EOC that allows you to enter caves, 
it allows you to climb steps, it allows you to enter buildings 
and rooms without putting soldiers in harms' way.
    You can see that--why don't you turn around and look at 
some of these better--this provides soldier standoff, 
especially in the kind of environment that we find ourselves 
in, in regular warfare. And as I said, we have larger versions 
of these, several hundred of them already deployed. These are 
the kind of spinouts that we are taking from the future combat 
system and spinning onto the current force that allows the 
current capability to be enhanced. In this picture, now because 
of the bandwidth we have throughout our forces, going all the 
way down to the lowest tactical levels, these pictures now can 
be shown from the top of the organization to the bottom, over 
the bandwidth in the backbone that we have.
    Now likewise, on the table over here are some unattended 
ground sensors and any kind of sensor can be placed in these, 
acoustic, oral seismic, EO, night--whatever you want, IR. 
Again, these signals, which can be distributed all over the 
battle space, are able to be transported over the bandwidth 
that we now have all the way down into vehicles with squads in 
them. They can watch places where we've seen people put up 
mortars. They can watch places where we know they put caches, 
watch road intersections, roads, see people that are trying to 
put in IEDs, et cetera. So again, this is a spinout that we're 
actually involved in right now.
    Finally, down here on the floor--I don't think we're going 
to fly it in here but that's a UAV. It looks like a little beer 
can. You can expect--if somebody might walk out there and just 
move that in the center of the floor, if you wouldn't mind. 
These will be deployed--the money in 2008 will fund these and 
they will be fielded in 2010. We already demonstrated these but 
what is different about these and the tactical UAVs we have 
today is this hovers and it allows you to move this thing and 
land on building tops, hover and look in windows and stare at 
things that--you know, otherwise with something that's got to 
fly, you don't have that staring capability. This is operated 
at the tactical level and there is a small one and then there 
is a larger one, solo man, portable. It starts like a lawnmower 
or something and it's controlled here with these things on a 
joystick that kids today are very comfortable in operating.
    I just wanted to show you this kind of technology is what 
is being spun out of the future, out of the future combat 
system capabilities and where the network is so important 
because it ties all these things together in such a way that 
all the way from a core commander down to the lowest rifleman, 
they can really enhance their ability, their situation on the 
battle space and of course, it enables these great young people 
with capabilities that causes them not have to put themselves 
in harm's way to learn things, as they develop the battle 
space.
    So finally--thank you very much. Finally what I'd like to 
say is that--sir?
    Senator Domenici. General, that one there, does it merely 
direct traffic or it is also itself--does it carry armament 
capability?
    General Schoomaker. Well, we have not armed this. This is 
purely something to look around a corner in an urban 
environment or over a hill or----
    Senator Domenici. To tell somebody what's happening.
    General Schoomaker. But obviously, even not arming this, 
you can put things on this that allow you to pinpoint targets 
that other platforms can put ordinance on a target, like laser 
designation, that kind of thing.
    Senator Domenici. Thank you very much.
    General Schoomaker. There is a lot of capability here to 
network and this is what allows this great combat team and the 
modular force and certainly the future combat system equipped 
team now to kind of cover the kind of battlespace that before 
it would have taken a division to cover. Now you can do it with 
a brigade. In some cases, you can do what a corps used to do in 
terms of the situational awareness and this is very, very 
important to our future and of course, it's one of the big ways 
in which we are transforming this Army into one that is 
relevant for the 21st century and the irregular warfare kind of 
things that we now are doing.
    I'm very proud of the achievements we've had here and your 
continued support is going to allow us to refine these things, 
continue to deploy them and of course, our soldiers will show 
us how to use them to the best advantage.
    Finally, I have many members of the Army staff and the 
Secretary here. I'm not going to introduce them all but they 
provide subject matter expertise. I would like to recognize 
two, though.
    The first is the Director of the Army National Guard, 
Lieutenant General Clyde Vaughn. I want you to know that he is 
here and Lieutenant General Jack Stultz, who is the Chief of 
our Army Reserve.

                             ARMY READINESS

    Again, thank you very much for your support. I continue to 
have my concerns and I stand with Secretary Geren and his 
concerns about the stress that is on our force and about the 
strategic depth of our Army and about the need for us to 
continue to energetically--you know, keep great energy and to 
accelerate these capabilities and accelerate in the 
transformation of the Army so we have the depth to meet the 
requirements.
    Senator Stevens. I'm going to ask all those general 
officers to be listed. We've got General Lovelace, General 
Speakes, General Melcher and General Jackman behind those that 
you've already mentioned, General. We will put their names all 
in the record with your consent.
    General Schoomaker. Major General Boles with the G4 is also 
here. Thank you.
    Senator Inouye. Thank you very much, General and thank you, 
Mr. Secretary and may I now call on Senator Stevens for 
questioning.
    Senator Stevens. One of the things I'd like to learn is how 
close we are to needing the monies that we've got in the 
supplemental. Are you prepared to talk about that, Mr. 
Secretary or General Schoomaker?

            PASSAGE OF THE SUPPLEMENTAL IN A TIMELY FASHION

    Mr. Geren. Yes, sir, I am and we really don't have to 
speculate on what the impact would be if this supplemental does 
not reach us in a timely manner.
    Senator Stevens. What is timely?
    Mr. Geren. We would need it by the end of April, sir and if 
we don't have it by the end of April, we're going to have to 
start pulling levers. We're going to have to start making 
decisions that are going to impact our force, up and down the 
force. Obviously, our----
    Senator Stevens. If we get you money by the end of April, 
that means we'll have to get this to the President by about 
April 15 at the latest because it takes time to get it 
processed and then get you that money through the Department 
released. So you're saying you actually need--the Army actually 
needs money no later than the end of April, right?
    Mr. Geren. Yes, sir, we do and if we don't, we will have to 
start making adjustments. We'll have to start reprogramming in 
order to make sure that we have the resources to fully support 
the force that is in combat. We had this happen last summer. We 
had to start making changes. We had to start reprogramming 
money and the impact was everything from the quality of life of 
our families. We did everything from closing swimming pools in 
the middle of summer at some of these bases to slowing down 
some of our work at our depots. We laid off contractors, we 
laid off temporary employees. We've, around the country, the 
bases felt the impact of that delay because we had to make sure 
we could reprogram our assets to meet the needs of the soldiers 
in the theatre.
    Senator Stevens. Did you do all that just so you could move 
money into the combat area?
    Mr. Geren. Yes, sir. We did a reprogramming to make sure 
that we were able to meet the needs of our soldiers in the 
field and it caused the troops back home and their families to 
pay a price.
    Senator Stevens. General Schoomaker, we're told that you 
want to grow the Army force by 65,000 soldiers over the next 5 
years, is that right?
    General Schoomaker. That is correct, sir. Actually, the 
total Army is around 74,000. Eight thousand in the National 
Guard and a little over 1,000 in the Army Reserve and 65,000 in 
the active component.
    Senator Stevens. Mr. Secretary, do we have a plan to 
adequately house those people and provide the equipment and 
facilities they need within 5 years?
    Mr. Geren. Yes, sir, we do, if you combine what we have in 
the Milcon budget as well as the BRAC funding. We have a plan. 
It's a tightly synchronized plan and delays in either Milcon or 
BRAC make it difficult to accomplish those goals but our budget 
and our plans over the next 5 years will allow us to meet the 
needs of housing those soldiers and their families and 
providing them a quality of life that matches the quality of 
their service. But it's tightly synchronized and any time it 
slips, it requires us to make adjustments. In fact, we are in 
the process of making adjustments now because of the delay in 
the BRAC funding.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Senator Stevens. Under the current BRAC plan, the Army 
proposes to close Walter Reed and to consolidate the functions 
there and with those in Fort Belvoir. Being one that has 
expressed concern already about doing that with the surge that 
is going on right now, does this plan really make sense now? I 
mean, why? That facility is a working facility. It's had some 
problems here about the support buildings but Walter Reed is 
still performing, I think, the basic work for those that are 
seriously injured in this war. Why are we going on with a plan 
to move it before that space is over?
    Mr. Geren. Walter Reed is used, so correctly stated, as a 
critical piece in our care to our soldiers and their families. 
Under the BRAC, we're going to build a better facility at 
Bethesda, a world-class center as well as an additional 
facility at Fort Belvoir. What I would suggest rather than 
reopening BRAC and changing the decision on Walter Reed, that 
we make sure that Walter Reed is fully operational, able to 
deliver a 100-percent quality care up until the moment that the 
Bethesda center and the Belvoir center are open and going. What 
we want to see happen is emphasis on getting those two new 
facilities up and going, getting the investment made and make 
sure they are done on time and in the meantime, make sure that 
the quality of service at Walter Reed is continued, up until 
the moment that we cut the ribbon on those new facilities and 
move the soldiers into them. It's going to require emphasis in 
the Army as well, I think, in the Congress, to make sure that 
those two facilities are expedited and done and ready in time.
    General Schoomaker. Mr. Chairman, if I could add, Walter 
Reed isn't supposed to close until 2011. I share your concerns 
and I think that--my big concern is BRAC is underfunded and if 
we don't robustly fund BRAC and we don't establish the proper 
capability of Bethesda and we don't expand the capability to 
handle the outpatient stuff at Belvoir, we'll find ourselves 
closing Walter Reed and having real issues. For instance, there 
are no barracks at Bethesda that are funded right now. There 
are other issues that are not funded at Bethesda and BRAC that 
exist at Walter Reed.
    The second issue I would tell you is I agree. I think in 
this long war and with the unknowns that are ahead of us that 
we ought to think long and hard before we take capability down, 
capacity down in the medical system because there are certain 
capabilities that military medicine has, especially when you 
start talking about chemical, biological or radiological kinds 
of problems, you start talking about mass casualty problems. 
Until some of the unknowns are known in the future, I would be 
careful about hastily taking things down without making sure 
there is not very robust capacity or you establish what if.
    Senator Stevens. Well, I've taken more than my time 
already, General, but I've got to tell you, when we went over 
and took a look at Aviano and Vicenza, moving the bases from 
Germany to Italy and I look at this process of moving Walter 
Reed to Bethesda and Fort Belvoir and building new facilities 
over at Bethesda, I just question seriously the use of that 
money at a critical time. I really think we ought to be 
concentrating our money on protecting the individuals that are 
over there now. That's just my feeling. This BRAC schedule, to 
move so many people with enormous costs of building bases and 
building things now at a time we're facing just tough choices 
on what to fund for the combat soldier, I think is really 
questionable.
    But let me just say this. This is your last meeting before 
us, General Schoomaker. We thank you for coming back and for 
taking the reins. Was it worth it?
    General Schoomaker. Absolutely, sir.
    Senator Stevens. What do you mean?
    General Schoomaker. There were some days that were a year 
long but you know, the 4 years passed very quickly and it was 
absolutely worth it and I think that we've got the best Army in 
the field today that we've ever had. I think we're on the right 
path. I think with your help that we will have an Army that is 
part of a joint team that is absolutely going to be necessary 
in this century.
    Senator Stevens. People ask us from time to time what we 
think is our greatest accomplishment. I'd just say staying 
alive. What do you think is yours?
    General Schoomaker. Well, staying alive is one of them but 
I personally am very proud of the warrior ethos that we have in 
the Army and how that has emerged in this fight. I just see our 
young men and women living it every day and I'm very, very 
proud of that.
    Senator Stevens. Do you have confidence that General Casey 
can fill your shoes?
    General Schoomaker. Absolutely.
    Senator Stevens. Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much. Senator Dorgan.
    Senator Dorgan. Mr. Secretary and General, thank you very 
much for being here. I want to ask about two things--well, 
first of all, thanks for your service and our thoughts are with 
the soldiers who are in harm's way today.

                MINE RESISTANT AMBUSH PROTECTED VEHICLE

    I want to ask about two things. One, retired Colonel 
Hammonds testified 1 year or so ago in Congress and he said, 
you know, our country is not mobilized for the war. We send 
soldiers to war but our country is not mobilized. We say, put 
on a uniform and go to war and we'll go shopping and his point 
was, in the Second World War, at the end of the Second World 
War, our country mobilized. We were putting out tens of 
thousands of airplanes a year. I mean, we mobilized everything 
and he made a point about the mine-resistant ambush protected 
vehicle, the MRAP. He said, we can produce vehicles that will 
reduce casualties. I've read since that time, to reduce 
casualties by two-thirds. We have the capability to put that 
vehicle out and produce that vehicle but we're buying far too 
few of them. Give your estimate of that. Why would, if we have 
that capability, why would we not do everything to mobilize, to 
move as many of them into the field as is possible?
    General Schoomaker. Well sir, we can build what we can get 
the funds to build. It's strictly an issue of money and as you 
know, we have an unfinanced requirement for the vehicles we've 
asked for to do--over $2 billion for the MRAP vehicle. We 
believe that not only do we need the MRAP immediately to give 
us better protection but that we need to stay on a path to get 
an even better vehicle than the MRAP for the long haul because 
the enemy is going to continue to adapt. We're going to 
continue to see more and more lethal kinds of problems and we 
know that there are technologies and capabilities out there 
that we need to continue to reach for. So I see it as an 
immediate issue with what we're doing with obviously FRAG-KIT 5 
and these kinds of things, with the more mid-term issue of MRAP 
and then I see a real need for us to continue to look deeper 
because this is a problem that's not going to go away.
    Senator Dorgan. But if MRAP would reduce casualties by two-
thirds from roadside bombs, why would we request only 2,500 be 
built? My understanding is that Congress has actually funded 
more than you have requested at this point and the point that 
Colonel Hammonds was making is we just are not mobilized to say 
we're going to do everything we can to get the latest equipment 
in the field post haste.
    General Schoomaker. Well, I will have somebody else speak 
or we'll get for the record but it's my belief that we are not 
fully funded for all 2,500, that we have a shortfall of what?
    Mr. Geren. In this budget, we have funding for 700, in the 
supplemental.
    Senator Dorgan. What did the Army request in their budget 
submission to DOD, for the MRAP?
    Mr. Geren. It was a supplemental funding request. It was 
generated after the budget was submitted and the total 
requirement is about $1 million for each vehicle so for 2,500 
vehicles, we're talking then about----
    Senator Dorgan. Two point five billion dollars.
    Mr. Geren. Two point five billion dollars is what the total 
is.
    Senator Dorgan. I'd like to send some questions and again, 
it gets back to the question of have we mobilized as a country 
to do everything necessary to support those troops? I mean, we 
want to do that. I want to ask one other question, if I might, 
General.
    General Schoomaker. Could I answer the mobilization 
question?
    Senator Dorgan. Yes.

                         MOBILIZING THE NATION

    General Schoomaker. The country is not mobilized. Less than 
one-half of 1 percent of the people are participating in this 
and I absolutely believe that we've got to get people out of 
the spectator stands and onto the field. So it's not just 
mobilizing industry, it's mobilizing people to serve, it's 
mobilizing people's energies in terms of--in all directions. So 
I am absolutely on board with the fact this country is not 
mobilized and I believe this is a very long, serious fight that 
is going to continue to get more and more dangerous and that we 
ought to be paying some attention. But World War II level 
mobilization is not the answer. This is not one of those kinds 
of fights. This is a fight that is going on generationally. So 
we're going to have to have a sustained effort to deal with 
this.
    Senator Dorgan. Well, the fight against terrorists is the 
fight against an enemy that doesn't wear a uniform. I mean, I 
don't disagree with--the terrorist fight is going to go on.
    General Schoomaker. We see future threats already talking 
about adapting these irregular warfare capabilities into their 
conventional forces. This is now something we'll see for this 
next century. This is not just a terrorist fight anymore. Every 
foe we see in the future is now going to employ these methods.

                    UNMANNED AERIAL VEHICLES (UAVS)

    Senator Dorgan. General, when I came to Congress some long 
while ago, I joined Senator Gary Hart and Republicans and 
Democrats that had what was called a Defense Reform Caucus. I 
was very interested in that. One of the things that peaked my 
interest recently is a project in the Army called the Warrior, 
where the Army is building a UAV in this case that will fly at 
25,000 feet for 36 hours, carry sensors, very much like the Air 
Force Predator, carry a couple of missiles, four missiles, I 
guess. I don't understand why we would have two services in the 
Department of Defense, both working on nearly identical 
programs for UAVs to fly at medium or high level. It seems to 
me to be duplicative and my guess is, the research that went 
into it from both services is a duplication of research. Why 
would that not be, at least with respect to that function of a 
UAV--this would be yours, I understand. Why would the one I've 
described not be an Air Force function at 25,000 feet, a nearly 
duplicate system that exists with the Predator that we've 
funded so aggressively?
    General Schoomaker. Well, for the same--first of all, it's 
not duplicative. Our business is in the tactical and 
operational role. The Air Force has got a higher role than 
that. Listen, we have different services, manufacturing 
different weapon systems. They do similar things. We have 
different services, buying different kinds of helicopters. We 
have all kinds of things that go on because there are real 
differences in terms of how these are employed and what's going 
to happen with them. So I personally think that we have sorted 
this out with the Air Force. We have an MOA--a memorandum of 
agreement. We have a joint office out at Nellis Air Force Base 
where we are operating all of the doctrinal themes in how we're 
going to employ this and quite frankly, they are not, as you 
described, duplicative. There may be some similarities in how 
they fly and some other kinds of things but how they're 
connected and what they do is not duplicative.
    Senator Dorgan. It appears to be but I'd be happy to 
receive additional information and I think those of us in 
Congress who are required to appropriate the funding for this, 
I think what we would like is for every service not to want to 
do everything that perhaps we could have one service do 
something, a cross service for the purpose of another service. 
And as I look at the UAV, your point this morning about a 
hovering opportunity here with sensors, I understand that. 
That's ground support. I understand even battlefield tactical 
support for 1,000 feet or 2,500 feet but when you're building a 
UAV to fly at 25,000 feet and we're spending aggressively on 
the Air Force Predator program, I don't have contractors in 
either of these. I'm just asking as somebody who years ago took 
a look at this duplication and said, what on Earth are we doing 
here and I take a look at the UAV issue and wonder, why is the 
Army building a nearly identical program to the Predator and 
calling it the Warrior and wanting to run it yourself. It seems 
to me----
    General Schoomaker. Sir, I think we owe you--we owe you a 
complete lay-down. We'd be glad to do that. We'll get our 
experts over and see if we can't----
    Senator Dorgan. I'd be happy to meet them but I raise the 
question just because it's a question in my mind and we have 
limited resources for nearly unlimited wants in these areas. 
You know, it's tough to meet all of the needs and we certainly 
want to try.
    Well, Mr. Secretary, I didn't ask you a question but thank 
you for your service. Thanks for being here as well.
    Mr. Geren. Thanks a lot.
    Senator Dorgan. General, thank you.
    Senator Inouye. Thank you. Senator Domenici.
    Senator Domenici. Might I first say, Senator, if you don't 
mind and that meeting is set up, would you spread the word--so 
they won't have to do it in every office, could you invite me 
so I could get the same briefing? I think it would be 
worthwhile. I was going to ask the same question. But I thank 
you for asking it.
    Let me talk about--I'm going to submit a whole series of 
questions that I thought I was going to ask you and I'm not.

            WALTER REED BASE REALIGNMENT AND CLOSURE ISSUES

    Senator Domenici. I'm going to talk a minute about the idea 
of building a brand new hospital to take the place of Walter 
Reed. Senator Stevens sort of started talking about this, 
around the edges as to whether we're going to be able to do 
this while we're at war.
    You were answering, General, that in a sense, we're really 
not fully mobilized. We're a country that is kind of doing 
both. We're immobilized here at home and only a little piece of 
our productivity and power is being devoted to the war. But I 
want to tell you, sir, I would really ask for the very best 
minds to be allocated to putting together the plans, 
specifications and implementation for that new hospital. I 
already know it is a dream of a hospital. The Army is looking 
at, saying we don't always get a chance to be first but we are 
building a new hospital at a time when a new hospital is really 
something special. And it has all kinds of gadgets and it will 
be a super, super hospital. I want to urge you and today I want 
to go on record as saying, if you try to do that new hospital 
with our current operational efforts, it won't get done right. 
And I urge that you be very careful and maybe that you hold up 
on that new hospital until you have a much, much bigger ability 
to see daylight. This is going to be a terrible thing to build 
at the same time you're taking care of people and have this war 
going on. Maybe you better just talk a bit. I don't--I'm not--
--
    General Schoomaker. Well, see I don't disagree with 
anything you've said but I think it is really important to 
understand this isn't an Army deal. This whole move of Walter 
Reed to Bethesda was done in the joint cross service group that 
was done under OSD and it was done with all the services that 
are involved. So this isn't the Army doing this by itself. It 
was--all of the reasons for doing it made a lot of sense to the 
joint cross service group and of course, we had our 
representatives on this group but it's not funded to do what it 
said and it's now in law. This is outside of our control right 
now, internally.
    By 2011, the BRAC is supposed to be complete and that's in 
law. So all I'm reporting on is what I have been told and that 
is, is that we have a very aggressive plan. It's not fully 
funded. As you know, we're $2 billion short this year in BRAC 
and we're sitting here 6 months into the fiscal year and still 
without the bill. These are the kind of things that the 
Secretary talked about that really become problematic if we are 
to be able to accomplish what the law is requiring us to do and 
to do it on our back, in trying to mobilize the nation, try to 
run the depots, fight the war and all the other things we're 
trying to do, it's very, very difficult. So we're going to need 
a lot of help and again, I'll just end with this. I am 
concerned that we do it right.
    Senator Domenici. You bet.
    General Schoomaker. And we do it without taking any risk in 
the capacity in our military healthcare system, at a time of 
war, when there are so many uncertainties ahead on this. And 
I'm not suggesting----
    Mr. Geren. We must be sure that we maintain top quality, 
first class medical care at Walter Reed until these other two 
facilities are up and running and ready to go. That's the 
commitment of this administration. The chief pointed out that 
we, because of a number of issues, the 2011 deadline for 
accomplishing BRAC is going to be a tight squeeze. There's no 
doubt about it but our commitment to our soldiers must be that 
we will continue to offer first class care there until such 
time as those facilities are up and going. Those facilities 
will add, as you've described, Senator, capabilities that we 
cannot currently deliver. They will be first class, state-of-
the-art healthcare facilities for our soldiers and their 
families. But the commitment we must make to the soldiers is 
that Walter Reed will continue to offer first class care until 
such time as those are open.
    Senator Domenici. Yes, sir. I see the misunderstanding. I 
don't know what that means but I'm certainly not arguing 
against the hospital. I'm arguing--trying to make the point 
that somehow, you have to have super, super talent allocated to 
this kind of proposition or the tradeoffs won't occur and 
you'll have half a half and half a half and what will happen is 
nothing. It won't work. So we'll get cut short and you'll be up 
here testifying that we're almost there but the hospital isn't 
open.
    Mr. Geren. Yes, sir.
    Senator Domenici. Right?
    Mr. Geren. I appreciate that.
    Senator Domenici. And I'm saying to the chairman, that's 
going to be the problem. Thank you for giving me so much time. 
I yield.
    Senator Inouye. I thank you very much. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Senator Inouye. Before you proceed, I should note that 
there is a vote pending now.

                        ARMY OUTPATIENT SERVICES

    Senator Murray. Okay. Thank you, Mr. Chairman and thank you 
to both of you for being here and I appreciate, Mr. Secretary, 
your addressing at the top, the concerns about Walter Reed. It 
is deeper than painting walls and moving people. It is about 
the bureaucracy that they've been caught in and I heard your 
comments about mobilizing, the importance to mobilize. Well, if 
we want to mobilize, we better make sure those families are 
taken care of and they don't feel that they get lost in this 
system and that's underlying all of this. I know it's deeper 
than Walter Reed. Newspaper articles in my home State listed 
concerns at Fort Lewis and Madigan Army Medical Center last 
week and we expect these to be addressed by letting us know 
what the costs are in reality, in real terms, so we are able to 
provide the funds to make sure that the people get the support 
they need, get the counselors they need, get all of the things 
that are so important in order to take care of them.
    I will say, the good news, Mr. Chairman, is that Generals 
Dubic and Baxter from Fort Lewis and Madigan, have contacted me 
in the last few days to let me know they are taking some steps 
to deal with this paperwork issue that they've been facing. 
They're making sure that all of their soldiers get their own 
medical records for the first time. They are changing the 
medical board process from 3 days to 10 days so that people 
have some more time to be able to make a very critical decision 
about their life, and they are focusing on retraining some 
caseworkers. Those are initial steps and we need to continue 
them every step of the way.

          RETRIBUTION FOR TALKING OUTSIDE THE CHAIN OF COMMAND

    I wanted to start with you, Secretary Geren. I asked 
General Kiley last week but we are hearing from many, many 
soldiers in our State who are very concerned that if they talk 
to us about the issues that they're facing, that there will be 
some kind of retribution. I got his word last week but I want 
to raise it with you as well because we need to have these 
facts in order for us to make sure we are doing what we need to 
do in order to make sure these families are taken care of. I 
want your word that there will be no retribution to any service 
member that steps forward to any of us or within the system, 
should they come forward with a complaint.
    Mr. Geren. Senator, I can assure you, any form of 
retribution, anything that discourages a soldier or family from 
coming forward and sharing their concerns with us, any form of 
retribution or discouragement will not be tolerated.
    One of the steps we're taking that I think will help in 
that regard, because I've heard the same thing. I've had some 
nurses and I've had some family members tell me that there was 
a perception that there would be retribution if people came 
forward. That's absolutely unacceptable but this 800-number 
that we're putting in that is not going to some bureaucracy 
somewhere, it's going to come to the Army Operations Center, is 
going to give soldiers the opportunity to come straight into 
the Army center and share their concerns. If they want to do it 
anonymously, we'll protect their confidentiality. But we're 
going to----
    Senator Murray. I appreciate that and I want you to get the 
word out and I want you to know we'll take it very seriously if 
there is any retribution that we hear about. So I hope that you 
get that word out to everybody.
    Mr. Geren. Can I say one thing on that point? General 
Schoomaker, Dr. Eric Schoomaker that took over the hospital the 
Saturday before last--I was out there with him the Sunday, the 
day after he took over and in speaking to the staff and in 
speaking to some of soldiers that we're dealing directly with; 
the outpatient soldiers--he made the point on the very front 
end of this conversation. I want the soldiers to talk 
confidentially with me, with you and if there is any 
retribution, it's absolutely unacceptable. From his first day 
on the job, he made that clear at Walter Reed and I can assure 
you, that's the position of your Army leadership.

                           DISABILITY RATINGS

    Senator Murray. And we need it to be system wide. My time 
is short so let me just ask you, Secretary Geren, I am very 
concerned about the PEB ratings for the Army, that only 4 
percent of those have a disability rating of 30 percent or 
higher. That's very different than the other services and I 
want a short answer from you because I have another important 
question I want to get to. But why is it that the Army appears 
to have an artificially low incident of 30 percent disability 
ratings?
    Mr. Geren. I can't answer that question for you right now 
but I'd raise the same question, as has Chief Schoomaker. We 
became aware of that disparity recently and it's part of our 
review. We're looking at the entire disability rating system, 
scrubbing it from top to bottom and that's one of our questions 
and we're going to get an answer.
    Senator Murray. Well, I think that is absolutely critical 
because what I'm hearing from a lot of people on the ground is 
that they believe those disability ratings are artificially low 
because of the encouragement to try and keep people in the 
military. When they have an injury, it's important that we take 
care of them and their family and not rate those artificially 
low. So I expect to have an answer back from that.

          ALTERED MEDICAL EVALUATIONS IN 3RD INFANTRY DIVISION

    Related to that, I don't know if you saw--I'm sure you saw 
an article that ran in Salon this week about soldiers being 
sent back to battle in Iraq even though a medical evaluation 
had listed them as medically unfit. I'm going to read it to 
you. It said, ``as the military scrambles to pour more soldiers 
into Iraq, a unit of the Army's 3rd Infantry Division at Fort 
Benning is to decline troops with serious injuries and other 
medical problems, including GI's who doctors have said are 
medically unfit for battle. Some are too injured to wear their 
body armor, according to medical records.'' The story goes on 
to say that some soldiers had their medical evaluations altered 
although their medical conditions had not changed. Is the Army 
in the practice of doctoring health records just so we can 
deploy more soldiers overseas?
    Mr. Geren. If anyone is doing that, it's against 
regulation. I am familiar with Salon.com article as well as the 
allegations in it. There was a soldier who spoke on the record 
there. If these allegations are serious and allegation of that 
sort, I can assure you, we're going to follow up on it and 
investigate. General Schoomaker, do you want to speak to that?
    General Schoomaker. I just--I don't know of a commander 
that would want to take somebody with them in their unit that 
wasn't capable of doing the full job. To me, if that's going 
on, it's wrong.
    Senator Murray. I agree and I hope that we can get both of 
you to take a serious look at that and to report back to this 
subcommittee and Congress because that is a very serious issue, 
if soldiers are going into harm's way who can't wear a helmet 
for more than an hour or can't wear body gear or are unfit for 
conditions, have post-traumatic stress syndrome or whatever 
their medical evaluation is. We need to make sure that that is 
not happening, and I hope we can get a report back from both of 
you expeditiously.
    Mr. Geren. You certainly will. I cannot speak to the truth 
of those allegations but we take every allegation seriously and 
we'll check it out fully, I assure and we'll get back to you.
    [The information follows:]

        Altered Medical Evaluations in the 3rd Infantry Division

    On March 13, 2007, the U.S. Army Forces Command (FORSCOM) 
Inspector General (IG) received an Inspector General Action 
Request from the Department of the Army IG (DAIG). The FORSCOM 
IG opened a case that same day, and initiated an inquiry. DAIG 
will retain oversight of the inquiry, which is ongoing. When 
the inquiry is complete, the Army will provide you with the 
final report.

    Senator Murray. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you. Mr. Secretary, I believe you're 
going to take control of the problems at Walter Reed, with 
other help and I believe it will be a good outcome. I'm 
counting on that.
    General Schoomaker, we all thank you for your service.
    General Schoomaker. Thank you, sir.
    Senator Shelby. And what you've done. I also want to thank 
you for recognizing these three soldiers here today. We all 
respect them and we salute them. One of them happens to be 
Sergeant James from my hometown, Tuscaloosa, Alabama and that 
makes us all proud and then proud some more.
    Unmanned aerial vehicles--it was brought up just a minute 
ago. General Schoomaker, 2 years ago, the Air Force made a 
major push to become the executive agent over all Department of 
Defense unmanned aerial vehicles. Eventually, the executive 
agency idea was abandoned and instead, the Department of 
Defense established a Joint UAV Center for Excellence as well 
as several service-specific UAV Centers for Excellence because 
we know there is a difference between the services do here.
    To me, the mere concept of the executive agencies for UAVs 
is problematic. Having an executive agent for UAVs carries the 
inherent risk that the service designated, in this case, the 
Air Force, would not have the capability to effectively balance 
and manage something you mentioned, tactical and strategic 
platforms. In addition, setting up a single authority for all 
service UAVs is the unmanned equivalent of establishing an 
executive agent for all manned aircraft. I think it is an 
impossible feat.
    Now, it is my understanding that the Air Force has recently 
made another move to try to establish themselves as executive 
agent over UAVs, this time over medium and high altitude UAVs, 
including tactical. On March 5, 2007, the Air Force Chief of 
Staff, General Mosley, issued a memo outlining their interest 
in establishing this, effectively giving themselves procurement 
authority and operational control over any UAV that flies above 
3,500 feet. That's troubling to me and it should be for the 
Army. Do you have any thoughts in that?
    General Schoomaker. Well, yes, I think it's a problem. 
That's what I just said. I was unaware of his memo but I can 
tell you that he's the third Air Force Chief of Staff I've 
dealt with on that.
    Senator Shelby. Absolutely.
    General Schoomaker. And we've had numerous discussions in 
the tank, in the JCS tank, because the Navy has equities in 
this as well.
    Senator Shelby. That's right.
    General Schoomaker. The Army has got equities, the Air 
Force has got equities and it isn't a simple solution. I think 
you're exactly right. I mean, we don't have a single executive 
agent for manned aircraft. We don't have a single executive 
agent for rotary aircraft. There are too many complexities in 
this to do it that simplistically. So my view is, is the 
memorandum of understanding, an agreement that we have today, 
is an effective way to approach this problem.
    Senator Shelby. It's working is it not?
    General Schoomaker. It's working and we have an Army 
commander on an Air Force installation out in Nevada that is 
working it and the services will rotate that commandership in 
terms of how we are working the doctrine and the tactics, 
techniques and procedures for these UAVs. But we have a huge 
need in the United States Army in our modular force. We have 
UAVs down to the lowest tactical level and some of these UAVs 
are going to fly in airspace that you just described. We fly 
helicopters about 3,500 feet. The Air Force flies fixed wing 
below 500 feet. So it's just not--it's not the way we ought to 
go about doing this and I think that we've come up with an 
effective fix and I think we'll go back through, if he is 
approaching it this way and it will stand the test of time 
again, that's it's a more complex issue.
    Senator Shelby. What we're doing works. The Army needs 
control. They need some procurement authority here too, do they 
not?
    General Schoomaker. And we do. I mean, we have the 
authority over our own programs.
    Senator Shelby. Mr. Secretary, you'll weigh on this, I'm 
sure.
    Mr. Geren. Yes, sir. I agree with what the chief has said.
    Senator Shelby. Thank you, Mr. Chairman. I'm going to try 
to get a vote.
    Senator Stevens [presiding]. The chairman asks that we 
stand in recess until the rest of the subcommittee gets back. 
How about explaining some of these things to me?
    Senator Inouye. Sorry for this interruption but may I now 
recognize Senator Mikulski?
    Senator Mikulski. Thank you very much, Mr. Chairman and we 
need to again welcome the Army leadership in the most cordial 
way. General Schoomaker, I want to express my gratitude for 
your service.
    General Schoomaker. Thank you, ma'am.
    Senator Mikulski. And we wish you well. I hope you stay 
engaged in this advocacy, particularly of the returning soldier 
and what's going to happen to our military. We are relieved 
that your brother, Eric, has taken over Walter Reed. I know him 
from his work at Fort Detrick and we look forward to, along 
with you, this family style of candor. I think if we can all be 
kind of open about the reality of the situation, we can get to 
it.
    Mr. Secretary, we know you're trying to move in a good 
step. I would like to comment very briefly that we appreciate 
the fact that Major General Gale Pollock is the Acting Surgeon 
General. I believe she is the first woman ever to be the 
Surgeon General but we've met with General Pollock and the 
other women nurses, the leadership, about the nursing shortage. 
We could talk all morning just about that. But we're pleased 
that for now, you've got the right people to get to where we 
need to go with Army medical care.

                      BASE REALIGNMENT AND CLOSURE

    So let me get right to my questions. I know that Ranking 
Member Stevens has raised the question about BRAC. I think we 
have to be honest and take a look about that. Others have 
raised the flashing yellow lights about whether there is enough 
funding to do this, move to Belvoir and Naval Bethesda and 
also, we can't forget that there is a 50-bed hospital at 
Andrews, which is the only one with an absolutely secure 
facility if we ever had some nature of an attack. So I think 
BRAC might have to be looked at but I don't think that's the 
most important thing. You know, the facilities are important 
but what I'm concerned about is two things: the medical care 
and the disability compensation.

                           DISABILITY RATINGS

    And on this, I'll turn to the Secretary. We're very 
concerned about the disability benefit situation. All of the 
men and women who've been injured want to hit 30 percent. Now, 
why? They want to hit 30 percent so they can get TRICARE. They 
are terrified that if they go into the Veterans Administration 
(VA), it will be even another backlog and also that they will 
wither away because of their chronic, long-term care needs. So 
that's why there is this desire to hit 30 percent and maybe 
that's the way to do it. I don't know. We need to hear from 
you.
    The second thing is, you know the amount of backlog. I 
don't need to repeat it. You have the data. But what I'm 
concerned about is the fact that the protocols used to evaluate 
the men and women are dated, are absolutely dated. We have new 
types of injuries, particularly the TBI or various 
manifestations of it, other grim and ghoulish things that have 
happened to them. So my question is, that while Dole and 
Shalala are looking at one aspect of this crisis, can you tell 
me where you are in taking a look at really, truly getting your 
arms around the disability benefit structure, not only for the 
Army but for the marines and the Air Force as well. But you're 
at 4 percent. That's a flashing light. Senator Murray raised 
it. But you see, what I'm worried about--the backlog and then 
the fact that when they are evaluated, what are your protocols 
and how dated are they? Can you tell us where they are because 
that's why we fear the under-evaluation of the seriousness of 
the disability situation.
    Mr. Geren. We're looking at the disability system from top 
to bottom. The Army IG that completed his study just recently 
is a good first step. You mentioned the protocols. There is no 
question that those need to be reviewed and updated, in light 
of not only changes in the healthcare but changes in the type 
of injuries that we are experiencing now. The TBIs you 
mentioned. Some of the other mental health problems that we 
have, we need to look at the protocols to make sure that those 
are properly considered. But our first step was this IG report 
and the IG has identified that regulations are out of date as 
far as our disability population. Our standards--we're falling 
behind our own timeliness standards. We do not have 
standardized and up to date training. Our quality controls are 
not uniform across the system and we also don't have the type 
of technology to properly track the soldiers as they move 
through the system.

           SEAMLESS TRANSITION TO THE VETERANS ADMINISTRATION

    I met with General Pollock yesterday, her second day on the 
job and went over this IG report and also, she assured me of 
her commitment to take on this whole issue of disability. You 
mentioned the VA. The long-term solution to this problem is not 
an Army solution, not a DOD solution, frankly. We're going to 
have to look across the Government and at the end of the day, 
if we're going to address this as we should and care for those 
who will have borne the battle properly, as they deserve, we're 
going to have to look across the Government and the final 
solution is going to involve State government as well because 
they have many veterans programs. And the volunteers--using the 
VSOs more effectively than we currently use them.
    But we pledge to you----
    Senator Mikulski. Well, Mr. Secretary, you know and we 
appreciate the volunteer effort. I know that there are some 
stunning volunteer efforts from Walter Reed to my own 
community. But the fact is, we're concerned number one, about 
the fact of once--if they reach a certain disability, they'll 
get TRICARE for life and that's what they want. I mean, that's 
what the majority would prefer because it enables them to, if 
you don't have the availability for a military hospital, 
they'll have availability where TRICARE is contracted with the 
private sector. So in my own State, not only do we have Naval 
Bethesda but you also have Hopkins and University of Maryland 
as part of TRICARE. So that's one of the reasons why the 
military want to be in TRICARE. Then there is going to be the 
overwhelming cost of this. I mean, we're heading to the largest 
workmen's compensation system that this country has ever seen, 
other than World War II. So I think we've really got to be into 
this, to move the claims and then also look at what is the role 
for the Army in TRICARE for life as well as veterans. Are you 
with me? This takes me to another question.
    I peppered General Kiley with a series of questions about 
the 50-year care. This goes right to what you are saying about 
VA. I don't dispute that. But he hadn't even met with VA. He 
hadn't even met with VA about the seamless transition of our 
men and women who will go into the VA system. Remember when 
they're evaluated--they come to a fork in the road. They're 
either in TRICARE or they're in VA. There's no electronic--
there is not even an electronic record system. Then they have 
to stand in another line for VA. Can you tell then, how you're 
going ahead with VA, because they have a 700,000 person 
backlog?
    Mr. Geren. Well, our relationship, our working relationship 
with the VA is not what it should be when it comes to working 
with these wounded soldiers and their families, absolutely not. 
It's not where it needs to be. Not only is the Army committed 
to working that but Secretary Gates has--that is a priority for 
him. He's working with Secretary Nicholson. We recognize that 
there is a problem there and this administration recognizes 
there is a problem there. I can't sit before you today and tell 
you I know what the solution is but I can assure you that we 
recognize a problem and General Eric Schoomaker, Dr. Schoomaker 
in my first meeting with him, that was one of the issues that 
he raised also, was the issue with how do we manage the 
transition to the VA better and we don't have the answer today. 
But I can assure you, we're committed to working through this 
problem. We're taking it from the bottom up. We're going to 
deal with the bureaucracy issue, the backlog issue. We're 
committed to doing a better job with VA.
    This new deputy commanding general, this one star that is a 
new office added at Walter Reed, his job--and he's a combat 
veteran. He understands what these soldiers have gone through. 
His job is to be the bureaucracy buster--advocate on behalf of 
these soldiers and cut through this bureaucracy that is 
strangling the system. That old of a bureaucracy is a fight 
they should not have to fight.
    Senator Mikulski. I think we're in absolute alignment but 
my question is, when do you see your reports in and how do you 
see action being taken?
    Mr. Geren. We're making corrections every day. We're fixing 
things as we go. I will tell you, if I were--the relationship 
with the VA is something that is not going to change overnight. 
Dr. Gates, Secretary Gates, his work with the VA is going to be 
an important part of that. I know it is high on the President's 
agenda as well. But we are not waiting for any of these final 
reports, whether it is the Dole/Shalala or even the one that we 
have, Secretary West and Secretary Marsh. We are identifying 
problems and fixing them every day and I can assure you, 
General Schoomaker is doing that.
    Senator Mikulski. I can't tell you how much I like hearing 
that because rather than waiting for a report, you're 
addressing that. I think that's outstanding. I would just hope 
that our subcommittee, through part of its oversight, could 
meet with you again and have an ongoing conversation because--
as we look at the 2008 while we're looking at the supplemental 
now, because again--I know my time is up but we have to think 
about this as 50 years. It's what I said to General Kiley. 
These men and women are now in their twenties. If you've lost 
an arm, you have TBI, you're into a 50-year situation, both to 
manage your care and your outpatient care. These will be 
chronic care situations. Some will need assisted living. Some 
will need assistance with living. Then we haven't even talked 
about the trauma to the spouse and the children. We've got to 
be treating both the warrior and the family and I know General 
Pollock will speak to that. I think the nurses as case manager 
is--just listen to General Pollock. She has lots of excellent 
ideas and she'll tell them to you as well. I think we're clear 
about that.
    But you see, we've got to look at the 50 years, both their 
compensation, then their care and then how we're going to help 
the families get through this.
    Mr. Geren. Yes, Senator, I couldn't agree more. We have a 
commitment as a Nation to--President Lincoln said it best--a 
commitment to those who have borne the battle, his widow and 
his orphan. That is a moral commitment that we as a Nation have 
to every one of those soldiers and their families and we've got 
to stand behind them.
    Senator Mikulski. Okay. Thank you.
    Senator Inouye. Thank you very much. General Schoomaker, 
listening to your introduction of the three brave soldiers and 
their citations, I would believe that they are deserving of at 
least a Silver Star. Do you have any influence?
    General Schoomaker. Are you saying, are you influencing me?
    Well, sir, you know how the system works and we have to 
work within that and I'd be glad to see them wear the Silver 
Star. I just think they are real heroes. But we work within the 
rules.
    Senator Inouye. To the soldiers, the applause should 
indicate to you how much we admire you and how much we are 
grateful to you. The subcommittee is very grateful for your 
service. Thank you very much.
    I don't want to get involved in the Walter Reed matter but 
I'd like to make a little observation. In all of the furor in 
the front pages, I don't recall reading anything about 
criticisms of surgical and medical service at Walter Reed. I 
think we should note that. Most if not all of the criticism 
came about as a result of Building 18, the mold, the insects 
and such. But no one has ever complained about surgical and 
medical treatment and I think we should note that and express 
our gratitude to the men and women who serve our soldiers 
there.

                            ARMY RECRUITING

    Mr. Secretary, we are now predicting a shortage of troops 
and we are beginning a recruiting drive. DOD sets a recruiting 
quality benchmark and the benchmark says 90 percent of the 
recruits should be high school graduates or men and women who 
have high school diplomas but in fiscal year 2006, we came down 
to 81 percent. We also have increased and doubled the use of 
moral waivers. Are you concerned about this drop in quality, 
the quality set up by your office?
    Mr. Geren. The quality of our force that we have today is 
excellent. We have changed some of the recruiting guidelines in 
order to better meet the demographics of the population we're 
recruiting in. As we stand here today, only one-third of all 
the young men in the age of 17 to 25 are eligible to join the 
United States Army. We have made some changes in the guidelines 
but our Army keeps a close watch on the quality of the force 
and the quality of the force has not gone down. We have 
excellent soldiers from entry level all the way up through 
officer level and we keep a close eye on it. The leadership of 
the Army watches the recruiting numbers. They watch the 
retention numbers, looks at the quality of the force and the 
force that we have today is up to the high standards that you 
expect and we expect but we're going to keep a close eye on it 
and ensure that we maintain those standards.
    We've met our recruiting goals for the active component for 
21 months in a row. The Guard has developed some very 
innovative approaches to recruiting that I think that the 
active component can learn from and we're going to learn from 
them, some best practices. We continue to do better in 
recruiting. We're looking at ways to do better. We're targeting 
certain areas where we've got needs but I can assure you, the 
quality of the forces are a high priority and we're going to 
keep a close eye on it. I think General Schoomaker can also 
speak to the quality and put it in an historical perspective.
    Senator Inouye. Please do.
    General Schoomaker. Sir, I think we've got the most 
experienced, highest quality force that we've ever put on a 
battlefield and I often go back and say, look at this thing in 
a broader context. The laws of the land, the law of the United 
States of America allows us to go to 20 percent CAT-4s. Twenty 
percent. We're below 4 percent CAT-4s. The law of the land 
allows us to go to 65 percent high school graduates. You just 
said we were at 81 percent. Our goal is to go to 90 percent.
    I think back to 1980. We were at 56 percent in 1980, CAT-
4s, CAT-3 and below, at 56 percent in 1980. I mean, the quality 
of this force and experience of this force is extraordinary and 
yes, I would be concerned about any trend that indicates as you 
said but I think we're talking about very marginal kinds of 
things right now and the demonstrated performance of these 
soldiers is extraordinary.
    The second thing is we watch our attrition very carefully. 
We're seeing right now, although we've made the basic training, 
initial entry training, by far--by several orders of magnitude 
more difficult than it was 3 or 4 years ago, we see our 
attrition now tailing lower than it's ever been and we're 
following those soldiers in the force and we see the same thing 
in the force. The soldiers that are training are very low in 
that. But commanders still have the same problems they've 
always had and that is, if soldiers don't perform, they have 
procedures in which they can remove the soldiers from the 
force. And that's why these attrition figures are important to 
us.
    So I honestly believe that we are fielding a very, very 
high quality force, that these young men and women are just 
extraordinary and what Secretary Geren just said, when less 
than 3 out of 10 young men between the ages of 17 and 24, in 
this Nation today, can qualify to join the Armed Forces, we 
have a bigger problem and I think it's extraordinary that we 
are getting the quality force that we do. In fact, about 15 
percent of that category of people provides about 49 percent of 
all of our Army recruits. I mean, it's pretty extraordinary and 
I would remind everybody, when you look at active Guard and 
Reserve, we are recruiting every year, more soldiers every year 
than the entire Marine Corps is--big. We're recruiting more 
soldiers every year than the Navy, the Marine Corps, the Air 
Force and we're getting very high quality folks. So I think we 
need to keep our eye on it. I'm sorry to talk so long about it 
but it is a very important piece of it. I think we ought to be 
concerned about it. We ought to guard it very carefully but I 
think we're a long way from having to set our hair on fire over 
it.
    Senator Inouye. Well, I thank you very much for your most 
reassuring response. The Army is now predicting a shortage of 
3,700 career officers for the next fiscal year. Are you 
concerned?
    General Schoomaker. Well, of course. But again, let's put 
this in context. We started this fight what? Five, six years 
ago and we were about 5,000 captains short in the United States 
Army, when this started and largely because--you know, the Army 
today is only 40 percent the size it was during the cold war. 
So when you draw down what happened was, to manage the force, 
we underassessed lieutenants and that level is passing through 
the system now and--well, now it's the major level. So we're 
seeing that go through. At the same time as we're growing this 
Army, creating more brigades, we're creating more requirements 
for captains and majors and lieutenant colonels and so where we 
started in the hole, we've now also created a larger demand. We 
agreed to see ourselves short for quite some time and one of 
the reasons why we are accelerating promotions of those that 
are high performers, moving that promotion in on ranks, we've 
now moved majors back to 10 years, for instance, from 11, which 
is consistent with the other services. Captains we're promoting 
at the 38 month mark now, back from a 42 month mark, so we're 
doing things that we have to, to appropriately manage the 
force.
    I might remind you, I came in during the Vietnam era. You 
were a second lieutenant for 1 year. You were a first 
lieutenant for 1 year. You were a captain in 2 years. One of 
the field grade officers in the first battalion I joined made 
major in 5\1/2\ years. We're not going there. We were making 
staff sergeants in 6 months, during that period, through what 
used to be called a shake and bake program. We're not going in 
that direction. We are carefully managing this and making sure 
that the education and the training and all the rest of it is 
properly managed. But we do have a challenge and it's one that 
I think is directly related to downsizing the force to 40 
percent of its previous size and now trying to grow a force at 
war, which is a little bit like trying to build an airplane 
while it's flying. It's a pretty touch act. I hope that's 
useful because that's my answer.

                             ARMY READINESS

    Senator Inouye. In a way, Mr. Secretary, we are constantly 
told that our readiness is being endangered or diminished 
because of the damage and what adequate equipment the Army has 
to continually use. Now you're asking for, I think, $24 
billion. Is that sufficient?
    Mr. Geren. We are able to meet our immediate readiness 
investment goals with that amount of money. That's what we have 
in the budget. It's only a piece of our total investment in 
readiness and reset. You all have helped us last year with the 
$17 billion we are investing in reset and making sure we get 
the equipment ready, not only for the troops that are deployed 
but the troops here at home. But we've got readiness 
challenges. We're committed to full spectrum readiness and 
we've got to, as an Army, got to continue to invest if we're 
going to achieve our goals in that area. Every soldier that 
crosses the wire is prepared and ready for this fight. In order 
to make sure that they are ready in combat, we are having to--
it's putting a burden on our non-deployed forces and we've got 
to do more in investing in our non-deployed forces and 
investing in our troops back home. Right now, again, I want to 
assure that the soldiers we send to battle are ready for war. 
They are ready for the job we're asking them to do. They are 
the best led, best trained and best equipped but we have to do 
a better job in investing in the folks that are non-deployed. 
The tempo that we're subjecting the soldiers to, the rate of 
deployment--we have got a lot of issues that are putting a 
tremendous stress on the force and there is more we need to do. 
In a way, General, do you concur?
    General Schoomaker. Absolutely. I think I've never, in my 
entire years of service, I've never seen an Army in the field 
as well equipped, led, trained and experienced as this one but 
I'm very, very concerned about the price we're paying on the 
non-deployed forces and I've made this very clear. I've 
testified to this and of course, if we were in a closed 
session, I could be very specific about what my concerns are 
but I think we ought to be very concerned about the readiness 
and the strategic gap that we have in the United States Army 
today when you take a look at the strategic situation we face 
today. I have no concerns about what we're deploying.

                      SOLDIER PROTECTIVE EQUIPMENT

    Senator Inouye. Recently I read a report issued by your 
office, General, which amazed me that in World War II, our 
combat soldiers wore uniforms, steel helmet, boots, rifle, the 
works--to go into combat and the cost in today's dollars, $175. 
The men that you are now commanding serving in Iraq, going into 
combat, have gear that costs $17,000, is that correct?
    General Schoomaker. That is correct and, in fact, depending 
on where you look, some of them are equipped over $20,000 as an 
individual. It was about $170-something back in World War II. 
In Vietnam, we were putting around $1,500 on a soldier and 
today, we're putting upwards of $15,000 to $20,000 on a soldier 
and we have to because of the kinds of things that we face on 
the battlefield today.
    Senator Inouye. Not too long ago, I watched an exercise on 
training and I swear, these GIs were carrying at least 100 
pounds. Is that the way they go into combat?
    General Schoomaker. I would say that people are routinely 
carrying 70 to 100 pounds as they move to combat. When they are 
actually in combat, in some cases, they are fighting a little 
bit lighter than that but if you take the body armor that a 
soldier wears today, the ammunition that he has and his water, 
just that alone, is up there over 50 pounds, 50, 60, 70 pounds.
    Senator Inouye. Now we're talking about adding on to the 
body armor to cover the elbows and the knees and such. That's 
going to be heavier yet. Are we looking for lighter materials?
    General Schoomaker. Absolutely. There are efforts going on 
in soldier systems looking at composites and all kinds of 
things, to include some other additional technologies. One of 
the things FCS does is allow soldiers to remain mounted in 
collective protection longer and it takes technology to start 
trading off heavy armor for other kinds of active protection 
that protects soldiers. So that's why these technologies are so 
important to us as we move forward, because we're running out 
of physics here in terms of being able to stop the kind of 
lethal munitions that are on the battlefield with just getting 
thicker armor.

                            STRYKER BRIGADE

    Senator Inouye. We have been receiving very complimentary 
reports on the performance of the Stryker brigades in Iraq and 
we just learned the National Guard is requesting two Stryker 
brigades. Are you in favor of that, Mr. Secretary?
    Mr. Geren. I was not aware that they asked for an 
additional one. The current plan is for the one Stryker Brigade 
in the National Guard but let me say, the Stryker--I think when 
I came to the Pentagon in 2001, all the questions that were in 
the air about the Stryker, whether or not it was the right 
vehicle, whether or not it was going to live up to its 
expectations. This war--the Stryker has certainly proven its 
worth. It is the workhorse of this war effort and it is an area 
where we should continue to invest and as far as that specific 
request, I've not had a chance to look at it.
    As I said at the beginning of my remarks, we're one Army 
now, total force concept and we're calling on the Guard and 
Reserve to step up to the front lines just like the active duty 
does and we have got to make the appropriate investment in them 
and I believe we are. As far as that specific request, I can't 
speak to it. I don't know if General Schoomaker may.
    General Schoomaker. I just looked at this tough son of a 
gun sitting behind right now, Lieutenant General Vaughn and he 
shook his head no. I've never heard of a request for a second 
Stryker but I can tell you, the Stryker vehicle, as a vehicle, 
has demonstrated it is one of the most extraordinarily capable 
vehicles we've got and that's one of the reasons why our 
Special Operations forces are now asking us for Strykers.
    Second, the Stryker concept brigade and the kinds of things 
that it is able to do has demonstrated its worth a great deal. 
As we move forward here with the transformation of the Army, I 
think Strykers are going to play a big role but what we're 
really doing with this kind of capability is as we go to FCS, 
as we go beyond Stryker in terms of the kinds of capabilities 
that it brings.
    Senator Inouye. I have about 2 hours more of questions but 
I would like to submit them to you, General Schoomaker, for 
your responses.
    Senator Stevens. What do you mean, go beyond Stryker? What 
are you talking about?
    General Schoomaker. I'm talking about taking all of the 
goodness of Stryker and providing a lighter, more lethal, more 
capable system through the future combat system capabilities we 
have. For instance, Stryker right now has done some of the 
things that conceptually that we want to do in FCS. It's 
reduced to a more common platform. It has provided speed and 
lethality and situational awareness and all the enabling of 
these technologies. The problem is, we need to have a better-
protected vehicle so we need to go to active protection. We 
need other things that allow, if a Stryker-like vehicle of that 
weight to be able to survive on the future battlefield. We also 
need to get more commonality of these platforms so we can 
reduce the number of mechanics, reduce the number of tools and 
reduce the difference in repair parts on a common platform. We 
need to go to more fuel-efficient vehicles that generate their 
own electricity and generate their own water and get greater 
fuel economy. We want to get a vehicle that is more 
strategically deployable in terms of its cube and weight. So 
all of these are where we're going with the future combat 
system and it will take all of the goodness of Stryker and 
improve upon it.
    The other thing is, we end up trading off. For instance, if 
you take a look at a Stryker Brigade, it's about 900 soldiers 
smaller than the modular brigade is, yet it has twice the 
number of infantrymen and squads and it's because we have taken 
all of the efficiencies and things like crew-served weapons and 
mechanics and converted those spaces into actual infantry 
spaces that give us the kind of things we need on the 
battlefield. So that's what I mean by going beyond Stryker. It 
improves upon the concept and brings better technologies to 
bear for much more lethal battlefields that we will face in the 
future.
    Senator Stevens. And who is for certain----
    General Schoomaker. We're certain about the amount. This is 
what all this is part of.
    Senator Stevens. Who is for certain the modernization of 
Stryker?
    General Schoomaker. We have. Every Stryker Brigade we feel 
that we've gotten block upgrades on.
    General Speakes. Sir, specific examples of--Stryker is 
first what we call slag armor.
    Senator Stevens. I'm saying you have the money here. Who is 
going to do it?
    General Speakes. Sir, it's funded. We have it as part of 
the program. As General Schoomaker has said, Strykers are 
absolutely essential to our concept of how we support and 
execute this war. Thanks to your generosity, what we now have 
is built-in product improvements in terms of weapon systems, 
the quality of stabilization on the weapon systems, the quality 
of protection and situational awareness on that vehicle.
    Senator Stevens. You'll be able to develop the follow-on 
Strykers with the money in this bill?
    General Speakes. Yes, sir. We will.
    Senator Stevens. You don't need any more money?
    General Speakes. At this point, we're adequately funded for 
the improvements we need. We will continue to improve this 
system and ask for more money if we see a need.
    Senator Stevens. Thank you. Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. I would like to thank the Secretary and 
General. Thank you for your service, General. But something 
tells me we will see more of you here.
    Senator Stevens. When do you leave, General?
    General Schoomaker. Sir?
    Senator Stevens. When do you step down?
    General Schoomaker. In about 3 weeks, sir, the 10th of 
April.
    Senator Stevens. Before you go, expect a call from us.
    General Schoomaker. All right, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]

            Questions Submitted by Senator Daniel K. Inouye

                          FUTURE COMBAT SYSTEM

    Question. General Schoomaker, the Army has recently restructured 
the Future Combat System for the second time in four years amid 
concerns of limited resources for this ambitious undertaking. Is the 
Army's goal to transform to the Future Force placing undue pressure on 
budgetary resources?
    Answer. FCS is the only affordable approach to Army modernization. 
The Army has continued to adjust its modernization strategy to meet the 
challenges of fighting and transforming simultaneously. The FCS 
restructure in 2004 was designed to resource modularity and bring FCS 
capabilities into the current force sooner.
    Through spin-outs, we are already providing FCS capabilities into 
the current force, which leverages the investments in the FCS program 
to modernize the entire force. The majority of theater commanders' 
operational needs statements are specifically requesting the 
capabilities we are developing within FCS.
    The Army has found the right balance within its budget to satisfy 
the demands of a long war and responsibly modernize the force. The 
adjustments to the FCS program achieve this balance. It minimizes 
developmental risk where possible and gets FCS technologies into the 
hands of troops sooner rather than later. To help balance the 
affordability of modernization, the Army reduced the FCS program by 
$3.3 billion the Fiscal Year 2008-13 Program Objective Memorandum 
making it even more affordable.
    We cannot afford not to modernize. Operational requirements, 
personnel and logistic costs make the future force strategy an 
imperative. Our current combat platforms are ill suited for the types 
of operations we face today and may see in the future. To achieve this 
goal of balancing sustainment and transformation, it is imperative that 
we continue modernization efforts while fully resourcing reset, 
modularity, pre-positioned stocks, and the other costs of war.
    Question. The Future Combat System (FCS) is the Army's 
modernization program. It consists of 14 integrated weapon systems and 
an advanced information network that requires twice as many lines of 
software code as the Joint Strike Fighter. While the Army maintains its 
program cost estimate of $163.7 billion, independent cost estimates put 
the costs between $203 billion and $234 billion.
    The tension between the ambitious program scope and available 
resources led the Army to restructure the program prior to the fiscal 
year 2008 budget submission. This is the second major restructure in 
four years. As a result, several technologies are being deferred, and 
the procurement of FCS brigades will be decelerated, resulting in full 
fielding of 15 brigades by fiscal year 2030, compared to fiscal year 
2025 under the previous plan.
    According to the Army, the restructure was driven strictly by 
budgetary, not programmatic concerns, fueled in part by congressional 
reductions of $825 million over the past three years. While some 
critics question whether FCS can adequately fight the type of 
asymmetrical insurgent warfare that we are likely to see in the future, 
the Army maintains that FCS gives it the capability to fight future 
wars across the full spectrum of operations.
    General Schoomaker, the Future Combat System is a large and complex 
system. What capabilities will it bring to the type of asymmetrical 
insurgent warfare that we are currently facing in Iraq and are likely 
to face in the future?
    Answer. As I have said on numerous occasions, I believe we are much 
closer to the beginning than the end of a long war. The Future Combat 
Systems (FCS) are specifically designed to counter the 21st Century's 
full-spectrum of threats, including the irregular warfare in which we 
find ourselves today.
    The future is now; through ``spin-outs'' we are already providing 
FCS capabilities into the current force: unmanned aerial vehicles, 
unattended ground sensors, unmanned ground vehicles and robots. Today's 
operating environment requires the ability to find and track 
individuals. The majority of theater commanders' operational needs 
statements are specifically requesting the capabilities we are 
developing within FCS.
    Stryker brigade combat teams are linked together for situational 
awareness and battle command, and they are proving to be the most 
capable and the most effective units in counterinsurgency environments. 
However, this is just a preview of the capabilities that we're going to 
achieve with the FCS equipped brigades. FCS technologies that we're 
developing will provide our Soldiers much better situational awareness 
and battle command, one that is shared real time. We never want to be 
in a fair fight, and with these improvements our Soldiers will have the 
ability to see first, understand first and act first.
    FCS equipped brigades will allow us to accomplish missions faster, 
control much larger areas and reduce casualties compared to our 
traditional modular brigades. Survivability and force protection will 
be greatly enhanced in an FCS brigade combat team which will reduce 
casualties. The information systems and the intelligence systems that 
support an FCS brigade combat team will enable Soldiers to avoid 
detection and therefore reduce engagement by the enemy. Furthermore, 
these capabilities will enable Soldiers to avoid being hit, and when 
they are hit, the vehicle is designed to prevent a kill.
    The middle weight profile of the FCS platforms will fulfill the 
requirements of being able to fight while mounted. The greatest 
advantage of the middle weight platform is its increased survivability. 
Soldiers will be able to make greater use of the armored protection by 
staying mounted longer, and not dismounting until they are much closer 
to their objective.
    With increased endurance and sustainability, the Future Combat 
Systems will provide greater mobility at the tactical, operation and 
strategic level. The FCS brigade combat team is designed to operate for 
72 hours without external support. Its reduced logistics requirements 
will greatly improve sustainability which allows us to reduce the 
overall size of the brigade while doubling the number of infantry 
Soldiers that are interacting with the indigenous population. These 
changes are essential to ensuring our successful outcomes as we prepare 
to conduct military operations in the middle of the 21st century.
    We're up against an adaptive, asymmetric enemy that is changing his 
tactics every day. What you're seeing in today's FCS capabilities is 
the application of technology for the counterinsurgency fight, which 
has always been a human intelligence battle. We need to give our 
soldiers the decisive advantage, today and tomorrow. FCS is our top 
modernization priority, and we can't afford not to provide the best 
technology to our Soldiers. The cost of modernizing is measured in 
dollars; the cost of failing to modernize is measured in lives.

                      COUNTERINSURGENCY OPERATIONS

    Question. General Schoomaker, in December of 2006 the Department of 
the Army released an updated field manual that provides principles and 
guidelines for counterinsurgency operations. A recent news article 
credited General Petraeus as the driving force behind its creation due 
to his concern about the lack of strong counterinsurgency training and 
doctrine in the U.S. Army.
    How is this renewed focus on counterinsurgency training going to 
change operations in the Global War on Terror?
    Answer. Just recently, the Department of the Army, in coordination 
with the Marine Corps, released a field manual which establishes 
fundamental principles for military operations in a counterinsurgency 
(COIN) environment. It is based on lessons learned from previous 
counterinsurgencies and contemporary operations. It is also based on 
existing interim doctrine and doctrine recently developed. 
Counterinsurgency operations generally have been neglected in broader 
American military doctrine and national security policies since the end 
of the Vietnam War over 30 years ago. This manual is designed to 
reverse that trend. It provides a foundation for study before 
deployment and the basis for operations in theater. Perhaps more 
importantly, it provides techniques for generating and incorporating 
lessons learned during those operations--an essential requirement for 
success against today's adaptive foes. Using these techniques and 
processes can keep U.S. forces more agile and adaptive than their 
irregular enemies.
    Question. Just recently, the Department of the Army, in 
coordination with the Marine Corps, released a field manual which 
establishes fundamental principles for military operations in a 
counterinsurgency (COIN) environment. It is based on lessons learned 
from previous counterinsurgencies and contemporary operations. It is 
also based on existing interim doctrine and doctrine recently 
developed.
    Counterinsurgency operations generally have been neglected in 
broader American military doctrine and national security policies since 
the end of the Vietnam War over 30 years ago. This manual is designed 
to reverse that trend. It provides a foundation for study before 
deployment and the basis for operations in theater. Perhaps more 
importantly, it provides techniques for generating and incorporating 
lessons learned during those operations--an essential requirement for 
success against today's adaptive foes. Using these techniques and 
processes can keep U.S. forces more agile and adaptive than their 
irregular enemies.
    Secretary Geren, training in counterinsurgency operations will keep 
our forces more agile and adaptive than our enemies. Yet training 
doctrine for such operations has not been updated for over twenty years 
for the Army and twenty-five years for the Marine Corps. Why has the 
Department left such a gap in training for counterinsurgency 
operations?
    Answer. Army doctrine is continuously reviewed to determine if it 
remains relevant or requires revision. The Army and Marine Corps 
recently updated their combined counterinsurgency publication, which is 
heavily influenced by recent lessons learned and historically 
successful principles and guidelines. The fundamentals that guide 
counterinsurgency have not significantly changed, but the ways and 
means of insurgents have changed. Insurgents utilize terror tactics and 
guerilla operations that do not adhere to the laws of war. After the 
Cold War, Army training moved away from threat-based scenarios to 
capability-based scenarios driven by likely missions. But only after 9/
11 did counterinsurgency and irregular warfare emerge as dominate 
operational themes. Over the last 20 years the Army has been engaged 
primarily in training for conventional war as exemplified by the Air 
Land Battle doctrine, which easily dispatched the Iraqi Army twice, and 
peace operations which are distinctly different from counterinsurgency. 
Training for counterinsurgency is different from conventional 
operations and peace operations. Today, the Army is transforming into 
modular organizations that will conduct full spectrum operations. This 
transformation is still ongoing. Modular Army forces conducting full 
spectrum operations provide the Nation with the capability for land 
forces to engage across the range of operations, from peacetime 
engagement through major combat operations and campaigns, and within 
the entire spectrum of conflict. The Army is always adapting its 
training to new insurgent tactics, but the fundamentals of 
counterinsurgency operations remain the same. The Army is developing a 
generation of leaders and Soldiers who understand the complexities and 
challenges of modern day insurgencies and are capable of executing 
successful counterinsurgency operations.

                          EQUIPMENT READINESS

    Question. Secretary Geren, we are regularly informed that readiness 
is slipping or endangered because the Army's equipment is damaged and 
worn out from operations in Iraq and Afghanistan. The fiscal year 2008 
budget requests $24.8 billion in procurement and the fiscal year 2008 
supplemental adds another $21.1 billion for equipment. How can we 
measure readiness improvements gained by this huge investment in 
equipment? How do you measure progress?
    Answer. The Army measures progress by the change in the percent 
fill of units' authorized levels of equipment (i.e., by its modified 
table of organization and equipment--MTOE). The fiscal year 2008 budget 
and GWOT requests, if fully supported, will have a significant effect 
on our equipment on hand readiness (the S-rating from the Unit Status 
Report). These funds will continue major initiatives, such as Army 
Modularity, Aviation Restructuring, and accelerate conversion of two 
active component brigade combat teams, buy down of pre-existing 
equipment shortfalls, fill theater-specific needs, replace equipment 
consumed in theater, modernize major combat systems to increase 
capability across the force, and replace obsolete equipment, primarily 
in the Reserve Component. Because of procurement lead times, the 
effects of this investment in equipment will become manifest 
approximately a year from appropriation and extend over the following 
year. (We are just now starting to see the initial deliveries of major 
equipment procured with funding from the fiscal year 2006 main 
supplemental, which was enacted in June 2006.)
    Question. The Army's news release accompanying the fiscal year 2008 
budget submission stated that the fiscal year 2008 budget will build 
readiness. Part of that readiness promise is the Army's plan to ``fully 
fund a modernization and recapitalization program to ensure full-
spectrum ground combat capabilities.''
    In fiscal year 2008, the Army is requesting almost $46 billion for 
procurement in combined baseline and supplemental funding--that is four 
times the level requested in fiscal year 2002. The Army is also 
pursuing a transformation course leading to the Future Combat Systems 
and incorporating lessons learned from current operations.
    General Schoomaker, one of the Army's major challenges is 
``Achieving the full spectrum of readiness.'' Does the current budget 
request achieve this goal? If not, what are shortfalls associated with 
achieving full spectrum readiness?
    Answer. No. The Army has shortfalls in equipment and modernization, 
sustainment, and training (both unit and institutional) accounts. This 
reflects the fact that the Army is underfunded to support the current 
strategy. Additionally, the Army base budget request reflects offsets 
associated with Reserve Component mobilization, peace-time reductions 
in depot maintenance, and deployed unit operational tempo that all 
would need to be restored for the current budget request to fully fund 
full-spectrum readiness. Additional funding above the current budget 
and supplemental requests would allow the Army to accelerate its 
ability to achieve the full-spectrum of readiness.
    Question. Secretary Geren, when we hear about readiness trends, the 
metrics are often associated with the deployed forces in theater, and 
the readiness of non-deployed forces is sometimes overlooked. Is the 
readiness of the Army's deployed forces achieved at the expense of non-
deployed forces and what kind of home-station shortfalls are created by 
the OPTEMPO of deploying forces?
    Answer. The readiness of deployed forces does cause reductions in 
the level of readiness of non-deployed forces. Prior to the advent of 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), the 
Army accepted risk in manning and equipping units based on the 
projected threats and resource constraints. Very few units were 
typically sourced to or near 100 percent of the requirements documented 
in their Modified Table of Organization and Equipment (MTOE). The $56 
billion in Army shortages were spread across all units based on levels 
of authorization, which were short of wartime requirements. Units 
currently deployed to OEF/OIF are fully manned, equipped, and trained 
to undertake their directed missions.
    Achieving wartime-required fill rates means cross-leveling must 
come from units that were historically short from the beginning. This 
initial friction is compounded by growing contemporary operational 
requirements. Operational needs statements from Central Command are 
filled whenever possible and equipment frequently comes from 
redeploying or non-deployed units. Wheeled vehicles, machine guns, and 
night vision devices are examples of equipment requirements that exceed 
current MTOE but are considered essential for warfighting in the 
current environment. Units not deployed or scheduled to deploy provide 
the bulk of these materiel solutions. Multi-national force 
headquarters, training teams, and transition teams are examples of 
entities consuming substantial Army resources. These organizations are 
personnel-intensive, particularly in the need for senior officers and 
noncommissioned officers.
    Sensible policies associated with equipping in-theater forces 
contribute to depleted inventories for non-deployed forces. It is 
simpler and more cost-efficient for the Army to keep as much equipment 
as possible in theater for issue to units rotating in and out. This 
equipment pool was grown partly by units leaving behind equipment they 
brought to theater, thus reducing their equipment readiness immediately 
upon redeployment.
    In order to meet the current operational demand, the Secretary of 
Defense extended deployments to Iraq and Afghanistan to 15 months 
instead of the previous deployment length of 12 months. Dwell time 
between deployments is frequently limited to 12 months. The shortened 
dwell times create a number of challenges for units at home station. 
Equipment left behind in theater and moved into reset typically leaves 
the redeployed units with large equipment decrements. Simultaneously, 
factors associated with the manning lifecycle (block leave, schools, 
permanent change of station, retirements, etc.) lowers personnel 
readiness levels. Because the Army only deploys units that are trained 
and ready for combat operations, every unit must be manned to at least 
100 percent of their required strength, equipped with the most modern 
equipment available and complete an intensive train up prior to their 
next deployment.
    The short time available to move from the reset phase, 
characterized by minimal manning and equipment, to a combat-ready unit 
severely challenges commanders. Soldiers and equipment must be 
available for the units to progress from individual and small-unit 
training (squad thru platoon level) to company and battalion level 
collective training prior to the capstone brigade combat team level 
mission rehearsal exercise. The effect is a ``just in time'' readiness 
model that may not fill all unit requirements until just prior to 
deployment into Iraq or Afghanistan. After returning from deployment, 
taking block leave, and conducting unit level recovery and garrison 
resettlement operations, units are thrust right back into the ``train 
up'' for deployment mode. A significant portion of the units' dwell 
time is spent fielding new equipment and conducting training exercises, 
which adds to the stress on Soldiers and Families as theater demands 
force the Active Component units to a 27-month deployment cycle.

                             GROW THE FORCE

    Question. General Schoomaker, the strategic goals of the Army 
include prosecuting the long War against Global Terror, and 
transforming structure and capabilities to better prepare the Army's 
soldiers and leaders for challenges today and in the future. From an 
operational standpoint, why is one of the solutions to meet these 
strategic goals to ``Grow the Army'' by 65,000 active duty Soldiers?
    Answer. Growing the Army reflects the need to increase strategic 
and operational depth, build capabilities to meet combatant commanders' 
requirements, and address persistent shortfalls in high demand/low 
density units.
    Additionally, the Army is rebalancing its Reserve Component force 
to increase operational capabilities in combat support and combat 
service support units. With the growth and rebalance initiatives, the 
Army will increase capacity and improve unit readiness.
    Question. A new initiative in the fiscal year 2008 budget request 
is an increase in Army end strength. The President's Budget proposes 
increasing active duty Army end strength by a total of 65,000 Soldiers 
by fiscal year 2013 in increments of 7,000 annually (growing from 
482,400 to 547,400 total active duty Soldiers). Based on a continuing 
need for military forces, the end strength increase will improve the 
ratio of time spent deployed versus time at home, in turn reducing 
stress on individuals and Families.
    The Army considers ``Growing the Force'' as one of its major 
challenges, because it entails recruiting and retaining the all-
volunteer force, developing 21st century leaders, and providing the 
required installation infrastructure and equipment.
    Secretary Geren, what is the long-term plan for Army end strength 
(beyond the Future Years Defense Program)? Will the Army remain at the 
higher end strength level? If not, what is the plan for the excess 
infrastructure and equipment purchased to support the increased 
personnel?
    Answer. The long-term plan for Army end strength is to grow and 
maintain levels to meet the projected global force demand. Although 
current operational requirements have influenced decisions to increase 
the inventory of those capabilities in greatest demand such as military 
police, engineers, and military intelligence linguists and 
interrogators, the current operations are not the sole reason for 
determining force growth requirements. The Army will continue to grow 
to its approved end strength and to rebalance capabilities to build 
operational and strategic depth across all three components to enable 
the strategy, meet combatant commanders' requirements, and address 
persistent shortfalls for today and the future.
    The Army plans to remain at the higher approved end strength level 
beyond the Future Years Defense Program. The combined effects of 
growing the force and rebalancing will posture the Army to meet long-
term strategic requirements by increasing combat power and mitigating 
challenges in high demand combat support and combat service support 
capabilities. This growth in capabilities and increase in force 
capacity will enable the Army to implement the objective Army Force 
Generation model which will improve the dwell rate for the active 
component and provide predictable access to the Reserve Component.
    Under BRAC and with consideration of best military value, the Army 
is selecting installations that will facilitate the growth, ensure 
Soldier and Family quality of life, and meet criteria for the planned 
increase in ground forces. The investment in infrastructure and 
equipment will support the Army's sustained growth in the operational 
force to meet projected global force demands.

                      ARMY RESET/DEPOT MAINTENANCE

    Question. Secretary Geren, what is the status of the Army depots? 
Do any depots currently have sufficient capacity to absorb an increase 
in workload requirements? Do industry partners have capacity to add 
workload?
    Answer. All of the Army's depots have the capacity to absorb an 
increase in workload requirements. Currently, all depots are working at 
more than 40 hours a week, but no depot is running a 24 hour per day 
operation depot-wide. The rate of return of equipment from the theater, 
the receipt of repair parts, and the Army's priorities drive different 
capacity utilization rates on different maintenance lines. The depots' 
production schedules are meeting the Army's current needs, and the 
depots have the capacity to increase production if required.
    Question. The fiscal year 2007 Defense Appropriations Act provided 
a ``Bridge Fund'' in emergency supplemental appropriations of $17.1 
billion for Army equipment reset. Included in that amount was over $4 
billion specifically for Army depot maintenance.
    The fiscal year 2008 Army budget request includes an increase of 
over $400 million in the depot maintenance accounts over last year's 
appropriated amount (fiscal year 2008 more than doubles the fiscal year 
2007 amount). However, in fiscal year 2007, $330 million was taken from 
the baseline program as a ``Depot Maintenance Peacetime Workload 
Adjustment.'' The fiscal year 2008 request most likely will be reduced 
under the same assumptions used over the past few years, which is that 
a lot of Army equipment is in theater and therefore unable to go 
through scheduled depot maintenance.
    Secretary Geren, what are the challenges in executing depot 
maintenance--asset availability for example?
    Answer. Depot maintenance is a complex business that requires the 
synchronization of assets, repair parts, and skilled labor so that the 
right equipment is produced at the right time to meet the Army's needs.
    The availability of assets is certainly critical to successfully 
executing the depot maintenance program. We are intensively managing 
the retrograde of equipment from the theater to ensure our depots 
receive sufficient assets to induct into the maintenance lines.
    The availability of repair parts is also critical. The receipt of 
the funding for the fiscal year 2007 reset operations at the start of 
this fiscal year has enabled us to purchase long lead items in time to 
support the continuous flow of reset workload through fiscal year 2007 
and into fiscal year 2008.
    Over the last several years, the depots have ramped up their 
skilled labor pool by hiring permanent and temporary civilian employees 
and, in some cases, supplementing this workforce with contractor 
personnel.

                          AVIATION PRIORITIES

    Question. Secretary Geren, in light of the proposal to grow the 
size of the Army, has there been a review of the Army's aviation 
programs to ensure that we are buying the right mix of aircraft? Is 
there a need to transfer investments from some aircraft programs into 
higher priority capabilities?
    Answer. The Army continually reviews its programs in light of 
changing conditions to ensure they support Army priorities. With 
respect to the proposed growth of the Army, we continue to assert the 
critical role Army Aviation will play in support of the larger Army. In 
fact, Army Aviation may have to also grow in order to support the 
larger force. Moreover, the President's decision to reinvest the $14 
billion from the cancellation of the Comanche helicopter back into 
Aviation programs has been and continues to be critical to our Army's 
success in the Global War on Terror and to posture the Army for the 
future. Upgrades to the UH-60, CH-47, AH-64 platforms, and to aircraft 
survivability systems coupled with new aircraft programs such as the 
Light Utility Helicopter, Joint Cargo Aircraft, and Armed 
Reconnaissance Helicopter are ensuring the relevance of Army Aviation 
in the future. For the JCA, the Army and Air Force are still committed 
to the MOU signed by both Service Chiefs on January 30, 2006. As 
outlined in the MOA, the Army is the lead Service in the Joint Cargo 
Aircraft program. While the ARH program is currently facing cost, 
schedule and performance issues, the Army's need for an armed 
reconnaissance platform to replace the aging OH-58D Kiowa Warrior fleet 
has not changed. Finally, the investments in our unmanned aircraft 
systems and our manned aviation programs are vital to the Army's 
overall strategy.
    Question. After the 2004 cancellation of the Comanche helicopter, 
the Army committed to spending $14.6 billion that would have been spent 
on the Comanche to a number of other aviation programs. This plan 
included three new aviation programs, the Joint Cargo Aircraft, the 
Armed Reconnaissance Helicopter, and the Light Utility Helicopter.
    The fiscal year 2008 budget, along with the fiscal year 2008 
supplemental, contains substantial increases for each of these new 
aviation programs: the fiscal year 2008 budget increases baseline 
funding for the Joint Cargo Aircraft by $85 million, the Armed 
Reconnaissance Helicopter by $368 million, and the Light Utility 
Helicopter by $64 million. The fiscal year 2008 supplemental requests 
an additional $222 million for the Armed Reconnaissance Helicopter.
    The Joint Cargo Aircraft is a joint Army-Air Force program. In 
early 2006, the two services signed a Memorandum of Understanding to 
cooperate in the fielding of the aircraft, but there continue to be 
tensions about the Army having such a major role in a large, fixed-wing 
aircraft program. Last year, the Armed Services Committee transferred 
the authorization of Joint Cargo Aircraft funds from the Army to the 
Air Force.
    Secretary Geren, the Army and the Air Force have been working 
together on the Joint Cargo Aircraft. Some continue to raise questions 
about which service should be leading the program. Are the Army and Air 
Force still committed to last year's Memorandum of Understanding for 
the Joint Cargo Aircraft? Has there been any effort to reopen 
discussions on that MOU?
    Answer. Yes, the Army and Air Force are still committed to the MOU 
signed by both Service Chiefs on January 30, 2006. There has been no 
discussion to reopen the MOU. Following the MOU, the Vice Chiefs of the 
Army and Air Force signed a Memorandum of Agreement (MOA) on June 20, 
2006 which further details the agreements of both Services to come 
together for this program. The MOA outlines agreements, resources, 
responsibilities and a timeline for key events in the program to 
include the Joint Program Office which was established on October 1, 
2006. Both Service Vice Chiefs of Staff also signed an addendum to the 
MOA in September 2006 to incorporate input from the TRANSCOM Commander 
agreeing to provide visibility to U.S. TRANSCOM on passengers and cargo 
flown in the JCA. As outlined in the MOA, the Army is the lead Service 
in the Joint Cargo Aircraft program and both services are still 
committed to this plan.
           mine resistance ambush protected vehicles (mraps)
    Question. This Committee has consistently supported the Army's 
force protection programs. By May of this year, Army will have procured 
19,380 Up-Armored HMMWVs, which we note exceeds the current theater 
requirement. Now, the Army has a requirement to procure 2,500 MRAP 
vehicles. The fiscal year 2007 Supplemental request, as amended, would 
buy approximately 750 MRAPs for the Army. There is no funding in the 
fiscal year 2008 budget for this program. Secretary Geren, how does 
Army plan to buy the rest of the requirement, about 1,750 MRAPs?
    Answer. The Army Program Manager for MRAP estimates that fiscal 
year 2007 funding will buy 706 vehicles. The Army still has a validated 
total unfunded requirement of $1.999 billion for MRAP. You are correct 
there are no funds requested in the fiscal year 2008 supplemental. The 
Army requested $520 million in the fiscal year 2008 Global War on 
Terrorism appropriation, but it was not supported. The Army will 
continue to work with the Office of the Secretary of Defense to request 
and obtain this required funding.
    Question. The MRAP is a tactical wheeled vehicle that will give 
soldiers and Marines better protection from Improvised Explosive 
Devices. It is a joint USMC/Army program. The Marines, who lead the 
program, have awarded contracts to 9 different vendors with the intent 
to purchase MRAPs and get them in theater as quickly as possible. The 
vendors must deliver four test vehicles for evaluation at Aberdeen 
Proving Ground. After successfully completing testing, the Army and 
Marine Corps can order vehicles for delivery.
    Although Army has validated a requirement for 2,500 vehicles, it 
has not fully funded procurement of that number. The estimated cost is 
$1 million per vehicle; approximately $750 million is included in the 
fiscal year 2007 Supplemental.
    In addition, the Army is treating these vehicles as a one-time buy 
that is unique to Iraq and Afghanistan. MRAPs will not be made part of 
the standard unit equipment lists. Informally, staff has been told that 
MRAPs would be left in theater.
    Secretary Geren, since the ``MRAP'' is a very high priority 
requirement, why didn't it displace some other need in the fiscal year 
2008 budget?
    Answer. There were many competing priorities in the fiscal year 
2008 budget which were adjusted during the budget process by the Office 
of Secretary of Defense. The Army still has a validated total unfunded 
requirement of $2 billion for MRAP.
    Question. General Schoomaker, what is the long-term plan for 
``MRAP''? Does it replace Up-Armored ``Humvees'' or Armored Security 
Vehicles in the unit equipment lists?
    Answer. MRAP fulfills a Theater-specific requirement to address an 
urgent capability gap for underbelly, wheel well, and flank protection 
against mines and improvised explosive devices. In current operations 
in Theater, the MRAP vehicle will augment HMMWVs to provide the 
combatant commander the flexibility to use the proper vehicle to meet 
the mission requirement. It addresses a current capability gap to 
protect the underbelly, wheel well, and flanks our tactical vehicle 
fleet.
    The Joint Light Tactical Wheeled Vehicle (JLTV) will ultimately 
replace the Up-armored HMMWV for the Army's Light Tactical Vehicle 
(LTV) fleet. The exact number of MRAP vehicles to be procured hinges on 
the testing and performance of the initial MRAP vehicles and the 
ability of industry to accelerate development and production of the 
JLTV.
    The ASV is one of the candidates in the current MRAP competition. 
The ASV is a Program of Record to fill Military Police modernization 
requirements, so MRAP will not replace ASVs in MP units.
    MRAP's post-war role in Army force structure is the subject of a 
current LTV strategy study to determine the optimum mix of HMMWVs, 
MRAPs and JLTVs for the Force.

                               STRYKER'S

    Question. Secretary Geren, we've heard that the Stryker Brigades 
are performing well in theater--and that the National Guard may be 
interested in gaining two additional Stryker Brigades. Strykers are the 
first new ground combat system fielded by Army in recent memory. Is 
Army considering increasing the number of Stryker Brigades?
    Answer. The Stryker Brigade Combat Teams (SBCTs), like all of the 
Army's BCTs, are performing superbly in Iraq. Stryker brigades provide 
our combatant commanders a unique combat capability that ranges across 
the full spectrum of military operations. Stryker BCTs fit into Army 
Force Generation (ARFORGEN) the same as Heavy and Infantry BCTs. The 
Army currently has one SBCT in the National Guard, the 56th SBCT. The 
Army recently received additional authority to build six new BCTs. The 
mix of these BCTs--Stryker, Heavy, or Infantry--has not been 
determined, but analysis is underway that will consider the existing 
requirements, current operational demand, and our assessment of the 
future capabilities needed to meet the strategy. Additional maneuver 
BCTs of any type--Stryker, Heavy, or Infantry--will likely reduce the 
Army's stress and begin to rebuild strategic depth and flexibility.
    Question. The Army plans to have a total of seven Stryker brigade 
combat teams: six active duty units and one in the National Guard 
(Pennsylvania). Stryker is a rapidly deployable system deemed effective 
across the full spectrum of operations. It is an armored vehicle that 
combines high battlefield mobility, firepower, survivability and 
versatility with reduced logistics requirements.
    Stryker was originally envisioned as an interim solution as the 
Army develops the Future Combat System (FCS). Full FCS implementation 
has moved further to the future. Existing units are being reconfigured 
to modular brigade combat teams. Stryker appears to be a good idea that 
the Army has decided not to extend.
    General Schoomaker, are any new equipment or mission changes 
planned for the Guard at this time?
    Answer. The Army National Guard and Army Reserve are transitioning 
from a strategic reserve to an operational force that will continue to 
provide depth to capabilities needed to win the long war. This 
transformation allows us to meet today's demands and to position the 
force for future obligations. We will balance requirements for 
providing National Guard units for combatant command missions with 
obligations for homeland defense.
    Additionally, we are continuing to standardize our formations and 
the levels of equipment modernization. With this modular transformation 
and transition, we will provide the necessary equipment to these 
formations to meet operational requirements. The plan is to equip and 
modernize Active and Reserve Component forces to the same level based 
on ARFORGEN requirements.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

            MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLES

    Question. It is my understanding that the Army's top priority is 
protecting soldiers from the deadly threat of IEDs and that you are 
aggressively pursuing a solution.
    What is the current status of the Army's vehicle armoring program; 
will sufficient FRAG Kit 5 armoring kits be available in time to equip 
those Soldiers supporting the ``surge?''
    Answer. The Army's priority is sending only the best trained and 
equipped Soldiers into combat operations and that means providing the 
best force protection equipment for Soldiers. Even as we plus up troops 
in Operation Iraqi Freedom and beyond, force protection will not be 
shortchanged.
    An excellent example is how the Army is improving the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV), based on the ever-changing 
battlefield threat. As of this date, the Army has produced enough 
Fragmentation Kits 1, 3, and 5 to outfit every HMMWV in Afghanistan and 
Iraq. Safety enhancements such as driver restraints and fire 
suppression systems have been added as well. Bottom line, the Army has 
sufficient up-armored HMMWVs being produced or fitted with force 
protection and safety enhancements to meet the plus-up requirement. 
These vehicles are being shipped directly from the factory to theater 
to ensure Soldiers in the surge force ``cross the berm'' in a HMMWV 
with essential force protection improvements.
    Question. General Schoomaker previously testified that armor was a 
top priority. There is a $2.25 billion request for the MRAP vehicle on 
your Unfunded Requirements List. Does this mean that you are still 
under funded for armored vehicles? Did you request additional funding 
for MRAP vehicles in your fiscal year 2008 baseline budget or in the 
fiscal year 2008 supplemental?
    Answer. The Army still has a validated total unfunded requirement 
of $2 billion for MRAP. The Army's request for $500 million was not 
approved in the fiscal year 2008 Supplemental.
    Question. What would explain the Army's acquisition plan for MRAP? 
How many do you intend to buy by class, i.e., Category I, II, and III 
variants?
    Answer. The Army may buy up to 17,770 MRAP vehicles. The exact 
number of MRAP vehicles to be procured hinges on the testing and 
performance of the initial MRAP vehicles and the ability of industry to 
accelerate development and production of the Joint Light Tactical 
Vehicles (JLTV). The current estimates for the initial buys are 463 for 
Category I and 2,037 for Category II.
    Question. On more than one occasion you have described MRAP as an 
interim solution. What, in your opinion, is the ultimate solution and 
when will it be available?
    Answer. The JLTV will ultimately replace the Up-armored HMMWV (UAH) 
for the Army's Light Tactical Vehicle requirement in the fiscal year 
2010-15 timeframe.
    Question. Will there be open competition for the contract for this 
ultimate solution armored vehicle?
    Answer. The MRAP program is in response to a Joint Urgent 
Operational Needs Statement which calls for vehicles capable of 
mitigating or eliminating the three kill mechanisms of mines and 
improvised explosive devices (IEDs): fragmentation, blast overpressure, 
and acceleration. The Navy is the lead Service for the MRAP program and 
the Marine Corps, in response to its Request for Proposal (RFP), 
recently awarded nine prime vendors with Indefinite Delivery Indefinite 
Quantity (IDIQ) production contracts. The Marine Corps also awarded a 
sole source contract initially to fulfill initial capability from Force 
Protection Industries, Inc. This award was done prior to the award of 
the nine competitively awarded IDIQ contracts. MRAP vehicles will not 
meet all of the military's armoring requirements. The intent of the 
program is to increase survivability and get the best systems available 
now in the hands of our service members as soon as possible. While it 
will augment the Up-Armored HMMWVs currently in use, it should not be 
considered a long-term solution.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                       FUTURE COMBAT SYSTEM (FCS)

    Question. I have been informed that the Army's Future Combat 
Systems (FCS) armored vehicles will be too large to fit into a C-130 
type aircraft. It seems that air transport options to austere locations 
will be limited to employing the C-17 aircraft.
    Has the Army defined its airlift requirements connected to the 
deployment of FCS and presented them to the Air Force or USTRANSCOM?
    If not, when will this happen?
    Answer. The Army's intent is for the FCS manned ground vehicles to 
be transportable worldwide by air, sea, highway, and rail modes to 
support inter-theater strategic deployment and intra-theater 
operational maneuver. The Army has not yet finalized the design of its 
manned ground vehicles and has not dropped the C-130 sizing construct. 
Analysis to balance capabilities such as survivability, mobility, 
lethality and other functions, as well as discussions with U.S. 
Transportation Command and the Air Force will inform that decision in 
conjunction with vehicle design reviews. By sizing systems and 
organizations against the C-130 profile, the Army increases options 
available to the combatant commander and retains maximum flexibility in 
pursuing future advanced airlift options. The end design, though, will 
balance the capabilities to provide the most effective platforms 
possible using analysis, lessons learned from operations and developing 
technology.
    For assessing Army and global airlift requirements, FCS itself does 
not change the Army's air mobility or C-17 requirements. There is no 
FCS requirement to be able to move any specific size unit of an FCS 
brigade combat team by fixed-wing aircraft. The lighter, highly lethal 
and survivable, and more easily supportable FCS systems simply provide 
greater capabilities that commanders can use in responding to the broad 
array of missions with the lift assets they have.

                           INTRA-THEATER LIFT

    Question. We have seen great success using intra-theater airlift to 
keep convoys off the road and out of the reach of IEDs. Is there a 
shortfall in meeting the current Army intra-theater airlift 
requirement?
    Answer. The U.S. Army continues to mitigate convoy risk by 
streamlining distribution of people and supplies through U.S. Army, Air 
Force, and commercial airlift. Approximately five percent of cargo 
distribution is conducted by airlift. The Air Force's portion of this 
critical distribution is supported with their C-130, C-17, and IL-76 
aircraft. Commercial partners which include DHL, National Air Cargo, 
and UPS, are operating their aircraft to augment intra-theater 
distribution requirements. The Army supplements this system with CH-47 
Chinooks and C-23 Sherpas to provide spontaneous capability to move 
time sensitive, mission critical supplies and personnel to brigade 
combat teams and subordinate units on the current and future 
asymmetrical battlefields. The Army's shortfall lies with the CH-47 
Chinook and C-23 Sherpa. The CH-47 is a tactical asset that is being 
pulled from its designed mission of local tactical and logistical 
employment to conduct longer range intra-theater missions in Operation 
Iraqi Freedom. The C-23's capability shortfalls limit the ability to 
meet on-demand, time-sensitive/mission-critical missions. Specifically, 
the aircraft is restricted to longer runways, cannot operate at 
altitudes requiring pressurized cabins, and cannot accept standardized 
pallets. These are few of the major gaps which limit the Sherpa's 
ability to meet the Army's direct support requirements. The Joint Cargo 
Aircraft, currently in source selection, is required to fill this 
existing capabilities gap for direct support, on-demand transport to 
forward deployed units. Continued congressional support will facilitate 
fielding of this commercial off the shelf capability and bring the Army 
closer to meeting its tactical airlift requirements and aviation 
modernization strategy.

                    ADDITIONAL AIRLIFT REQUIREMENTS

    Question. Secretary Geren, current DOD airlift requirements were 
formulated before the announcement of an increase in the size of the 
ground component, projected at an additional 92,000 troops, many of 
them Soldiers.
    What are these additional airlift requirements and have you 
identified them to the Air Force or USTRANSCOM?
    If not, when do you anticipate a new airlift requirement will be 
developed based on the significant end-strength increase?
    Answer. Air Mobility Command (AMC) and U.S. Transportation Command 
(TRANSCOM) co-sponsored a study, Chief of Staff Inquiry: Mobility 
Impact of Army/Marine Increase (CSI: MIAMI). The Army, as well as all 
Services, participated in this quick-look study. The study presented a 
spectrum of potential mobility impacts based on the Plus-up forces and 
tasks to respond to warfighting needs. The Army land force increase is 
designed to increase dwell time between current deployments. The 
Initial finding, a 92,000 increase solely used for rotational purposes, 
anticipated no increase in airlift requirements. The current war plans 
do not include land force increase and have not been modified. The 
results for the CSI: MIAMI were presented at the Air Force's semi-
annual senior leader conference, Corona, to identify and recommend the 
Mobility Capability Study (MCS)-08 to study to address this issue and 
suggested maintaining the C-17 production line open. The Army is 
satisfied with the current mixture of C-17s and C-5s identified in the 
MCS 05.

                       JOINT CARGO AIRCRAFT (JCA)

    Question. Will the proposed Joint Cargo Aircraft (JCA) be capable 
of intra-theater transport of the FCS vehicles?
    Please elaborate.
    Answer. The JCA is designed for a threshold capability of 26,000 
pounds or 13 tons. The key performance parameter for the JCA is for a 
threshold capability to trans-load an Up-Armored HMMWV or an Armed 
Reconnaissance Helicopter. This is insufficient to move the FCS manned 
ground vehicles but will be able to transport the unmanned ground 
vehicles, Unmanned Aerial Systems, and the Non-Line of Sight Launch 
System Container Launch Unit.

                      EXTENDED RANGE/MULTI-PURPOSE

    Question. Some have proposed terminating Extended-Range Multi-
Purpose (ER/MP) and instead procuring additional Air Force MQ-1 
programs to more effectively manage these HDLD assets under a single 
command and control structure. What is the Army's viewpoint regarding 
such a proposal? If opposed, how would the Army address the 
inefficiencies in two separate command and control structures?
    Answer. The Army has defined, resourced, and fielded UAS solutions 
consistent with the Office of the Secretary of Defense (OSD) and Joint 
processes to vet the required capabilities and solicit industry 
competition for the best materiel solutions for the Joint community, 
vice direct procurement. A single command and control structure will 
force a change in Army core competencies and concept of operations. A 
single command will direct the transfer of ``in theater'' control of 
tactical Unmanned Aircraft System (UAS) from reconnaissance, 
surveillance, target, acquisition to central, continental United States 
control of tactical UASs in support of strategic, non-responsive 
intelligence, surveillance, and reconnaissance. Centralized control 
will lead to my loss of the capability, funding, organizational 
employment, and most importantly, direct and assured support of the UAS 
in direct support of ground combat operations. From purely a fiscal 
view point, centralized command and control will lead to DOD's sole 
source procurement of systems from General Atomics and Northrop Grumman 
for the next 15 years.
    Specifically, the ER/MP program is a Joint Capabilities Integration 
and Development-approved program, with a competitively awarded contract 
in 2005. The primary purpose of ER/MP is Land Warfare Tactical 
Operations. The ER/MP has greater capabilities than the Air Force MQ-1, 
at a lower cost. Equipped with a heavy fuel engine, using JP8, the 
common DOD fuel, ER/MP will provide greater endurance, including an 
enhanced payload capacity for both sensors and munitions. ER/MP runway 
requirements also supports stationing and operations collocated at the 
combat aviation brigade, unlike Predator B which requires greater 
runway lengths not normally located within the Army's divisional 
battlespace. Furthermore, the ER/MP will employ a DOD standard common 
datalink, common sensor, the One System Ground Control Station, and the 
One System Remote Video Transceiver, ensuring unrestricted manned/
unmanned teaming and access to ER/MP sensor information. Additionally, 
the Army will operate the ER/MP using a common military occupational 
specialty.
    From an operational perspective, commanders on the ground 
consistently state that direct tasking authority and control of UAS in 
their battlespace is non-negotiable. The Army has listened to our 
tactical commanders and has demonstrated proficiency in UAS operations 
and procurement. The Army is successfully employing UAS with enlisted 
operators and has taken manned/unmanned integration to new heights of 
tactical success, demonstrating the benefit of airborne and ground 
large scale integration. Additionally, the Army, Navy, Marine Corps, 
and Special Operations Forces have partnered on UAS training, 
acquisition, test, and employment, demonstrating Jointness from 
procurement through operations. Finally, commanders in Iraq have proved 
UAS command and control in theater is faster and better integrated 
without using the Air Force's method of strategic satellite ``reach 
back'' for operational control and mission execution.

                     RECRUITING GOALS AND STANDARDS

    Question. The Army has previously struggled to meet its recruiting 
goals.
    Is the Army on track to meet its recruiting goals so far this year?
    Please compare the number of recruits vs. targeted goals for 2003, 
2004, 2005, and 2006.
    How has the Army altered its recruiting standards since March 2003?
    Answer. The Army is on track to achieve its fiscal year 2007 
recruiting goals for the Active Component and the Army National Guard; 
however, we are concerned about achieving the recruiting goal for the 
United States Army Reserve. As the table below illustrates, all three 
of the Army's components fell short of achieving fiscal year 2005 
recruiting goals. As a result, the Army implemented measures to expand 
the opportunity for volunteers to serve their nation in its Armed 
Forces, address the recruiting challenges of an improving economy, the 
dwindling pool of qualified prospects and a decreasing propensity to 
serve, and fulfill the Army's increased accession requirements.

                                                                         ARMY RECRUITING MISSIONS (FISCAL YEARS 2002-06)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  RA                                          AR                                         ARNG
                                                             -----------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                              year 2003  year 2004  year 2005  year 2006  year 2003  year 2004  year 2005  year 2006  year 2003  year 2004  year 2005  year 2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Mission.....................................................     73,800     77,000     80,000     80,000     26,400     21,200     22,175     25,500     62,000     56,002     63,002     70,000
Achieved....................................................     74,132     77,587     73,373     80,635     27,365     21,292     19,400     25,378     54,202     49,210     50,219     69,042
Percentage..................................................      100.4      100.8       91.7      100.8      103.7      100.4       87.5       99.5       87.4       87.9       79.7       98.6
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Beginning in 2005, the Army implemented the following: the Tier Two 
Attrition Screen (TTAS) to assess the retention of non-traditional high 
school equivalency degree recruits; the Assessment of Recruit 
Motivation and Strength (ARMS) to evaluate recruits exceeding entry-
level bodyfat screening percentages; increased the maximum age limit 
for first-time recruits from 35 to 42; adopted the DOD Test Score 
Category (TSC) benchmark standards; and revised our tattoo policy to 
reflect the changes of American society. These efforts to expand the 
opportunity for service are not a lowering of standards; without 
exception, all Soldiers enlisted meet the qualifications for their 
military occupational specialty.
    Question. Please provide your best assessment of the number of 
soldiers recruited since March 20, 2003, who would not have met Army 
recruitment standards prior to that date. This number might be affected 
by, for example, changes in age requirements, so-called ``moral'' 
requirements, and intellectual requirements, among others.
    In answering this question, please do not focus exclusively on 
technical requirements.
    Rather, how many recruits since March 20, 2003 would have 
``likely'' failed to meet either technical or well-established ``soft'' 
standards that were in place through February 2003?
    Answer. The Active Army has enlisted just over 300,000 Soldiers 
since March 20, 2003. Without exception, all of these Soldiers were 
fully qualified for military service and the military occupational 
specialty for which they enlisted.
    Basic enlistment eligibility criteria are age, citizenship, 
education, trainability, physical, and dependents, moral and 
administrative criteria. ``Standards'' are associated with some of 
these criteria. The Army did not make any major adjustments to policies 
or standards in these criteria between March 20, 2003 and midway 
through fiscal year 2005. Beginning in fiscal year 2005, the Army 
implemented several initiatives and adjusted policy where possible to 
expand the eligible population for enlistment. These programs, 
initiatives, and policy changes include:
  --February 2005, initiated the Assessment of Recruit Motivation and 
        Skills (ARMS) pilot program to evaluate recruits exceeding 
        entry-level body fat screening percentages.
  --April 2005, implemented Tier Two Attrition Screen (TTAS) pilot as 
        an attrition study. Current results are favorable.
  --August 2005, adjusted Test Score Category (TSC) benchmarks to the 
        DOD standards of at least 60 percent TSC I-IIIA and less than 4 
        percent TSC IV from the Army standards of 67 percent TSC I-IIIA 
        and 2 percent TSC IV.
  --January 2006, as part of NDAA 06, increased the maximum age from 35 
        to 40 and then in June 2006, from 40 to 42.
  --January 2006, allowed tattoos on back of the neck.
    The increases resulting from these changes are not mutually 
exclusive since recruits can fall under more than one category. From 
fiscal year 2005 to fiscal year 2007, we estimate that 23,000 to 28,000 
Soldiers have enlisted since implementing these changes that would not 
have qualified prior to the changes. This was approximately a 14 
percent to 18 percent increase over two and half years of recruiting.
    There is no ``standard'' for moral waivers. Waivers are approved or 
disapproved based on their merits and the whole person concept. Waivers 
are approved at two levels based upon the offense. Recruiting battalion 
commanders review misdemeanor convictions; and the Commanding General, 
U.S. Army Recruiting Command, reviews serious criminal misconduct 
convictions (includes felonies, domestic violence, and some misdemeanor 
convictions: two or more DUIs, two time marijuana possession). Some 
offenses (such as sexually violent offenses, drug trafficking, etc.) 
will not be waived. No consideration is given to percentages of 
waivers, caps, or mission accomplishment. The Army continues to monitor 
the effect of these waivers and to date, has seen no evidence of a 
detrimental effect on the force.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                    ARMY DISABILITY BENEFITS SYSTEM

    Question. On Monday, March 12, Army IG released report on 
Disability Benefits System. This report was requested in April 2006 by 
former Secretary Harvey.
    Secretary Harvey requested this IG investigation one year ago, so 
there must have been indications that the system was broken. Please 
provide more detail about this IG report:
    Why did the Army wait to address problem? Why were there no steps 
to fix it until after the series of articles in The Washington Post?
    What is the plan for addressing the problems outlined by the Army's 
own IG?
    What is the timeline for remediation of these problems? Does the 
Army need additional funds?
    When will the Army report back to Congress on progress?
    Answer. In response to a March 2006 Government Accountability 
Office report entitled ``Military Disability System: Improved Oversight 
Needed to Ensure Consistent and Timely Outcomes for Reserve and Active 
Duty Service Members,'' the Assistant Secretary of the Army for 
Manpower and Reserve Affairs released a request for proposals seeking 
management and analytical support to transform the Army's Physical 
Disability Evaluation System in July 2006. This resulted in the 
formation of the Army Physical Disability Evaluation System 
Transformation Initiative which began its work in November 2006. As is 
apparent from this chronology, the Army identified the need to 
transform its Physical Disability Evaluation System and took steps 
towards its accomplishment. The timeline for the completion of this 
initiative has subsequently been compressed and the Army is working 
diligently to accomplish this transformation.
    We are currently developing a multi-phase Army Medical Action Plan. 
The plan includes more than 30 initiatives that are programmed for 
completion by July 2007. Key in these initiatives is the establishment 
of Warrior Transition Units at Army Medical Treatment Facilities with 
significant populations of Warriors in Transition. These units will 
provide command and control of all Warriors in Transition. Care 
``triads'' consisting of a medical provider, a nurse case manager, and 
the squad leaders of Warriors in Transition are responsible for the 
management of all aspects of the care and transition of their assigned 
Warriors in Transition. The remaining phases of the Army Medical Action 
Plan will address the development and implementation of an efficient 
and timely system for completing physical their families, vocational 
rehabilitation, and seamless transitioning of Warriors in Transition 
and their families from military to civilian life, to include 
transitioning to the Department of Veterans Affairs for care and 
services, as well as transitioning into civilian employment. These 
phases, scheduled for completion between July 2007 and February 2008, 
will also incorporate ongoing monitoring and oversight to maintain 
program efficiency and effectiveness.
    Major General Gale Pollock and Brigadier General Michael Tucker are 
providing Congress with periodic updates on the progress of the Army 
Medical Action Plan. We will continue to keep the Congress updated on 
the progress of these unprecedented efforts to provide care, training, 
and services that are responsive to the current realities of a 
transforming Army.

                           STATE OF THE ARMY

    Question. As you prepare to leave your post as Army Chief after 
nearly 35 years of service, please provide your thoughts and 
assessments on the following issues: How is the Army doing? Do you have 
what you need to continue to fight?
    Answer. Resources provided have allowed the Army to man, equip, 
train, and field the best possible force for the current fight. The 
Army is making progress in rebuilding its capacity for the future; 
however, is challenged to pace with the rate the current force is being 
consumed. Over time, funding will improve unit equipment fill, allowing 
the Army to equip brigade combat teams by 2015 and support brigades by 
2019. Timely and full support from Congress on the Army's budget 
requests will ensure these milestones are achieved. Additional funding 
now will allow the Army to positively affect our near-term challenges 
and accelerate our equipping timelines. The fiscal years 2007 and 2008 
budgets include procurement funds for the equipment necessary to equip 
our modular forces; our Supplemental requests include procurement for 
items that will improve the capabilities of our Soldiers as we 
incorporate lessons learned. The budget request for fiscal year 2008 
also includes Army growth funds required to grow ready units to sustain 
its ability to support our Soldiers. We appreciate the support Congress 
has given the Army as we continue to fight the Long War.
    Question. What are you hearing from our young Soldiers and their 
families? What are the biggest concerns our senior NCO's raise with 
you?
    Answer. Our Soldiers continue to be proud of the mission they have 
been asked to do and morale remains high. The Army's top quality of 
life concerns are single soldier and family housing improvements, child 
care facilities, and a more predictable dwell/rotation time for the 
Reserve Component. This particular issue was addressed by the Secretary 
of Defense on January 11, 2007, in the revised Reserve Component (RC) 
Mobilization Policy, which mandates that RC units would mobilize for 
one year and have five years before another mobilization.
    Question. What is your view of the escalation of U.S. troops in 
Iraq? Can it improve the situation on the ground?
    Answer. The Army and U.S. Central Command support the 
Administrations request for additional troops along with a continued 
support in working with national and international partners, promoting 
development and cooperation among nations, responding to crises, and 
deterring or defeating state and transnational aggression in order to 
establish regional security and stability.
    Question. The United States will soon have more troops in 
Afghanistan than at any time since 9/11. What is the objective of our 
military operations in Afghanistan?
    Answer. Our military is working with International Stabilization 
and Assistance (ISAF), conducting operations that provide security, 
stability, and maturing governance to the people of Afghanistan. 
Through Combined Security Transition Command-Afghanistan (CSTC-A), 
continue to mature and grow the Afghanistan Security Forces. We are 
working with allies and partners to build capacity and set conditions 
for regional security and prosperity.
    Question. Can NATO defeat al-Qaeda and Taliban without better 
support from Pakistan?
    Answer. I am advised by U.S. Central Command that degrading violent 
extremist networks and operations, especially al-Qaeda, is a key 
priority. They are using all available methods to build regional and 
international momentum for moderate behavior while eroding support for 
violent extremist ideology, strengthening relationships and influencing 
all states and organizations to contribute to regional stability and 
the free flow of commerce.

                              BRAC/MILCON

    Question. The BRAC Commission recommended creating a C4ISR Center 
of Excellence at Aberdeen Proving Ground (APG) which involves moving 
CECOM from Fort Monmouth, NJ. This requires facilities to be in place 
at Aberdeen before operations are shut down in New Jersey. There are 
highly-technical laboratory and testing facilities in this move and 
other complicating factors.
    How is the delay in funding BRAC for fiscal year 2007 affecting 
Army's implementation of the 2005 BRAC round?
    Answer. We are already experiencing an impact on BRAC execution. 
More than half of our BRAC military construction is delayed, and 
continued delay in fully funding for our fiscal year 2007 BRAC request 
will impact training, mobilization, deployment, and quality of life 
facilities for Soldiers and Families. If the $2 billion fiscal year 
2007 shortfall is not funded, Army will have to re-prioritize the 
remaining unfunded fiscal year 2007 projects and all of the projects 
requested for fiscal year 2008.
    If the Army receives its full fiscal year 2007 BRAC funds in April, 
we will still meet our obligations under the BRAC statute.
    Question. More specifically, is the Army on target to implement 
this complex move of Communications and Electronics Command (CECOM) 
from Fort Monmouth, New Jersey to Aberdeen Proving Ground (APG)?
    Answer. Yes, if BRAC is fully funded in the 2007 Supplemental, APG 
projects will be completed to support CECOM movement under the current 
timeline.
    Question. The installation commander at APG and civilian leaders 
from Harford County have a detailed plan for managing the complicated 
move of CECOM from Fort Monmouth to APG. One of their biggest concerns 
is construction of the new Ordnance Center & School at Fort Lee, VA 
(currently located at APG). The current Ordnance Center & School at APG 
is sitting in the middle of the campus intended to house CECOM. APG 
cannot begin to implement the CECOM move until the Ordnance School is 
moved to Fort Lee.
    What is the Army's timeline for completing construction at Fort Lee 
and moving the Ordnance Center down from Aberdeen?
    Answer. The construction at Fort Lee and subsequent movement of the 
Ordnance Center and School from APG is on track for late 2009.
    Question. Has the delay on fiscal year 2007 funding been a major 
factor impediment in this tightly scheduled move?
    Answer. To date, the delay of funding has not been a major factor 
in the implementation of construction and moves. If funding is not 
received, the impact to the current timelines could be significant.
        procurement practices w/small & disadvantaged businesses
    Question. In recent years DOD had adopted several trends, which 
taken together, have had an adverse effect on small businesses in 
general, and small and disadvantaged businesses (SDB's) in specific, 
impacting their ability to do business with the DOD. These trends 
include:
  --Consolidation of small contracts into very large contracts 
        (``Bundling'') so that only very large companies, or teams 
        headed by very large companies, can afford to bid.
  --Moving contracts, previously awarded to small companies or 8(a) 
        companies as primes, into one of these bundled contracts, once 
        period of performance is over.
    --8(a) companies either have to become subs to the larger primes
    --8(a) companies are left out entirely.
  --Issuing multiple awards for Indefinite Delivery/Indefinite Quantity 
        (ID/IQ)--if small and SDB and 8(a) companies want to play, they 
        are forced to joint other teams, usually headed by larger 
        companies, as subcontractors. Once ID/IQ contracts are won, SDB 
        and 8(a) companies only have license to market, and are not 
        assured of any contracting tasks by their primes.
    In view of these trends, please answer the following questions in 
the context of the impacts on small businesses, Small and Disadvantaged 
Businesses, and 8(a) businesses:
    Describe the Army's practice in consolidating (bundling) since 
2001.
    Answer. The U.S. Army follows the acquisition planning rules 
concerning consolidating (bundling) of contract requirements as 
stipulated in the Federal Acquisition Regulation (FAR), the Defense FAR 
Supplement, and the Army FAR Supplement. The U.S. Army does not 
consolidate contract requirements with an estimated total value 
exceeding $5.5 million unless the acquisition strategy includes: (1) 
the results of market research; (2) identification of any alternative 
contracting approaches that involve a lesser degree of consolidation; 
and (3) a determination by the senior procurement executive that the 
consolidation is necessary and justified.
    Question. Does bundling occur in one functional area more than in 
others? E.g., Logistics, Financial, Information Technology services, 
Program management, personnel?
    Answer. Procurements can be divided into two broad categories: (1) 
Services and (2) Supplies & Equipment. Within these categories, 
procurements can be further identified by Federal Supply Group (FSG). 
Services include functional areas such as Information Technology, 
Professional Administrative and Management Support Services, and 
Logistics Services. Supplies and Equipment include items such as 
aircraft and airframe structural components, weapons systems 
components, and vehicular components. During fiscal years 2003 through 
2006, Supplies and Equipment involved more bundled contracts than 
Services. The following illustrates the Aircraft and Airframe 
Structural Components FSG. This FSG had 22 contracts valued at $374.8 
million. Within the Services category, the FSG for Automatic Data 
Processing and Telecommunications had 23 bundled contracts valued at 
$3.3 million.
    Question. Please identify those contracts that have been 
consolidated or bundled in this fashion. For each contract listed, 
provide information to include: name of contract and value of contract; 
office or command served; type of contract; total amount of contract, 
and awardee(s); indefinite delivery/indefinite quantity (ID/IQ); and 
multiple award--if yes, how many? Who were the winners?
    Answer. The attached Microsoft Excel spreadsheet contains the 
requested information. Missing data is not available from existing 
automated systems. The spreadsheet is tabbed for each of the fiscal 
years covered (i.e., fiscal year 2003-06). Criteria for selecting this 
data were: (1) the contract action was coded as a bundled contract and 
(2) the contract action had a positive dollar value.

                                                                         U.S. ARMY PROCUREMENT ACTIONS CODED AS BUNDLED
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                 Type of                                      Multiple or                        FPDS-NG CAR
          Org Level 1             Org Level 2      FPDS Award PIIN Extended     Contract      Type of IDC        Contract        Single        Contr Name       Obligated Amt    Award Face Val
                                                                              Pricing Desc                       Bundling        Award                             Change              Amt
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
       FISCAL YEAR 2003

Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................       $56,148,858
 Bundling.

           SERVICES

 Automatic Data Processing and
  Telecommunication Services

ACA...........................  ACA, North       DAAB15-02-D-1002-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $87,924.00        $87,924.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-BM01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $161,580.00       $161,580.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-BM02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $71,300.00        $71,300.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1N01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $63,074.00        $63,074.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,300.00        $74,300.00
                                                                                                              Critical.                     Corporation.
ATEC..........................  N/A............  DAAB15-02-D-1002-0RRS......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $67,964.00        $67,964.00
                                                                                                              Critical.                     Corporation.
DCCW..........................  N/A............  DAAB15-02-D-1002-F702......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $75,160.00        $75,160.00
                                                                                                              Critical.                     Corporation.
USACE.........................  N/A............  DAAB15-02-D-1002-ZA01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,083.00        $74,082.84
                                                                                                              Critical.                     Corporation.
USACE.........................  NWD............  DACW57-03-F-0130...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $56,300.00        $56,300.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $731,685.00
                                                                                                                                                             ==================
 Education & Training Services

ACA...........................  ACA, South       DASW01-00-D-3000-2H07......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                $121,274.00       $121,274.19
                                 Region.                                      Hours.......                                                  Consultants, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $121,274.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT

Aircraft & Airframe Structural
          Components

AMC...........................  AMCOM..........  DAAH23-03-D-0043-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $21,933,692.00    $22,046,500.00
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0002......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $1,364,499.00     $1,364,499.04
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0003......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft        $77,751.00        $77,750.57
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0004......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $28,962,862.00    $45,192,985.87
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft        $60,690.00        $58,965.23
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft       $208,991.00       $208,991.34
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $1,471,356.00     $1,471,356.36
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $54,079,841.00
                                                                                                                                                             ==================
   Communication, Detection,
 Coherent Radiation Equipment

AMC...........................  TACOM..........  DAAE07-99-D-N006-0020......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Honeywell                 $6,001.00         $4,650.64
                                                                                                                                            International
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $6,001.00
                                                                                                                                                             ==================
    Hardware and Abrasives

AMC...........................  AMCOM..........  DAAH23-00-D-0111-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Alcoa Global             $37,160.00        $37,160.20
                                                                                                                                            Fasteners, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $37,160.00
                                                                                                                                                             ==================
  Maintenance and Repair Shop
           Equipment

AMC...........................  AMCOM..........  DAAH01-03-C-0037...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Lockheed Martin         $299,280.00       $299,280.00
                                                                                                                                            Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $299,280.00
                                                                                                                                                             ==================
 Materials Handling Equipment

AMC...........................  TACOM..........  DAAE07-02-D-S040-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Grove U S L L C..        $77,905.00        $77,905.10
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $77,905.00
                                                                                                                                                             ==================
            Valves

AMC...........................  TACOM..........  DAAE07-01-D-S061-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Parker Hannifin         $114,104.00       $114,104.00
                                                                                                                                            Corporation.
AMC...........................  TACOM..........  DAAE07-02-D-S040-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Grove U S L L C..        $34,348.00        $34,348.00
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $148,452.00
                                                                                                                                                             ==================
Vehicular Equipment Components

AMC...........................  TACOM..........  DAAE07-99-D-S006-0140......  Fixed Price.  Not Applicable.  Mission          Unknown....  Caterpillar Inc..       $647,260.00       $645,760.24
                                                                                                              Critical.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $647,260.00
                                                                                                                                                             ==================
       FISCAL YEAR 2004

Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................       $96,048,732
 Bundling.

           SERVICES

 Automatic Data Processing and
  Telecommunication Services

ACA...........................  ACA, North       DAAB15-02-D-1002-1V02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $81,924.00        $81,924.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1N02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $67,149.00        $67,149.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $74,049.00        $74,049.00
                                                                                                              Critical.                     Corporation.
AMC...........................  TACOM..........  DAAB15-02-D-1002-DG01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $55,424.00        $55,424.00
                                                                                                              Critical.                     Corporation.
INSCOM........................  N/A............  DAAB15-02-D-1002-YJ01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $253,219.00       $253,219.00
                                                                                                              Critical.                     Corporation.
INSCOM........................  N/A............  DAAB15-02-D-1002-YJ02......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $48,640.00        $48,640.00
                                                                                                              Critical.                     Corporation.
NGB...........................  N/A............  DAAB15-02-D-1002-2Y01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $984,696.00       $984,696.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,565,101.00

 Education & Training Services

ACA...........................  ACA, South       DASW01-00-D-3000-0Q01......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                 $28,135.00        $28,135.20
                                 Region.                                      Hours.......                                                  Consultants, Inc.
ACA...........................  ACA, South       DASW01-00-D-3000-2H09......  Labor.......  Not Applicable.  Other..........  Unknown....  Resource                $145,915.00       $145,915.20
                                 Region.                                      Hours.......                                                  Consultants, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $174,050.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT

Aircraft & Airframe Structural
          Components

AMC...........................  AMCOM..........  DAAH23-03-D-0043-0008......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $80,837,530.00    $82,837,529.52
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0009......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft       $347,632.00       $347,632.00
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-C-0203...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  McDonnell Douglas     $7,000,000.00   $121,545,613.64
                                                                                                                                            Helicopter C.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                 $860,971.00       $860,971.00
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $89,046,133.00
                                                                                                                                                             ==================
     Aircraft Components &
          Accessories

AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                 $340,965.00    $17,138,066.22
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $5,494.00       $208,385.80
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $7,014.00        $76,100.83
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0001......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $716,950.00       $716,950.00
                                                                                                              Critical.                     Manufacturing Co.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,070,423.00
                                                                                                                                                             ==================
   Communication, Detection,
 Coherent Radiation Equipment

AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0006......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dyncorp                   $6,483.00         $6,483.38
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  CECOM..........  DAAB07-01-D-H806-0188......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Motorola, INC....        $87,089.00        $87,089.31
AMC...........................  TACOM..........  W56HZV-04-C-0642...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Rockwell Collins,       $387,380.00       $387,380.00
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $480,952.00
                                                                                                                                                             ------------------
   Automatic Data Processing
           Equipment

NGB...........................  N/A............  DABL01-03-D-1008-0193......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $10,954.00  ................
                                                                                                                                            Limited
                                                                                                                                            Partnership.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $10,954.00
                                                                                                                                                             ==================
        Guided Missiles

AMC...........................  AMCOM..........  W31P4Q-04-C-0024...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Raytheon Company.       $373,576.00       $359,267.00
                                                                                                              Critical.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $373,576.00
                                                                                                                                                             ==================
            Weapons

AMC...........................  AMCOM..........  W31P4Q-04-C-0010...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Herstal SA.......       $103,063.00       $111,619.82
                                                                                                              Critical.
AMC...........................  TACOM..........  DAAE20-03-D-0143-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                   $3,224,480.00     $3,348,990.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $3,327,543.00
                                                                                                                                                             ==================
       FISCAL YEAR 2005

Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................      $347,559,207
 Bundling.

           SERVICES

 Automatic Data Processing and
  Telecommunication Services

ACA...........................  ACA, North       DAAB15-02-D-1002-1V04......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $85,449.00       $145,499.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, North       DAAB15-02-D-1002-G803......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $89,799.00        $89,799.00
                                 Region.                                                                      Critical.                     Corporation.
ACA...........................  ACA, South       DAAB15-02-D-1002-1E03......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $499,718.00       $499,718.00
                                 Region.                                                                      Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $674,966.00
                                                                                                                                                             ==================
 Professional, Administrative
    and Management Support

AMC...........................  AMCOM..........  W58RGZ-05-C-0020...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Honeywell            $19,358,027.00    $19,358,026.53
                                                                                                              Critical.                     International
                                                                                                                                            Inc.
AMC...........................  CECOM..........  DAAB15-02-D-1002-ZS03......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $116,149.00       $116,149.00
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $19,474,176.00
                                                                                                                                                             ==================
 Transportation and Travel and
          Relocation

ACA...........................  ACA, PACIFIC...  W91QVP-05-A-4501-0009......  Fixed Price.  Not Applicable.  Mission          Unknown....  Miscellaneous             $3,744.00  ................
                                                                                                              Critical.                     Foreign Contract.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $3,744.00
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT

Aircraft & Airframe Structural
          Components

AMC...........................  AMCOM..........  DAAH23-03-D-0043-0010......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $52,875,890.00    $53,875,889.59
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0011......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $51,831,122.00    $52,060,560.01
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0011......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $42,951.00        $42,950.77
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0012......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp              $5,657,655.00     $5,657,655.11
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0013......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $99,881.00        $99,881.47
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0014......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                $224,215.00       $224,215.03
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0016......  Fixed Price   Not Applicable.  Other..........  Unknown....  Dynacorp              $7,356,393.00     $7,356,393.40
                                                                               Redetermina                                                  International
                                                                               tion.                                                        LLC.
AMC...........................  TACOM..........  DAAH23-02-G-0008-BR01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Bell Helicopter         $271,206.00       $271,205.90
                                                                                                              Critical.                     Textron, Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $118,359,313.00
                                                                                                                                                             ==================
     Aircraft Components/
          Accessories

AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                $679,940.00       $679,940.16
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0007......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,266.00         $2,265.98
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0002......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                      $7,252.00         $7,252.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0003......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $1,226,900.00     $1,226,900.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0004......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $858,830.00       $858,830.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0005......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $1,319,490.00     $1,319,490.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $997,100.00  ................
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                    $113,896.00       $113,896.00
                                                                                                              Critical.                     Manufacturing Co.
AMC...........................  AMCOM..........  W58RGZ-04-D-0227-0008......  Fixed Price.  Not Applicable.  Mission          Unknown....  Fenn                  $2,483,124.00     $2,483,124.00
                                                                                                              Critical.                     Manufacturing Co.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $7,688,798.00
                                                                                                                                                             ==================
   Ammunition and Explosives

AMC...........................  TACOM..........  W56HZV-05-C-0418...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Rockwell Collins,       $118,495.00       $118,494.70
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $118,495.00
                                                                                                                                                             ==================
      Engine Accessories

AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0008......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,269.00         $2,269.17
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $2,269.00
                                                                                                                                                             ==================
     Ground Motor Vehicles

AMC...........................  TACOM..........  W56HZV-05-G-0005-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $71,500,000.00    $71,500,000.00
                                                                                                                                            Land & Armaments.
AMC...........................  TACOM..........  W56HZV-05-G-0005-0002......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $78,378,300.00    $78,378,300.00
                                                                                                                                            Land & Armaments.
AMC...........................  TACOM..........  W56HZV-05-G-0005-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $18,626,266.00    $18,626,266.00
                                                                                                                                            Land & Armaments.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $168,504,566.00
                                                                                                                                                             ==================
        Guided Missiles

AMC...........................  AMCOM..........  W31P4Q-05-C-0314...........  Fixed Price.  Not Applicable.  Mission          Unknown....  Lockheed Martin         $388,421.00       $388,420.89
                                                                                                              Critical.                     Corporation.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $388,421.00
                                                                                                                                                             ==================
  Instruments & Lab Equipment

AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0009......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                  $2,266.00         $2,265.98
                                                                                                                                            International
                                                                                                                                            LLC.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0010......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp                 $17,704.00        $22,233.28
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $19,970.00
                                                                                                                                                             ==================
Vehicular Equipment Components

AMC...........................  TACOM..........  SP0750-02-D-9724-BR04......  Fixed Price.  Not Applicable.  Other..........  Unknown....  United Defense LP       $142,669.00       $142,669.46
AMC...........................  TACOM..........  W56HZV-05-G-0005-0003......  Fixed Price.  Not Applicable.  Other..........  Unknown....  B A E Systems        $31,444,479.00    $31,444,479.00
                                                                                                                                            Land & Armaments.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................    $31,587,148.00
                                                                                                                                                             ==================
            Weapons

AMC...........................  TACOM..........  DAAE20-03-D-0143-0006......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                     $737,341.00       $737,341.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $737,341.00
                                                                                                                                                             ==================
       FISCAL YEAR 2006

Total Fiscal Year Contract      ...............  ...........................  ............  ...............  ...............  ...........  .................      $124,522,201
 Bundling.

           SERVICES

Architect & Engineering
 Services--Construction.

ACA...........................  ACA, South       W911SF-06-F-0217...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Herman Miller,           $91,086.00        $91,086.23
                                 Region.                                                                                                    Inc.
ACA...........................  ACA, USACCE....  DABN13-03-A-0020-0009......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................         $1,043.28         $1,043.28
ACA...........................  ACA, USACCE....  DABN13-03-A-0020-0010......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................         $4,014.00         $4,013.56
USACE.........................  LRD............  W91237-05-D-0020-0015......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Project Time &           $16,993.00        $16,992.91
                                                                                                                                            Cost Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $113,136.28
                                                                                                                                                             ==================
 Automatic Data Processing and
  Telecommunications Services

ACA...........................  ACA, ITEC4.....  DAAB32-02-A-A021-0930......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Western Wireless         $40,017.00        $40,016.76
                                                                                                                                            Corporation
                                                                                                                                            (7897).
ACA...........................  ACA, North       DAAB15-02-D-1002-1V05......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft               $145,499.00       $145,499.00
                                 Region.                                                                      Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAB15-02-D-1002-BJ01......  Fixed Price.  Not Applicable.  Mission          Unknown....  Microsoft                $52,280.00        $52,280.00
                                                                                                              Critical.                     Corporation.
AMC...........................  TACOM..........  DAAB15-01-A-1005-BRV1......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L         $43,518.52        $43,518.52
                                                                                                                                            P.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $281,314.52
                                                                                                                                                             ==================
   Construction Structures/
          Facilities

ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0024......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $284.58           $284.58
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0025......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................            $45.53            $45.53
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0026......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $284.58           $284.58
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0027......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $113.83           $113.83
ACA...........................  ACA, USACCE....  DABN13-03-A-0014-0028......  Fixed Price.  Not Applicable.  Other..........  Unknown....  .................           $626.07           $626.07
ACA...........................  ACA, USACCE....  W912CM-06-H-0085...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous            $15,000.00  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
ACA...........................  ACA, USACCE....  W912CM-06-H-0103...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous            $91,747.00  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $108,101.59
                                                                                                                                                             ==================
 Lease or Rental of Equipment

ACA...........................  ACA, USACCE....  W912PB-04-D-0025-0079......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Toi Toi Sanitaer             $56.00            $55.66
                                                                                                                                            Systeme GMBH.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................            $56.00
                                                                                                                                                             ==================
 Maint. Repair/Alteration Real
             Prop

ACA...........................  ACA, USACCE....  W912PF-05-D-0002-0004......  Fixed Price.  Not Applicable.  Other..........  Unknown....  DI Gabbia Adolfo        $621,918.00       $529,721.74
                                                                                                                                            E Figlio SRL.
ACA...........................  ACA, USACCE....  W912PF-05-D-0002-0005......  Fixed Price.  Not Applicable.  Other..........  Unknown....  DI Gabbia Adolfo         $15,708.59        $13,379.87
                                                                                                                                            E Figlio SRL.
USACE.........................  NAD............  W912GB-04-D-0030-0047......  Fixed Price.  Not Applicable.  Other..........  Unknown....  SKE GMBH Und            $405,000.00       $355,792.50
                                                                                                                                            Bauunternehmung
                                                                                                                                            E.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,042,626.59
                                                                                                                                                             ==================
      Natural Resources &
         Conservation

NGB...........................  N/A............  DAHA92-01-D-0006-WV09......  Fixed Price.  Not Applicable.  Other..........  Unknown....  AMEC Earth &             $75,000.00  ................
                                                                                                                                            Environmental,
                                                                                                                                            In.
NGB...........................  N/A............  DAHA92-01-D-0006-WV13......  Fixed Price.  Not Applicable.  Other..........  Unknown....  AMEC Earth &             $60,000.00  ................
                                                                                                                                            Environmental,
                                                                                                                                            In.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $135,000.00
                                                                                                                                                             ==================
 Professional, Administrative
    and Management Support

USACE.........................  N/A............  DACA78-99-D-0003-0058......  Cost Plus     Not Applicable.  Other..........  Unknown....  Brown & Root            $808,100.00  ................
                                                                               Fixed Fee.                                                   Services
                                                                                                                                            Corporat.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $808,100.00
                                                                                                                                                             ==================
 Education & Training Services

NGB...........................  N/A............  W91151-04-D-0018-9H05......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Lear Siegler              $5,000.00  ................
                                                                                                                                            Services
                                                                                                                                            Incorporated.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $5,000.00
                                                                                                                                                             ==================
  Transportation, Travel and
          Relocation

ACA...........................  ACA, North       W911S1-06-A-0009-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  Hospitality                 $177.00           $177.00
                                 Region.                                                                      Critical.                     Properties Trust.
ACA...........................  ACA, USACCE....  DABN03-03-D-0005-0088......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Auto Joncker GMBH         $8,954.00         $8,953.90
                                                                                                                                            & Co. KG.
NGB...........................  N/A............  W91SMC-05-A-0017-0018......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Maple Hill                  $605.00           $604.80
                                                                                                                                            Partnership.
USACE.........................  SWD............  W912HQ-04-D-0006-DY13......  Fixed Price.  Not Applicable.  Other..........  Unknown....  The Gallup                $4,056.00         $4,056.00
                                                                                                                                            Organization.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $13,792.00
                                                                                                                                                             ==================
   Utilities & Housekeeping
           Services

ACA...........................  ACA, USACCE....  DABN13-03-D-0003-0032......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dale SRL.........         $3,806.94         $2,696.44
ACA...........................  ACA, USACCE....  DAJA61-02-D-0001-L183......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Le Techno Clere             $529.31  ................
                                                                                                                                            SPRL.
ACA...........................  ACA, USACCE....  DAJA61-02-D-0001-L190......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Le Techno Clere             $560.05  ................
                                                                                                                                            SPRL.
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG17......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $20,545.98  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG23......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $15,646.81  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG24......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......        $18,783.36  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG28......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......         $2,468.58  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG34......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......         $1,292.54  ................
ACA...........................  ACA, USACCE....  W912CM-05-D-0020-UG38......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Noelke GMBH......           $611.38  ................
ACA...........................  ACA, USACCE....  W912PB-06-C-0033...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Nordbayerische          $399,544.00       $399,544.22
                                                                                                                                            Staedtereinigung
                                                                                                                                            Altvater GMBH
                                                                                                                                            and Company KG.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $463,788.95
                                                                                                                                                             ==================
     SUPPLIES & EQUIPMENT

Aircraft & Airframe Structural
          Components

AMC...........................  AMCOM..........  DAAH23-03-D-0043-0012......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft    $98,622,379.00    $98,622,379.40
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  DAAH23-03-D-0043-0014......  Fixed Price.  Not Applicable.  Mission          Unknown....  Sikorsky Aircraft     $5,546,368.00     $5,546,368.01
                                                                                                              Critical.                     Corporation.
AMC...........................  AMCOM..........  W58RGZ-04-D-0034-0017......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dynacorp              $9,124,802.00     $9,124,802.05
                                                                                                                                            International
                                                                                                                                            LLC.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................   $113,293,549.00
                                                                                                                                                             ==================
 Communication, Detection, and
 Coherent Radiation Equipment

NGB...........................  N/A............  W912L8-06-F-0086...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Avaya Inc........         $5,814.96         $5,814.96
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $5,814.96
                                                                                                                                                             ==================
           Furniture

ACA...........................  ACA, South       W91247-06-F-0225...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  The Hon Company..       $140,689.00       $140,688.97
                                 Region.
ACA...........................  ACA, South       W9124Q-06-F-4033...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Diebold                   $3,811.25  ................
                                 Region.                                                                                                    Incorporated.
ACA...........................  ACA, USACCE....  W912CM-06-A-6008-0001......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Miscellaneous             $3,878.55  ................
                                                                                                                                            Foreign
                                                                                                                                            Contractors.
USACE.........................  SAD............  W91278-06-F-0104...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Knoll Inc........        $58,306.00        $58,306.01
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $206,684.80
                                                                                                                                                             ==================
   Automatic Data Processing
           Equipment

ACA...........................  ACA, ITEC4.....  DABL01-03-D-1008-E1B8......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $59,490.00        $59,490.24
                                                                                                                                            Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, ITEC4.....  W91RUS-06-F-0088...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  4 Sure.Com Inc...         $3,209.00         $3,208.79
ACA...........................  ACA, ITEC4.....  W91RUS-06-F-0090...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Spirent Federal         $189,000.00       $189,000.00
                                                                                                                                            Systems Inc.
ACA...........................  ACA, North       DAAB15-01-A-1005-1GT6......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L        $125,221.00       $125,220.50
                                 Region.                                                                                                    P.
ACA...........................  ACA, North       DABL01-03-D-1009-0S09......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Hewlett-Packard           $3,104.00  ................
                                 Region.                                                                                                    Company.
ACA...........................  ACA, North       W91QF6-06-F-0020...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing          $110,624.00       $110,624.40
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DAAB15-01-A-1002-1E29......  Fixed Price.  Not Applicable.  Other..........  Unknown....  CDW Government,          $81,304.00        $81,304.00
                                 Region.                                                                                                    Inc.
ACA...........................  ACA, South       DABL01-03-D-1008-1E51......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $84,501.94        $84,501.94
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DABL01-03-D-1008-1E58......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing          $117,371.76       $117,371.76
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       DABL01-03-D-1008-1E66......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing           $41,298.62        $41,298.62
                                 Region.                                                                                                    Limited
                                                                                                                                            Partnership.
ACA...........................  ACA, South       W911SE-06-F-0293...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  GTSI Corporation.       $193,739.05  ................
                                 Region.
NGB...........................  N/A............  DAAB15-01-A-1005-YX07......  Fixed Price.  Not Applicable.  Other..........  Unknown....  Dell Marketing L         $51,012.35  ................
                                                                                                                                            P.
NGB...........................  N/A............  W9124X-06-F-0133...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  MPC-G, LLC.......        $92,300.00  ................
NGB...........................  N/A............  W912NS-06-F-0035...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Hewlett-Packard          $16,044.00  ................
                                                                                                                                            Company.
USACE.........................  MVD............  W912EQ-06-F-0067...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  MPC-G, LLC.......         $3,480.00         $3,480.00
USACE.........................  POD............  W9128A-06-F-0002...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Trimble                   $7,830.00         $7,830.00
                                                                                                                                            Navigation
                                                                                                                                            Limited.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $1,179,529.72
                                                                                                                                                             ==================
  Instruments & Lab Equipment

AMC...........................  AMCOM..........  W58RGZ-06-C-0178...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  BAE Systems             $212,485.00       $212,485.00
                                                                                                                                            Incorporated
                                                                                                                                            (9942).
NGB...........................  N/A............  W912L7-06-F-0098...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  Olympus                  $60,501.00        $60,501.00
                                                                                                                                            Industrial
                                                                                                                                            America Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................       $272,986.00
                                                                                                                                                             ==================
     Office Machines, Text
Processing Systems and Visible
       Record Equipment

ACA...........................  ACA, ITEC4.....  W911T8-06-F-0061...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  CDW Government           $17,800.00        $17,800.00
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................        $17,800.00
                                                                                                                                                             ==================
 Refrigeration, A/C Equipment

NGB...........................  N/A............  W912JF-06-F-0100...........  Fixed Price.  Not Applicable.  Other..........  Unknown....  American Hotel            $8,433.58         $8,433.58
                                                                                                                                            Register Company.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................         $8,433.58
                                                                                                                                                             ==================
            Weapons

AMC...........................  TACOM..........  DAAE20-03-D-0143-0007......  Fixed Price.  Not Applicable.  Mission          Unknown....  F N                   $6,566,487.00     $6,566,487.00
                                                                                                              Critical.                     Manufacturing,
                                                                                                                                            Inc.
                                                                                                                                                             ------------------
      Total...................  ...............  ...........................  ............  ...............  ...............  ...........  .................     $6,566,487.00
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Do your ID/IQ's or large bundled contracts have set 
asides for small and disadvantaged businesses (SDB's)? If yes,
    i. What is the average size of the SDB's (employee's size and 
revenue) that have received bundled contract awards?
    ii. What percentage of business do these small and disadvantaged 
businesses get from your ID/IQ tasks?
    Answer. The U.S. Army uses small business set-asides when the 
contracting officer is able to determine there is a reasonable 
expectation that offers will be received from at least two responsible 
small business concerns and the award will be made at fair market 
prices. The level of detail of the information requested above 
(example: average size of the SDB's (number of employees and revenue)) 
is not available in the Federal Procurement Data System-Next Generation 
or the U.S. Army contract writing systems.
    Question. Does the Army have a Small and Disadvantaged Business 
Policy?
    If yes--please describe how and when this policy is applied to each 
procurement that the Army conducts--at Acquisition strategy time? At 
the time of drafting the Statement of work? At the time of the release 
of the RFP? At the time of contract award?
    How to you enforce this policy?
    Answer. Yes, the Army does have a small business policy which 
includes the small and disadvantaged business (SDB) program. It is Army 
policy to ensure that a fair proportion of the total Army purchases are 
placed with small businesses and SDB firms at both the prime and 
subcontract levels. The policy also provides for outreach and 
counseling to these entities to assist them in understanding how to do 
business with the Army. At each Army contracting activity, a small 
business specialist (SBS) is assigned. The SBS is responsible for 
reviewing requirements early in the procurement cycle, during the 
acquisition strategy development phase, to determine if the acquisition 
is suitable for small/SDB participation. As a function of their 
responsibilities, the SBS will conduct market research to determine if 
there are two or more small/SDBs capable of performing the requirement. 
If so, they will recommend that the requirement be set-aside for small/
SDB firms as prime contractors. One of the enforcement tools the SBS 
has is to non-concur if the acquisition strategy is not incompliance 
with the policy. This required on all acquisitions over $10,000. The 
SBS is also required to forward their non-concurrence to the Small 
Business Administration.
    Question. Does the Army have a Small and Disadvantaged Business 
Utilization Advocate (SADBU Advocate)?
    Answer. Yes, in accordance with the Small Business Act of 1953 and 
Public Laws 83-163 and 85-536, the Army has a Director, Small and 
Disadvantaged Business Utilization (SADBU). The Director, SADBU 
traditionally reports directly to the Secretary of the Army.
    Question. What is the overall role of the SADBU in the Army? Is it 
an advocacy role? Or an enforcer role? Or a reviewer role? Does each 
command have a SADBU?
    Answer. The Director, SADBU, advises the Secretary of the Army and 
the Army leadership on small business related matters; spearheads 
innovative initiatives that contribute to expanding the small business 
industrial base relevant to the Army mission and priorities; and 
leverages the use of minorities serving educational institutions in 
support of Army science and technology programs. Each Army command is 
required to appoint an Associate Director for Small Business.
    Question. What is the SADBU's role in each procurement? Is it 
substantive? Or advisory?
    Answer. The SADBU performs in an advisory capacity on procurement. 
However, the SADBU role in the procurement process can be very involved 
as they conduct market research to determine if there are capable 
small/SDB firms available to perform the stated requirement and reviews 
the acquisition strategy to ensure that no barriers to small business 
participation exist.
    Question. Can the SADBU redirect procurements to Small and 
Disadvantaged businesses to include SBA-certified 8(a) businesses?
    Answer. When market research shows that there are two or more SDB 
firms, including SBA-certified 8(a) firms capable of performing the 
requirement, the SADBU can request that the requirement be set-aside 
for SDB/8(a) firms.
    Question. Does the Army have an 8(a) set-aside program?
    Answer. Yes, the Army fully supports the Small Business 
Administration 8(a) Business Development Program as required by the 
Business Opportunity Development Reform Act of 1988 [15 U.S.C. 
636(j)16(a)  (B)].
    Question. How does the Army define an 8(a) set aside program? What 
disadvantaged group do you include in this program? Do you give 
preference to a particular disadvantaged group? How is this program 
run?
    Answer. The Army supports fully the 8(a) program as defined by 
Section 8(a) of the Small Business Act [15 U.S.C. 637 (a)]. The Small 
Business Administration (SBA) administers the program to assist small 
disadvantaged business firms compete in the American economy.
    The SBA classifies the following ethnic groups as disadvantaged: 
Black Americans, Hispanic Americans, Native Americans, Asian Pacific 
Americans, Subcontinent Asian Americans, and members of other groups 
designated on a case by case basis by the SBA.
    The Army does not give preference to a particular disadvantaged 
group. However, if SBA has not accepted a requirement into the 8(a) 
program, an 8(a) firm owned and controlled by an Indian tribe or Native 
Hawaiian or Alaska Corporation can receive that 8(a) contract directly, 
at any dollar value without competition.
    The Army 8(a) program is managed by a Partnership Agreement (PA) 
between SBA and the Department of Defense (DOD). The partnership 
agreement delegates SBA's contractual execution functions to DOD per 
the requirements of 13 C.F.R.  124.501. The SBA determines and 
quantifies the extent to which the 8(a) Business Development Program 
assist in the development of firms owned and controlled by socially and 
economically disadvantaged individuals.
    Question. Do the 8(a) firms have to compete to get an award? Or do 
they get directed awards?
    Answer. When contracting with certified 8(a) firms the Army is 
authorized to utilize either the competitive or sole source method of 
procurement. However, the preferred method is through the competitive 
acquisition process, especially if the anticipated award price will 
exceed $5.5 million for manufacturing and $3.5 million for services. 
Sole source awards made to Native American Tribal-Owned firms and 
Native Hawaiian or Alaska Corporations are exempt form the dollar 
thresholds.
    Question. How many contracts have been awarded under this program? 
What is the average value of these set-aside programs?
    Answer. Since fiscal year 2001, the Army has awarded over 8,000 
contract actions to 8(a) firms.
    The total value of contract actions awarded to 8(a) firms over the 
past six fiscal years, fiscal year 2001-fiscal year 2006 was 
approximately $15.2 billion at an average of $2.5 billion per year.
    Question. Does the Army have a Mentor-Protege program for 8(a) 
companies?
    How does that work?
    How can an 8(a) company take advantaged of the mentor/protege 
program?
    What do the 8(a) companies get out of it?
    What does the Army get out of it?
    Answer. The Army supports fully the goals of the DOD Pilot Mentor-
Protege Program (MPP) established under Section 831 of Public Law 101-
510, the National Defense Authorization Act for Fiscal Year 1991. The 
National Defense Authorization Act for Fiscal Year 2005 extended the 
MPP until September 30, 2010 for approval of new agreements. The 
Department of Defense delegated approval authority for mentor-protege 
agreements to the Services beginning in fiscal year 2004. Certified 
small disadvantaged business concerns (including 8(a) companies), 
woman-owned small business concerns, service disabled veteran-owned 
small business concerns, Indian-owned small business concerns, and Hub 
Zone certified small business concerns are all eligible to participate 
as proteges. Currently, 22 8(a) certified companies are participating 
in Army MPP agreements as proteges.
    The MPP program is designed to provide incentives to prime 
contractors to develop the technical and business capabilities of 
eligible proteges to increase their participation in both prime 
contracts and subcontracts. Under the DOD Pilot MPP, the Army is 
authorized to approve MP agreements for reimbursement of the mentor's 
costs for mentoring the protege. Appropriated funds are provided each 
year for this purpose and the agreement is effectuated and funded by 
modifying a contract the mentor already has with the Army.
    Since the DOD MPP stipulates that it is the sole responsibility of 
the mentor to select a protege, an 8(a) company can take advantage of 
the MPP by partnering with an Army prime contractor who is willing to 
serve as a mentor and has the ability to mentor the protege in the 
business and technical areas for which the protege needs to increase 
capabilities to be more competitive in the DOD market. Usually, the 
mentor is a firm that an 8(a) company already has a business 
relationship with. The 8(a) companies benefit under the MPP by gaining 
technology transfer, technical management skills, a long-term 
relationship with their mentor, enhanced competitiveness in the DOD 
market, increased subcontracting opportunities, and increased prime 
contracting opportunities.
    The Army goal is to engage industries to shape and expand the 
industrial base to support the war fighter. To that end, the MPP is a 
tool that promotes partnerships between 8(a) companies and large prime 
contractors to achieve that purpose.
    Question. A couple of recent Army contracts have changed the NAICS 
codes (codes are used to identify services or products that can be 
provided, with defined ceilings in both size and revenue of companies) 
merely to change the top limit of size of companies--usually to 
increase the size--so that larger companies can qualify under a small 
business set aside (in one case the NAICS code was changed so that 
small companies that have 500 employees can bid, from a prior NAICS 
code that required small companies to have a maximum of 100 employees).
    Is this a prevalent practice in the Army? If so why?
    Answer. Changing the NAICS codes merely to change the top limit of 
the size of companies so that larger companies can qualify under a 
solicitation set-aside for small business is not a prevalent practice 
within the Army procurement process. The Army policy as it relates to 
selecting a NAICS code for a particular requirement is in accordance 
with the Federal Acquisition Regulation Part 19.1. Specifically, the 
NAICS code selected for a particular solicitation is normally for a 
particular product or service whose definition best describes the 
principal nature of the product or service being acquired and the size 
standard for the industry accounting for the greatest percentage of the 
contract price.
    Question. What steps does the Army take to ensure that smaller 
sized companies also have a chance to compete?
    Answer. The Director, SADBU participates as a member on the Army 
Service Strategy Panel to ensure that the small business interest is 
not over looked. Army Commands' SADBUs regularly conduct outreach to 
the small business community and to targeted small business groups 
(e.g. SDB, woman-owned small businesses, service-disabled veteran-owned 
small businesses etc.). During the acquisition strategy development 
phase on major procurements, contracting activities often conduct 
industry briefings specifically targeted at the small business 
community to determine the feasibility of setting the requirement aside 
for SB and provide the SB community an opportunity to understand and 
comment on the requirement. Additionally, in those instances when 
consolidation of contract requirements is justified and SB 
participation is limited to subcontracts, the Director SADBU recommends 
the inclusion of strong SB subcontracting goals as a percent of the 
total contract value.
    Question. Does the Army hold large businesses accountable for 
meeting their small business goals?
    Answer. Yes. Performance against negotiated small and disadvantaged 
business subcontracting plans is monitored and is included as part of 
the prime contractor's performance evaluation.
    Question. Does the Army require larger companies to have small and 
disadvantaged (SDB and 8(a)) business goals?
    Answer. Yes. The Army supports fully the statutory requirement that 
government prime contractors must ensure that small business (SB) 
concerns, small disadvantaged business (SDB) concerns, women-owned 
small business (WOSB) concerns, historically underutilized business 
zone small business (HUBZone) concerns, and service-disabled veteran-
owned small business (SDVOSB) concerns have the maximum practicable 
opportunity to participate as subcontractors in contract performance 
consistent with efficient performance. Public Law 95-507 established 
the requirement for all Federal prime contractors who were other than 
small business concerns that receive a prime contract of $500,000 or 
more ($1 million for construction) to negotiate a subcontracting plan 
that ensures that small business and SDB concerns are provided maximum 
practicable opportunity to compete for subcontracting opportunities. 
The Army adheres to the subcontracting plan requirements.
    Additionally, Section 834 of Public Law 101-189 required the 
Secretary of Defense to establish a test program to determine whether 
the negotiation and administration of comprehensive small business 
subcontracting plans on a corporate, division, or plant-wide basis will 
result in increased opportunities for small and small disadvantaged 
business concerns under DOD contracts. The test program began on 
October 1, 1990, and will run through September 30, 2010. Any Army 
contracts awarded to test participants are covered by the comprehensive 
small business subcontracting plan and are exempt from the requirement 
to negotiate an individual subcontracting plan. Currently, the 
comprehensive subcontracting plans are negotiated and monitored by the 
Defense Contract Management Agency (DCMA).
    Question. How are large businesses held accountable to meeting 
these goals? How does the Army track these goals? Are there any 
penalties for not meeting these goals?
    Answer. Large businesses are required to submit semi-annual reports 
regarding subcontract awards.
    Prime contractors are required to submit semi-annual reports to the 
administrative contracting officer that provides the status of their 
compliance with the approved subcontracting plan. Additionally, the 
DCMA monitors contract performance for many of the Army contracts.
    If the prime contractor does not meet the goals, liquidated damages 
may be assessed if it can be determined that the prime contractor did 
not make a good faith effort in administration of the plan. However, 
the Army has established various methods to enhance subcontracting 
opportunities including, providing incentives for small business 
subcontracting through source selection criteria and award fee 
provisions; continuing to emphasize participation in the Mentor-Protege 
program; counseling and encouraging small businesses to participate in 
subcontracting opportunities; and tracking proposed subcontracting plan 
goals versus actual accomplishments and taking corrective action where 
appropriate. Past performance is documented and utilized for future 
source selection decisions.
    Question. Are the penalties enough to ensure that big businesses 
meet those goals?
    Answer. Yes. The goal setting process requires the contractor and 
the Army to estimate the goal based on circumstances today, for 
contracts that may last for 5 years or longer. It must allow for the 
exercise of business judgment by the administrative contracting officer 
based on actual events that occur throughout the life of the contract 
to determine if the contractor made a good faith effort even if all 
goals are not achieved. The most effective penalty is the lower source 
selection evaluation rating given to a contractor with negative past 
performance information concerning subcontracting.
    Question. Please describe what positive steps the Army is taking or 
will take to ensure that small and disadvantaged companies and 8(a) 
companies have a chance to win business with the Army.
    Answer. The Director, SADBU participates as a member on the Army 
Service Strategy Panel to ensure that the small business interest is 
not over looked. The Army Commands' SADBUs regularly conducts outreach 
to the small business community and to targeted small business groups 
(e.g. SDB, woman-owned small businesses, service-disabled veteran-owned 
small businesses etc). During the acquisition strategy development 
phase on major procurements, contracting activities often conduct 
industry briefings specifically targeted at the small business 
community to determine the feasibility of setting the requirement aside 
for SB and provide the SB community an opportunity to understand and 
comment on the requirement. Additionally, in those instances when 
consolidation of contract requirements is justified and SB 
participation is limited to subcontracts, the Director SADBU recommends 
the inclusion of strong SB subcontracting goals as a percent of the 
total contract value.

           RETALIATION AGAINST SOLDIERS FOR WRAMC COMPLAINTS

    Question. As you know, soldiers were ignored when they complained 
to Army commanders about conditions at Walter Reed Army Medical Center. 
Revelations about deplorable living conditions at Building 18 and 
bureaucratic nightmares came to light through the press rather than the 
Army's chain of command. In your response to my question about soldiers 
being retaliated against for speaking out about problems at Walter Reed 
and elsewhere, you told me that the Army does not retaliate against 
soldiers for reporting problems to Army officials. What about soldiers 
who speak to journalists? Will the Army punish those soldiers?
    Answer. The Army does not have a policy against speaking with 
journalists. Consistent with long-standing Army Public Affairs 
policies, Soldiers may communicate with the media in an unofficial 
capacity, and may express personal opinions unless limited by law or 
regulation. We encourage Soldiers to candidly discuss matters about 
which they have personal knowledge, if the information is otherwise 
releasable or not classified.
    Recent events at Walter Reed Army Medical Center have revealed that 
the Army failed to provide adequate care to Soldiers. The Army 
leadership is fully committed to taking corrective action. Nothing is 
more critical to our Army today than maintaining the trust of the 
American people. Equally important is the trust of our Soldiers in our 
ability to correct problems that have been identified to us. This makes 
it imperative that leaders at every level take appropriate action to 
identify problems regarding Soldier care and ensure that corrective 
actions are taken.
    The first step in correcting these problems is to foster an 
environment in which Soldiers and their Family members are encouraged 
to bring these issues to the attention of responsible officials. 
Leaders must ensure that Soldiers are aware of available avenues of 
reporting. Within the Army, this includes the chain of command; the 
Inspector General; hospital ombudsman (if available); and the Wounded 
Soldier and Family Hotline. Soldiers and Families are not prohibited 
from reporting issues to other appropriate Federal or State officials. 
During the course of examining the reported problems, Army 
investigators may direct witnesses subject to their authority not to 
discuss their statement or testimony with other persons until the 
investigation is complete. Such orders may be necessary if 
investigators are concerned about possible influence upon witnesses yet 
to be heard, and remain in effect only so long as necessary to protect 
the integrity of the investigative process.
    Question. Since it is absolutely critical that this committee knows 
about the problems our soldiers face, I want your assurance that 
soldiers who blow the whistle on such problems will not be retaliated 
against by the Army.
    Answer. The Army adheres strictly to the prohibition, as set forth 
in 10 USC 1034, against restricting any Soldier's communications with 
Members of Congress. Further, we will not tolerate or condone reprisal 
against a Soldier for making or preparing a protected communication to 
the Committee.
    Question. Are there any circumstances in which a service member 
could be punished for speaking to the press? What are those 
circumstances and what is the justification for that?
    Answer. Because of a need for an effective and disciplined Army, 
the First Amendment right of speech is not absolute within the 
military, even when made to journalists. For example, the Uniform Code 
of Military Justice prohibits contemptuous speech toward certain 
Government officials in Article 88. Also, Soldiers can be ordered not 
to discuss classified information or other sensitive information, such 
as information related to operational security, with journalists. The 
violation of such an order could be punished under Article 92 of the 
Code. Similarly, limitations may be placed on Soldiers during the 
performance of their duties that could impact on their communications 
with a member of the press. For example, a Soldier who is performing 
critical or essential duties could be directed to continue to perform 
those duties rather than meet with a member of the press.
    Soldiers may also be directed not to discuss information with 
others during the course of an investigation or trial. For example, you 
may recall that the Army directed an investigation of the circumstances 
surrounding the ambush of then Private Jessica Lynch's convoy, early in 
the Iraq War. That event was the subject of extensive press interest. 
To preserve the investigation's credibility and independence, Soldiers 
involved in the incident were directed not to speak with the press 
during the pendency of the investigation. As soon as the investigation 
was completed, this limitation was lifted. In the case at hand, there 
are two investigations being conducted by the chain of command into the 
matters surrounding the inadequate administrative services and the 
facilities maintenance and repair. The appointing official and the 
investigating officers may deem it appropriate in certain circumstances 
to direct witnesses subject to their authority not to discuss their 
statement or testimony with other witnesses or with persons who have no 
official interest in the proceedings until the investigation is 
complete. Such orders may be necessary if investigators are concerned 
of possible influence upon witnesses yet to be heard. Such orders 
should remain in effect only to the extent required to ensure the 
integrity of the investigative process.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                 NATIONAL GUARD EQUIPMENT AND READINESS

    Question. Secretary Geren, I have been informed that operations in 
Iraq and Afghanistan have intensified equipment shortfalls in the 
National Guard and Reserves, as well as active forces. Of particular 
concern with the National Guard is the impact on its ability to sustain 
readiness through home-station training and to provide a timely 
response to natural disasters or domestic crisis situations. Can you 
share with the Committee what the plan is to properly resource Guard 
and Reserve units in order to ensure readiness for Federal and State 
missions?
    Answer. Equipment pressures in theater (OIF/OEF) are the continued 
evolution of the threat against our force protection vehicle and 
individual Soldier solutions. Timely reaction to these threats results 
in rapidly changing priorities in executing our funding. Even today, 
emerging solutions to protect Soldiers demand funding changes that will 
lessen procurement of equipment for Active and Reserve Component (RC) 
units. The primary impact of these changes will be filling the 
equipping requirements for non-deployed Soldiers and units, and in 
their preparation for other potential contingencies. The Army has been 
filling the original $56 billion in equipping shortfalls that existed 
at the start of the conflict. With the tremendous support of Congress, 
we have filled $47 billion of those shortfalls, leaving $9 billion 
remaining. However, the experiences of today's warfare necessitate 
changes in our modernization design, to include structuring the RCs to 
the same modern design as their active counterparts. To complete this 
equipping, an additional $43 billion is needed: $24 billion for the 
Army National Guard, $10 billion for the Army Reserve, and $9 billion 
for the Active Component support unit modernization. This total of $52 
billion in shortfalls ($9 billion original plus $43 billion 
modernization) is within the current program. An additional $10 billion 
per year for each year remaining in the program (fiscal year 2009-13) 
would be needed to complete fielding equipment to all components by 
fiscal year 2015.

               FIRE SCOUT UNMANNED AERIAL VEHICLES (UAVS)

    Question. Secretary Geren, Commanders in Operation Iraqi Freedom 
cite Unmanned Aerial Vehicles (UAVs) as one of their most pressing 
needs. The Army procured eight Fire Scout UAVs and currently has five 
of these vehicles at Moss Point, MS with a sixth expected by June and 
the remaining two to be completed by the end of the year. Essentially, 
you have operational UAVs sitting in a warehouse and not scheduled to 
have sensors integrated until 2014. With the pressing need for 
Intelligence, Surveillance and Reconnaissance to help with force 
protection and other missions, why would the Army not load available 
sensors onto these UAVs and allow troops on the ground to benefit from 
these assets you already own instead of letting them sit in a warehouse 
until 2014?
    Answer. The eight Class IV Unmanned Aerial Systems you reference 
are pre-production air frames only, not capable of flight yet. The 
systems are being used to perform integration of Future Combat System 
(FCS)-specific avionics and computer systems and testing of flight 
software to meet the FCS requirements. The preliminary design review is 
July 2008, the critical design review is July 2009 and first flight is 
November 2010. These dates are synchronized with the overall FCS 
integrated schedule. Removing these prototypes from the development 
schedule and retrofitting them with current payloads, communications, 
and avionics would have a minimal operational impact, but would hamper 
the FCS integration schedule. Nonetheless, FCS has been working with 
Northrop Grumman, developer of the Fire Scout, to explore earlier 
flight opportunities.

                SIMULTANEOUS FIELD RADIATION TECHNOLOGY

    Question. Secretary Geren, I understand Diversified Technology, a 
Mississippi based company, has made significant gains in antenna 
development with the use of Simultaneous Field Radiation Technology. 
This technology, as I understand it, allows for the replacement of 
current large antenna with miniaturized antenna while increasing 
transmitting consistency and range by over 300 percent. Additional 
benefit is also realized by a measurable advancement in operating power 
efficiency which improves battery life.
    Given current electromagnetic and energy management challenges, 
would you agree such technology would be attractive to the Army? Would 
you look into this and let me know when the Army plans to take 
advantage of this technology?
    Answer. This technology appears promising. The U.S. Army 
Communications Electronics Command (CECOM), Research and Development 
Center and the Product Manager for Tactical Radio Systems will contact 
Diversified Technologies for additional information on this antenna in 
order to evaluate its applicability to the Army.

       MEDICAL TECHNOLOGY IN FISCAL YEAR 2008 ARMY BUDGET REQUEST

    Question. Secretary Geren, the survival rate for a service member 
wounded in the Global War on Terrorism is higher than at any point in 
our history. Medical professionals ranging from military medics to 
surgeons have performed great work ensuring Soldiers, Sailors, Airmen, 
and Marines are afforded an exceptional chance at survival from wounds. 
During the Vietnam conflict, it took an average of 45 days to evacuate 
wounded soldiers back to the United States for major surgery. In the 
1991 Persian Gulf War, evacuation of our wounded to the United States 
took 10 to 14 days. Today, wounded Soldiers are evacuated back to the 
United States within 3 days. While we have made substantial strides in 
medical technologies, I would like to hear how this request works to 
further improve survivability and care for our service members.
    Answer. In fiscal year 2008, the Army budget request includes $46 
million for combat casualty care research. This includes research to 
develop a new paradigm to resuscitate wounded casualties using 
resuscitation fluids that stops bleeding as well as replacing lost 
blood volume, neuroprotective drugs to reduce the effects of 
penetrating head trauma, freeze dried blood products that can be pushed 
far forward to our medics, more realistic training aids and simulators 
to better train our medics, and intensive care, life support equipment 
that can monitor severely injured patients without human intervention.
    Fiscal year 2008 will also mark the first year of a major effort in 
regenerative medicine. We plan to establish the Armed Forces Institute 
of Regenerative Medicine which will have the goal of regenerating 
damaged limbs and faces using the Soldier's own stem cells.
    Moreover, advanced development efforts continue to be provided to 
the Warfighter as part of the Tactical Combat Casualty Care concept 
implementation and have resulted in demonstrated improvement in 
Warfighter survivability. These items include the Combat Application 
Tourniquet (CAT), the Chitosan Hemostatic Dressing, and the Improved 
First Aid Kit (IFAK) (which includes both the chitosan dressing and 
CAT). Battlefield oxygen production and resuscitative fluids are 
continuing areas of concentration for advanced development.

                     JOINT HIGH SPEED VESSEL (JHSV)

    Question. General Schoomaker, the Army's fiscal year 2008 budget 
requests supports the procurement of the first Joint High Speed Vessel. 
I understand these vessels are highly flexible, adaptable to a variety 
of payloads, much faster, and can operate in shallower ports than 
traditional larger vessels. Would you share with the subcommittee how 
you plan to use these vessels and how they may assist us in the Global 
War on Terrorism?
    Answer. The Joint High Speed Vessel (JHSV) provides the Joint Force 
Commander (JFC) with an intra-theater mobility asset that enables 
rapid, flexible and agile maneuver of intact combat-ready units and 
transport of sustainment supplies between advance bases, austere and 
degraded port facilities or offload sites, austere littoral access 
points, and the sea base. The JHSV will be capable of self-deploying 
worldwide to the theater of operations. Combatant commands identify 
high speed intra-theater surface lift as a critical gap in their 
ability to support the Global War on Terrorism (GWOT), their theater 
security cooperation program, and current operations.
    The GWOT counters a plethora of new asymmetric threats designed to 
erode, paralyze and marginalize U.S. power. To meet these 
unconventional challenges, U.S. Joint Forces Command must be prepared 
to rapidly plan and execute a broad range of joint, small scale 
contingency operations, while maintaining the capability to prevail in 
major combat operations. The keys to success in many operations remains 
the ability to quickly maneuver sufficient forces into critical 
positions, and to provide sustained logistics support until a decisive 
victory is achieved. Intra-theater lift will be especially crucial in 
future conflicts in which enemies may be able to obstruct or deny 
altogether the use of fixed entry points such as airfields and 
seaports. Shore infrastructure and support such as cranes, tugs, and 
other port services will not exist or be available in many of the 
austere ports where future JFCs will need to operate. Therefore the 
JHSV's ability to access non-traditional, shallow draft ports will be 
essential for the delivery of forces and logistics support.

                  MANNING THE FORCE--RC MOBILIZATIONS

    Question. General Schoomaker, last month, Secretary Gates announced 
a change in Reserve component policy that changes the way reserve 
component forces are managed in order to support requirements for the 
Global War on Terrorism. Secretary Gates stated a policy objective for 
involuntary mobilization of National Guard and Reserve units will 
remain a ratio of one-year mobilized to five-years demobilized. Does 
this funding request adequately address the challenges of manning the 
force to achieve this goal?
    Answer. The current funding request does not address any changes in 
requirements regarding changes of the Department of Defense's (DOD) 
mobilization policy. Due to the timing of Secretary Gates' policy 
announcements on involuntary mobilization and submission of the 
President's fiscal year 2008 budget, we were unable to assess the 
funding impacts of these changes for inclusion into this funding 
request. The DOD is in the process of fully assessing these impacts and 
will make an appropriate determination on how best to handle any 
changes in funding requirements.

                    REDUCING THREAT FROM THE AIR/ASE

    Question. General Schoomaker, between January 20 and February 21 
this year, there were six U.S. military helicopters shot down by enemy 
fire. In all of 2006, there were five. Based on what you have learned 
from the recent downed helicopters, can you tell us if you believe your 
change in tactics has reduced this threat from the insurgents? And, is 
there anything that has been learned to suggest procurement of any 
specific countermeasures beyond what is in the fiscal year 2008 budget 
request or the supplemental appropriations request?
    Answer. Yes, the change in the tactics, techniques, and procedures 
we utilize in aviation operations has been successful in minimizing the 
air defense threat. The Army continues to adapt our tactics, techniques 
and procedures along with the fielding and developing of the most 
advanced aircraft survivability systems available. All considerations 
from current combat operations have been addressed in the current 2008 
budget and appropriate supplemental requests. The Army requests your 
continued support in resourcing these programs to protect our Soldiers 
engaged in the War on Terror.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                 NATIONAL GUARD EQUIPMENT AND READINESS

    Question. The GAO reported in January that the Guard equipment 
inventory is seriously low. Deputy Secretary England assured me that 
the Guard had the equipment it needed in theater, but I remain 
concerned about the levels of Guard equipment for missions at home. My 
home state Guard has the lowest equipment levels of any State, with 
less than 35 percent of authorized dual-use equipment. What is the Army 
doing to ensure that our National Guard is equipped for missions at 
home including Operation Jump Start and responding to Federal disasters 
like Hurricane Katrina?
    Answer. The Active and Reserve Components are vital to the Army's 
operational strength, and their readiness today is a result of under-
funding and increased defense requirements. Army investment accounts 
were under funded by approximately $100 billion during the decade prior 
to September 2001, resulting in nearly $56 billion in equipment 
shortages across the Army at the start of the war. This condition 
forced the Army to pool equipment from across the force to equip 
Soldiers deploying into harm's way. As a result of this cross-leveling 
to deploying forces, non-deployed units in all components have between 
40 and 55 percent of their required equipment, and non-deployed Army 
National Guard units have about 51 percent of their dual-use equipment 
on-hand.
    The Army has identified 10 essential capabilities the Army National 
Guard (ARNG) must have to conduct the ``near full spectrum'' and ``be 
prepared'' missions identified by Congress. The President's budget, 
delivered to Congress on February 5, 2007, requests $3.7 billion in 
fiscal year 2008 equipment funding for the Army National Guard. For 
fiscal year 2005-13, the Army has budgeted $36.8 billion for the 
National Guard. In addition, we are distributing $10.6 billion in 
existing Army equipment to the Guard through the first quarter of 
fiscal year 2009. This level of investment in the National Guard is 
historic. These funds will enable the Army to transform units in all 
components to the same robust designs, and equip the Army National 
Guard to similar levels of modernization as Active component units. The 
on-hand Army National Guard equipment will increase to over 70 percent 
by fiscal year 2015, if the funds are received and executed as planned.
    In regard to Operation Jump Start, the Army continues to play a 
significant role in the Department of Defense's support to the 
Department of Homeland Security (DHS) in that program. The Army 
provides personnel, systems, technology and infrastructure as an 
immediate, short-term measure to allow DHS to implement the Secure 
Border Initiative. This strategy enables DHS to increase deterrence and 
border security capabilities in the Border States with Army resources 
while they train additional border patrol agents for the long-term 
mission. Support provided for Operation Jump Start includes 
construction equipment, air and ground based multi-sensors, Stryker 
units, and ground-based air surveillance radar support, etc. Also, the 
Army provides training and intelligence analysis support.
    The Army is determining what equipment will be provided to the ARNG 
to meet critical needs identified by The Adjutants General for the 2007 
hurricane season. During the 2006 season, the Army fielded 11,000 
pieces of equipment to the Guard. The goal is to provide the equipment 
for hurricane preparedness needs in Texas, Louisiana, Mississippi, 
Alabama, Florida, Georgia, South Carolina, North Carolina, Hawaii, 
Puerto Rico, Guam, and the Virgin Islands by June 1, 2007. The ARNG has 
determined that it will be able to meet equipment shortages in the 
remaining Atlantic States; however, the Army stands ready to provide 
equipment and other military assistance to civil authorities as needed.
    Question. How much of your fiscal year 2008 request for the 
National Guard will be used to address equipment shortages for the 
National Guard's efforts in the United States?
    Answer. The President's budget, delivered to Congress on February 
5, 2007, requests $3.7 billion in fiscal year 2008 equipment funding 
for the Army National Guard.

                       WHITE SANDS MISSILE RANGE

    Question. I am proud that New Mexico is home to a top-notch test 
facility, White Sands Missile Range (WSMR). As you know, WSMR's air 
space and range facilities are unparalleled, and the range is being 
used by the Department of Defense for a variety of efforts, including 
testing and evaluating much Future Combat Systems technology.
    What work can we expect the Army Evaluation Task Force to perform 
at White Sands in fiscal year 2008?
    Answer. The Army established the Army Evaluation Task Force (AETF), 
known previously as the Evaluation Brigade Combat Team, Fort Bliss, 
Texas, in December 2006, to support test and evaluation of Future 
Combat Systems (FCS) technologies. For the remainder of 2007, the AETF 
continues to receive Soldiers and equipment, execute new equipment 
training, and train as a BCT. Once the AETF is trained and certified on 
current force systems, the unit begins training on FCS spin-out systems 
in preparation for FCS test and evaluation activities in 2008.
    Specifically, in fiscal year 2008, the AETF will participate in the 
Integrated Mission Test at the FCS Common Control Node located on White 
Sands Missile Range (WSMR). The Integrated Mission Test is a core 
program development test aimed at maturing the common operating system 
software and systems interfaces as well as exploring core program 
doctrine. AETF soldiers will train on the common control node computer 
wireframes and operate them during the test under direction of the test 
engineers. The AETF will also perform training and operations of 
systems for the Spin-out 1 Force Development Test and Evaluation, 
Technical Field Test and Limited User Test in fiscal year 2008. These 
test events will be conducted in the southern portion of WSMR and 
northern Fort Bliss in New Mexico. Successful conduct of these Spin-out 
activities will rely on the test capabilities of WSMR, the training 
capabilities of Fort Bliss and the combined integration of operations 
between the installations. Several other FCS program related activities 
will occur at WSMR in fiscal year 2008 including robotic convoy 
development testing, intelligent munitions system risk reduction, Non-
Line of Sight Launch System and unmanned ground sensor development 
testing and various sub-system level integrated qualification tests, as 
well as information assurance development (Army Research Lab at WSMR) 
and systems analysis (Training and Doctrine Command Analysis Center at 
WSMR) each of which the AETF may monitor, observe or participate in at 
various levels.
    Question. How will locating the Army Evaluation Task Force at Fort 
Bliss, TX impact White Sands Missile Range?
    Answer. The Army Evaluation Task Force (AETF), Fort Bliss, Texas, 
will have a positive impact on both Fort Bliss and White Sands Missile 
Range (WSMR) in terms of regional activities, economics and value to 
the Army. The AETF will perform and participate in test and training 
activities at WSMR as a critical element of the research, development, 
test, and evaluation activities of the Army. White Sands will realize 
an increase in required soldier support activities and workload 
associated with the activities of the Future Combat Systems (FCS) and 
AETF as a result of training and test activities involving WSMR assets, 
land and air space, instrumentation and expertise. The AETF will 
require seamless access and operations across the installations thus 
requiring both WSMR and Fort Bliss to elevate the coordination and 
cooperation of the past to a high level of activity and integration 
including garrison support, air space and land space operations, 
networks and frequency management. Additionally, the AETF will require 
WSMR to provide the ability to support sustained activities during 
training and test events occurring in southern WSMR and northern Fort 
Bliss which may include temporary billeting, ammunition supply, 
transportation, dining, maintenance, administrative support, and safe 
access to ranges on each installation. The Army, WSMR, and Fort Bliss 
see the impacts to the region, specifically WSMR, to be positive in 
presenting opportunities for the region and providing best value 
acquisition and Soldier support.
    Question. What does the Army need to coordinate work between Fort 
Bliss and WSMR?
    Answer. The Army has begun to establish operations at WSMR and Fort 
Bliss for the development, test and training of the Future Combat 
Systems (FCS). Additionally, the Army is basing the 1st Armored 
Division at Fort Bliss and continues Joint Research, Development, Test, 
and Evaluation (RDT&E) at White Sands Missile Range (WSMR). Though 
these installations have worked well together in the past, this overall 
increase in transformational activities at both WSMR and Fort Bliss 
will require increasing coordination and cooperation between the 
installations and the ability to leverage the assets and expertise of 
both. The Army selected Fort Bliss to host the Army Evaluation Task 
Force (AETF) for its vast training ranges, Soldier support capabilities 
and its proximity to the RDT&E activities, instrumentation, and 
expertise at WSMR. To facilitate the coordination of requirements and 
operations, the Army established a Program Manager FCS field office, 
Combined Test Organization field office and FCS Lead Systems Integrator 
Test field office at WSMR and the Future Force Integration Directorate 
and Army Evaluation Task Force at Fort Bliss among other existing 
organizations such as Army Research Lab--Survivability Lethality 
Analysis Directorate and Training and Doctrine Command Analysis Center 
WSMR, that will play key roles in the FCS program as well as 
coordination between the installations.
    To date, there has been significant coordination between Fort Bliss 
and WSMR. Specifically, much work has been accomplished in integrating 
the Network architectures, establishing integrated air space management 
and control and garrison support operations for land operations. Recent 
planning activities have identified the need for billeting, dining, 
administrative, and maintenance facilities at WSMR in the form of a 
forward operating base to support AETF Soldiers, testing and training 
personnel, and One Team Partners operations at WSMR and northern Fort 
Bliss during test and training events. As this requirement is the 
result of evolving planning and analysis, it has not been projected 
within the program or Army budgets and is not achievable within the 
program schedule and budget cycle.
    Additionally, the need for improvements to the main supply and 
transportation route between Fort Bliss and WSMR has been identified as 
a concern. The main transportation route between Fort Bliss and WSMR, 
known as ``War Road'' is in a state of disrepair. Specifically, the 
portion of the road on Fort Bliss from Dona Ana Range Camp to the White 
Sands boundary has numerous potholes, no shoulder and in many areas, 
the edge of the road is extremely deteriorated. This road is critical 
to the FCS program and the Army for transporting Soldiers, civilians, 
and equipment between Fort Bliss and WSMR and from Fort Bliss to the 
primary training areas on Fort Bliss. As the Army increases FCS 
activities between Fort Bliss, WSMR, and the 1st Armored Division 
training activities on Fort Bliss, this road will incur an exponential 
growth in traffic load and a corresponding degradation in safety.

            HIGH ENERGY LASER SYSTEM TEST FACILITY (HELSTF)

    Question. The High Energy Laser System Test Facility (HELSTF) has 
been our pre-eminent laser test facility since the first MIRACL test in 
1984. Facilities such as HELSTF ensure our Armed Forces have the most 
advanced technological advantage possible, yet the budget request for 
fiscal year 2008 cuts nearly $14 million from HELSTF's budget.
    What is the Army doing to ensure HELSTF continues its ability to 
serve as a cutting-edge test facility so we don't lose unique testing 
capabilities such as the MIRACL laser?
    Answer. HELSTF is an important test facility that will continue to 
support directed energy tests and evaluation needs of the Department of 
Defense (DOD). A capability to support solid-state laser development 
programs will still exist at HELSTF, and will be utilized by the Army. 
Specifically, a series of tests in support of the Army's High Energy 
Laser Technology Demonstrator (HEL-TD) are planned in 2008 thru 2013. A 
recent customer survey revealed that there are no identified test 
requirements for the Mid-IR Advanced Chemical Laser (MIRACL) or the Sea 
Lite Beam Director (SLBD), therefore the MIRACL and SLBD will be placed 
in storage.
    HELSTF will continue to support the DOD's need for directed energy 
test and evaluation by standing up a Solid State Laser (SSL) testbed. 
The intent of the SSL testbed is to allow a laser weapon system 
developer to bring lasers to HELSTF at an early point in the weapon 
system's development program. The SSL testbed will allow investigation 
of the systems engineering and integration issues associated with 
weaponizing lasers without having to build a prototype of the complete 
weapon system. A fixed testbed, based on existing hardware in place at 
HELSTF, provides a near laboratory environment and allows field-testing 
of lasers at HELSTF test areas. A transportable testbed, based on the 
existing ex-THEL hardware, and complemented by transportable diagnostic 
sensors, data collection, data processing and range control equipment, 
is planned to support field-testing of more advanced prototypes. Army 
funding allows these systems, operated by government technical staff, 
to continue to support SSL weapon system development programs of the 
DOD. As with any complex program, there is some risk that if a major 
component fails, sufficient funds to affect a repair may not be 
immediately available.
    HELSTF will be positioned to support the Army's Counter-Rocket, 
Mortar, and Artillery (C-RAM) program, the Joint High Power Solid State 
Laser program, the Army's High Energy Laser Technology Demonstrator in 
the C-RAM role, and other SSL programs. The present workforce is sized 
and trained to operate MIRACL and SLBD. This workforce will be released 
in December 2007.
    In the near term, the smaller workforce will reduce the capacity at 
HELSTF; tests previously conducted in parallel may now have to be 
sequential, but in time the all-government staff will acquire the 
training and experience to enable the facility to continue to provide 
the unique capabilities that HELSTF has traditionally provided to 
Directed Energy weapon system development efforts of the DOD. The staff 
will continue to help plan, design, and execute laser test and 
evaluation. Contract mechanisms are in place to supplement government 
personnel with contractor support, should the customer-funded workload 
require this.
    Funding does not allow for acquisition of ``adaptive optics'' for 
the SSL Testbed. Without these optics to compensate for the effects of 
the atmosphere on the laser beam the range at which targets can best 
tested will be reduced. Modernization of other test capabilities to 
support Directed Energy are ongoing in the DOD Directed Energy Test and 
Evaluation Capabilities (DETEC) program funded by the Central Test and 
Evaluation Investment Program. These capabilities are presently focused 
on providing improved instrumentation to support Directed Energy T&E. 
The majority of DETEC capabilities will be fielded at HELSTF.
    The DOD's Directed Energy test and evaluation needs will continue 
to be supported by capabilities at HELSTF. It will remain a cutting-
edge facility for Directed Energy T&E.
    Question. Why, after years of funding HELSTF, has the Army decided 
to cut the program in fiscal year 2008?
    Answer. A recent customer survey revealed that there are no 
identified test requirements for the Mid-IR Advanced Chemical Laser 
(MIRACL) or the Sea Lite Beam Director (SLBD), therefore the MIRACL and 
SLBD will be placed in storage. The funds that previously supported 
MIRACL and SLBD have been realigned to higher priority Army programs. 
HELSTF is an important test facility that will continue to support 
directed energy tests and evaluation needs of the Department of 
Defense. A capability to support solid-state laser development programs 
will exist at HELSTF, and be utilized by the Army. Specifically, a 
series of tests in support of the Army's High Energy Laser Technology 
Demonstrator are planned in 2008 thru 2013.

                        RECRUITING AND RETENTION

    Question. Like all the members of this committee, I am concerned 
about the effects of prolonged overseas operations on our recruiting 
and retention efforts. The men and women of the U.S. Army have been 
nothing short of spectacular in defending our nation against a range of 
threats since the attacks of September 11th. They performed with valor 
as a maneuvering force in both Iraq and Afghanistan and have since then 
taken on the dangerous mission of operating in a hostile urban 
environment. I am concerned that the dangers of this latter mission may 
negatively impact recruiting for the active and reserve/guard 
components.
    Do you believe that enhanced enlistment bonuses, increased 
recruiters and other incentives for individual soldiers will be enough 
to overcome current recruiting difficulties for the Army?
    Answer. Yes, the Army believes the enhanced enlistment bonuses, 
increased recruiters and other recruiting incentives (in combination 
with improvements to our business practices) in conjunction with new 
Army marketing efforts will be enough to ensure we overcome the 
recruiting market challenges of fiscal year 2007. The continued support 
of Congress in funding these efforts in a timely manner and enabling 
the Army to address new challenges is essential to maintaining the 
momentum of success we have achieved in recruiting.
    Question. Tell us a little about your budget request for recruiting 
and retention?
    Answer. To achieve mandated end strengths, the Army increased the 
accession and retention missions for all components. The current fiscal 
year 2008 base budget and supplemental requests reflect the 
Department's projected requirements by component. To maintain the 
continued success, the recruiting and retention programs require modest 
funding growth from fiscal year 2007 anticipated final execution. The 
Army will monitor its fiscal year 2008 recruiting results and make 
internal adjustments as necessary.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                     FORT KNOX BRIGADE COMBAT TEAM

    Question. Please provide a detailed timetable for the fielding, 
equipping and funding of the brigade combat team that has been assigned 
to Fort Knox, Kentucky in the 2005 Base Realignment and Closure 
process.
    Answer. The 3rd Brigade, 1st Infantry Division (3/1 ID) is the 
brigade combat team (BCT) designated for stationing at Fort Knox, 
Kentucky, and currently exists at Fort Knox as a cadre unit. In order 
to relieve stress on the force, the Army is accelerating the modular 
conversion of two BCTs, including 3/1 ID, to April 16, 2007. Due to 
availability of training support systems and facilities, 3/1 ID will 
build up at Fort Hood, Texas, to convert to an Infantry BCT and train 
for full spectrum operations. Modular equipment fielding is scheduled 
for completion by November 15, 2007, and the unit is currently 
scheduled for deployment to Operation Iraqi Freedom in fiscal year 
2008. The unit will re-station to Fort Knox, Kentucky, after return 
from Iraq. The current Department of the Army order for 3/1 ID directs 
the unit to arrive at Fort Knox by September 16, 2009.
    Question. Please discuss the assets that Fort Knox, Kentucky has 
that would make it a favorable location for an additional brigade 
combat team.
    Answer. Fort Knox will be a premier training facility for the 
Infantry brigade combat team (BCT) to be assigned as a result of the 
BRAC 2005 legislation. In addition to existing excess facility capacity 
resulting from the restationing of the Armor Center, Fort Knox has 
available land for additional construction on the installation. Fort 
Knox also has adequate Family housing and the installation recently 
completed an environmental assessment, which allows for rapid 
stationing actions.
    Question. What improvements to Fort Knox would be necessary for the 
installation to become categorized as a Power Projection Platform?
    Answer. The Army defines a Power Projection Platform as ``an 
installation that strategically deploys one or more high priority 
active component brigades and/or mobilizes high priority reserve 
component brigades.'' Construction on a BCT complex at Fort Knox is 
underway and scheduled to be completed in fiscal year 2009. Once the 
BCT re-stations to Fort Knox and occupies the complex, the installation 
could be categorized as a Power Projection Platform.

                            QUALITY OF CARE

    Question. In light of the grave problems uncovered at Walter Reed 
Army Medical Center, do Ireland Army Community Hospital at Fort Knox 
and Blanchfield Army Community Hospital at Fort Campbell have 
sufficient funding to provide a high quality of care for U.S. service 
men and women?
    Answer. Ireland Army Community Hospital and Blanchfield Army 
Community Hospital have adequate funding to perform their healthcare 
support missions. As the Army implements lessons learned from Walter 
Reed Army Medical Center and recommendations from several internal and 
external review groups, resource requirements at these hospitals may 
change. As new requirements are identified we will fund them. If the 
U.S. Army Medical Command determines additional funding is needed to 
improve our medical support processes, we will request additional funds 
from the Department of Defense and keep you informed of these 
requirements.

                            DAVIS-BACON ACT

    Question. It has come to my attention that some operations at 
military installations are encumbered by the need for compliance with 
Davis-Bacon. Does Davis-Bacon hinder military readiness in the Army?
    Answer. The Davis-Bacon Act is a Federal labor law and the 
requirement that sets minimum wage rates and other administrative labor 
compliance requirements that must be paid and followed by construction 
contractors on military construction work throughout the United States. 
As such, it does not directly affect military readiness in the Army, 
but it does add to the overall cost of executing military construction 
work and adds other administrative burdens on military construction 
contractors that would not be required on commercial construction 
projects. Therefore, there is a direct result of higher construction 
costs for military construction projects as a result of the Davis-Bacon 
Act, which indirectly reduces the total military construction budgets 
for new and existing facilities construction.
                                 ______
                                 
               Questions Submitted by Senator Judd Gregg

                        PATRIOT CONFIGURATION 3

    Question. Secretary Geren, regarding the Patriot Configuration 3, 
my understanding is that the Office of the Secretary of Defense 
approved the Army's request to include funds in the fiscal year 2007 
Supplemental to upgrade the remaining 12 Firing Units of the Patriot 
fleet to Configuration 3, thereby making every Patriot launcher in the 
U.S. Army capable of firing the advanced PAC-3 missile. However, OMB 
removed the Patriot upgrade funds from the Supplemental before sending 
it to Congress. I further understand that this Patriot Pure Fleet 
initiative is high on the Army's Unfunded Requirements List.
    What is the cost of these upgrades and how would this initiative 
increase the readiness of, and reduce the deployment burden on, the 
entire U.S. Army Patriot force?
    Answer. The cost to upgrade the remaining three Patriot 
Configuration 2 (PAC-2) battalions to PAC-3 configuration is $452.2 
million. Combatant commanders recognize the shortfalls of PAC-2 and 
require PAC-3 units to meet their operational plans. Currently 80 
percent of PAC-3 capable Patriot battalions are committed. Pure 
fleeting the Patriot force with PAC-3 will increase the size of the 
pool of deployers by 23 percent and increase our Nation's strategic 
flexibility against the Theater ballistic missile threat.
    Question. How important is the Army's need to fund the upgrades of 
these older configuration Patriots in the fiscal year 2007 
Supplemental?
    Answer. The Army recognized a global missile threat, including 
threats as part of the ongoing Long War, requiring all of the Patriot 
battalions in the Army to be PAC-3 configuration. Currently, the Army 
is accepting some risk in its ability to meet all requirements, to 
include emerging Global War on Terrorism threats. To minimize strategic 
risk, meet combatant commander capability-based requirements, and 
provide a sustainable rotation base for projected global presence 
missions, Patriot modernization needs to be accomplished as soon as 
possible.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                    UNMANNED AERIAL VEHICLES (UAVS)

    Question. General Schoomaker, two years ago the Air Force made a 
major push to become the Executive Agent over all Department of Defense 
Unmanned Aerial Vehicles. Eventually, the Executive Agency idea was 
abandoned and instead the Department of Defense established a joint UAV 
Center of Excellence as well as several Service-specific UAV Centers of 
Excellence.
    To me, the mere concept of Executive Agency for UAVs is, in itself, 
problematic. Having an Executive Agent for UAVs carries the inherent 
risk that the Service designated, in this case the Air Force, would not 
have the capability to effectively balance and manage both tactical and 
strategic platforms. In addition, setting up a single authority for all 
Service UAVs is the unmanned equivalent of establishing an Executive 
Agent for all manned aircraft--an impossible feat.
    Now, however, it is my understanding that the Air Force has 
recently made another move to try to establish themselves as Executive 
Agent over UAVs--this time over medium and high altitude UAVs. On March 
5, 2007, the Air Force Chief of Staff, General Moseley, issued a 
memorandum outlining their interest in establishing Executive Agency 
for medium and high altitude UAVs with the Air Force as the lead 
agent--effectively giving themselves procurement authority and 
operational control over any UAV that flies above 3,500 feet.
    General Schoomaker, is it your belief that an Executive Agency 
designation for medium and high altitude UAV's, as well as all UAV's, 
is unnecessary?
    Answer. I do not believe Executive Agency designation is required 
for UAVs.
    As we move jointly forward on UAVs we should listen to the most 
informed voices, those of the ground commanders who state very clearly 
that their ability to task and control UAVs is non-negotiable. 
Consequently, while we all want more efficient and joint operations we 
shouldn't do so at the loss of combat capability necessary for each of 
our respective military Services to fight with overwhelming and 
decisive combat power. Since 2002, the Army has deployed hundreds of 
UAVs to OIF and OEF accumulating thousands of sorties and hundreds of 
thousands of flight hours. We've incorporated Unmanned Aircraft Systems 
(UASs) into every part of our operational environment, from squad 
through division, showing an unprecedented level of integration and 
interoperability.
    The Army, Navy, USMC, and Special Operations Forces (SOF) during 
the four years of combat operations in Iraq and Afghanistan, have made 
manned-unmanned teaming of air to-air, air-to-ground, and ground-to-air 
operations a reality. Last month, the 25th Infantry Division linked the 
Warrior-A UAV and Apaches together in a series of four engagements with 
24 enemies killed in action. Our Hunter UASs, Apaches, and ground 
combat commanders are conducting real-time combat operations for 
Counter IED. We are standardizing the system, personnel, and training 
tasks to institutionalize inter-military Service cooperation and 
increasing joint combat capability at an ever increasing rate. We 
should be working toward a strategy of inclusion rather than exclusion 
of our UAS capability.
    Consolidating virtually all the Services and SOCOM UAS systems 
within one Service stifles competition, especially in light of the 
proposal to standardize three systems provided by two vendors. While 
quantity has a quality of its own, the $15.3 billion being offered by 
the USAF to saturate the market for strategic and theater UAS support 
does little for the integrated tactical operations within the division 
operational environment. The Army, in cooperation with the USMC, Navy, 
and SOCOM has conducted several successful, fully competed UAS systems 
acquisitions resulting in DOD 5000 compliant, full rate production 
decisions. Deciding at such an early state in the evolution of unmanned 
systems technology to limit the market to two vendors is premature. We 
need to maintain an industry base where innovation, competition, and 
economy are fully exploited.
    Unmanned systems proficiency is not Service unique. The Army has 
flown the majority of UAS flight hours in Iraq where many of our 
enlisted UAS operators are on their 2nd or 3rd combat tour. The USMC 
and Army have deployed over 4,000 unmanned (air and ground) systems to 
Iraq and Afghanistan used every day in counter-IED and mobility 
operations. We are integrating our unmanned air and ground systems 
toward common user training and interface. The Army, Navy, USMC, and 
SOF are interchanging our UAS training, logistics, and systems 
development in each formal program.
    The essence of increasing and improving the contribution of our 
unmanned systems is in the combination of combat capability, tactics, 
procedures, and training across the manned-unmanned assets available. 
We are showing the value and validity of this concept today in Iraq to 
unprecedented situational awareness and kinetic effects. I could not, 
in good conscience, take these UAS systems out of the hands of our 
Soldiers, Marines, Sailors, and SOF forces that are using them to 
engage and defeat the enemy today.
    Question. What steps are you taking to ensure that the Army's needs 
and priorities will be taken into consideration regarding the future 
development and acquisition of UAVs?
    Answer. The U.S. Army continues to adhere to the integrated defense 
acquisition, technology, & logistics life cycle management framework 
knowing that effective interaction between the Joint Capabilities 
Integration and Development System (JCIDS), defense acquisition system, 
and Planning, Programming, Budgeting, and Execution (PPB&E) are 
essential. As you are aware, properly documenting needs and 
capabilities required for the Army and planning & budgeting for these 
capabilities fully supports the Army in the acquisition/development of 
our UASs for the future. The key has been in the process prior to 
Milestone B for a Program of Record (POR) by ensuring Army-endorsed 
Initial Capability Documents and Capability Development Documents is 
developed. By appropriately refining capability documents and receiving 
approval for such from the Joint Requirements Oversight Council, we are 
ensuring proper validation of our future needs by DOD. With the needs/
requirements fully captured through the JCIDS process and our PORs 
approved, we will continue to develop and improve systems throughout 
their entire life-cycle, through sustainment, to final disposal. We 
have proven this since the inception of the RQ-7 Shadow, MQ-5 Hunter, 
RQ-11 Raven, and those programs currently in System Development and 
Demonstration--the Extended Range/Multi-Purpose and Firescout Unmanned 
Aircraft Systems (UAS). Additionally, the Army closely coordinates with 
the UAS Planning Task Force of OUSD (AT&L). The Army is aware of our 
tactical requirements/needs and such program in support of our units at 
the Division and below. Additionally, continuous collaborations as part 
of the Joint UAS Materiel Review Board, the Army and other Services 
leverage to inform the DOD on the requirements/needs and current status 
of systems and components concerning UASs.

                            ARMY LIFT NEEDS

    Question. The Air Force is in the process of purchasing the next 
generation tanker that will be part of the fleet for the next 50 years. 
This plane will be as important to the ``land forces'' as it is to the 
Air Force because it will be a major provider of lift, cargo, and 
medical evacuation. Since this platform will be equipped with defensive 
systems and can take your troops from home station straight into 
theater, how important is lift to you, Secretary Geren?
    Answer. Several recent DOD and JCS-led intra-theater airlift 
studies have clearly shown that DOD airlift requirements will only 
continue to outpace the Air Force's available platforms in future 
conflicts due to the non-linear and noncontiguous changes to the nature 
of warfare. The Air Force's acquisition of a next generation tanker 
that would possess the flexibility to also move personnel, cargo, and 
medical casualties throughout a theater is extremely important to the 
Army.

                           PATRIOT PURE FLEET

    Question. Both the Department of Defense and our Combatant 
Commanders have previously testified that there is a critical need for 
the PAC-3 missile to protect our troops and coalition partners from 
weapons of mass destruction. However, more than a third of the planned 
Patriot force structure, three battalions worth of soldiers, are 
incapable of using that missile because the ground equipment has not 
been modified. Secretary Geren, why wasn't the necessary funding 
provided in the supplemental to modernize the Patriot fleet to use the 
PAC-3 interceptor missile?
    Answer. The Office of the Secretary of Defense approved the Army's 
request to include funds in the fiscal year 2007 Supplemental to 
upgrade the remaining 12 Firing Units of the Patriot fleet to 
Configuration 3, thereby making every Patriot battalion in the U.S. 
Army capable of firing the advanced PAC-3 missile. However, the Office 
of Management and Budget did not support the Patriot upgrade funds in 
the Supplemental before sending it to Congress.
    Question. What is the cost of these upgrades and how will this 
initiative increase the readiness of, and reduce the deployment burden 
on the entire U.S. Army Patriot force so it can meet the immediate 
needs of our Combatant Commanders?
    Answer. The cost to upgrade the remaining three Patriot 
Configuration 2 (PAC-2) battalions to PAC-3 configuration is $452.2 
million. Combatant commander's recognize the shortfalls of PAC-2 and 
require PAC-3 units to meet their operational plans. Currently, 80 
percent of PAC-3 capable Patriot battalions are committed. Pure 
fleeting the Patriot force will increase the size of the pool of 
deployers by 23 percent and increase our Nation's strategic flexibility 
against the Theater ballistic missile threat.

                          SUBCOMMITTEE RECESS

    Senator Inouye. We would like to thank you for your 
testimony this morning and your service to our Nation. The 
subcommittee will convene on Wednesday, March 21 at 10:30 and 
at that time, we will hear from the Department of the Air 
Force. We are now in recess.
    [Whereupon, at 12:15 p.m., Wednesday, March 14, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 21.]

</pre></body></html>
